<html>
<title> - LEGISLATIVE HEARING ON H.R. 1911, H.R. 240, H.R. 1263, H.R. 120, H.R. 2274, H.R. 2301, H.R. 2302, H.R. 2345, AND H.R. 2329</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




              LEGISLATIVE HEARING ON H.R. 1911, H.R. 240,
               H.R. 1263, H.R. 120, H.R. 2274, H.R. 2301,
                  H.R. 2302, H.R. 2345, AND H.R. 2329

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 7, 2011

                               __________

                           Serial No. 112-21

                               __________

       Printed for the use of the Committee on Veterans' Affairs





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
68-457                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
Vacancy
Vacancy

            Helen W. Tolar, Staff Director and Chief Counsel

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                 MARLIN A. STUTZMAN, Indiana, Chairman

GUS M. BILIRAKIS, Florida            BRUCE L. BRALEY, Iowa, Ranking
BILL JOHNSON, Ohio                   LINDA T. SANCHEZ, California
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
JEFF DENHAM, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.












                            C O N T E N T S

                               __________

                              July 7, 2011

                                                                   Page
Legislative Hearing on H.R. 1911, H.R. 240, H.R. 1263, H.R. 120, 
  H.R. 2274, H.R. 2301, H.R. 2302, H.R. 2345, and H.R. 2329......     1

                           OPENING STATEMENTS

Chairman Marlin A. Stutzman......................................     1
    Prepared statement of Chairman Stutzman......................    36
Hon. Bruce L. Braley, Ranking Republican Member..................     2
    Prepared statement of Congressman Braley.....................    36
Hon. Bill Johnson................................................     3

                               WITNESSES

U.S. Department of Veterans Affairs, Curtis L. Coy, Deputy Under 
  Secretary for Economic Opportunity, Veterans Benefits 
  Administration.................................................    28
    Prepared statement of Mr. Coy................................    57

                                 ______

American Association of State Colleges and Universities, Susan C. 
  Aldridge, Ph.D., President, University of Maryland, University 
  College, Adelphi, MD...........................................    21
    Prepared statement of Dr. Aldridge...........................    53
American Legion, Jeff Steele, Assistant Director, National 
  Legislative Commission.........................................     8
    Prepared statement of Mr. Steele.............................    43
Iraq and Afghanistan Veterans of America, Tom Taratino, Senior 
  Legislative Associate..........................................     4
    Prepared statement of Mr. Tarantino..........................    37
National Association of Independent Colleges and Universities, 
  Arthur F. Kirk, Jr., President, Saint Leo University, Saint 
  Leo, FL........................................................    19
    Prepared statement of Mr. Kirk...............................    50
Reserve Officers Association of the United States, Major General 
  David Bockel, USA (Ret.), Executive Director, also on behalf of 
  Reserve Enlisted Association of the United States..............     9
    Prepared statement General Bockel............................    46
Veterans of Foreign Wars of the United States, Shane Barker, 
  Senior Legislative Associate, National Legislative Service.....     6
    Prepared statement of Mr. Barker.............................    41

                       SUBMISSIONS FOR THE RECORD

Gold Star Wives of America, Inc., Vivianne Cisneros Wersel, 
  Au.D., Chair, Government Relations Committee, statement........    62
Paralyzed Veterans of America, statement.........................    65

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

      Hon. Bruce L. Braley, Ranking Democratic Member, 
        Subcommittee on Economic Opportunity, Committee on 
        Veterans' Affairs, to Major General David Bockel, USA 
        (Ret.), Executive Director, Reserve Officers Association 
        of the United States, letter dated July 13, 2011, and 
        General Bockel's responses...............................    67
      Hon. Bruce L. Braley, Ranking Democratic Member, 
        Subcommittee on Economic Opportunity, Committee on 
        Veterans' Affairs, to Arthur F. Kirk, Jr., President, 
        Saint Leo University, National Association of Independent 
        College and Universities, letter dated July l3, 2011, and 
        Dr. Kirk's responses.....................................    68
      Hon. Bruce L. Braley, Ranking Democratic Member, 
        Subcommittee on Economic Opportunity, Committee on 
        Veterans' Affairs, to Susan C. Aldridge, Ph.D., 
        President, American Association of State Colleges and 
        Universities, letter dated July 13, 2011, and response 
        from Ed Elmendorf, Senior Vice President, Government 
        Relations and Policy Analysis, American Association of 
        State Colleges and Universities, letter dated August 18, 
        2011.....................................................    69
      Hon. Bruce L. Braley, Ranking Democratic Member, 
        Subcommittee on Economic Opportunity, Committee on 
        Veterans' Affairs, to Curtis L. Coy, Deputy Under 
        Secretary for Economic Opportunity, Veterans Benefits 
        Administration, U.S. Department of Veterans Affairs, and 
        VA responses.............................................    72

 
              LEGISLATIVE HEARING ON H.R. 1911, H.R. 240,
               H.R. 1263, H.R. 120, H.R. 2274, H.R. 2301,
                  H.R. 2302, H.R. 2345, AND H.R. 2329

                              ----------                              


                         THURSDAY, JULY 7, 2011

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice at 10:08 a.m., in 
Room 334, Cannon House Office Building, Hon. Marlin A. Stutzman 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Stutzman, Bilirakis, Johnson, 
Denham, Braley, and Walz.

             OPENING STATEMENT OF CHAIRMAN STUTZMAN

    Mr. Stutzman. Good morning and welcome to the Subcommittee 
on Economic Opportunity of the Committee on Veterans' Affairs.
    We are here to receive testimony on nine bills today, 
including bills by Ranking Member Braley and I as well as other 
Members. These bills cover a variety of issues ranging from the 
Servicemembers Civil Relief Act (SCRA) to the U.S. Department 
of Veterans Affairs (VA)/U.S. Paralympics Program.
    As always, we ask witnesses to summarize their statements 
and to observe the 5-minute rule.
    I introduced H.R. 2301 to reduce the administrative burden 
on both the VA and the schools as a means to speed up 
processing by cutting down on the number of transactions per 
student due to changes in enrollment. The bill would direct the 
VA to pay chapter 33 tuition and fees after receiving a bill 
from a school reflecting all the changes in enrollment during 
the academic period.
    After reviewing the testimony, it is obvious that some 
institutions may have concerns because of cash flow and other 
reasons.
    I would point out that veterans make up less than 10 
percent of all college students for many schools, but witnesses 
have pointed out other problems, some due to State laws and 
regulations and technical issues such as needing to update the 
schools' information technology (IT) systems and varying 
lengths of academic periods.
    To that end, the two major stakeholders in this process, VA 
and the schools, need to get together and figure out how to 
make this work. The schools have a right to expect payment, but 
they also have an obligation to their veterans to adjust their 
process.
    We cannot write a bill that will account for every 
variation in how schools operate. On the VA's part, perhaps it 
is time for the VA and the U.S. Department of Education (ED) to 
adopt a common payment system to make things easier on the 
schools.
    One thing I can promise you that this will not be the last 
time we meet on this particular issue.
    I have also introduced H.R. 2302, a bill that would require 
the VA to report the estimated cost of conferences and any 
other type of meeting that meet certain thresholds. The bill 
also would require the VA to report the final cost of those 
conferences.
    While I have no objection to bringing together VA staff and 
others at a conference, I believe a measure of transparency on 
the cost is important.
    And finally, the VA/U.S. Paralympics Programs appears to be 
meeting the goals set in Public Law 110-389. In that law, 
former Chairmen Buyer and Filner saw the benefit of using 
sports as part of rehabilitating injured servicemembers. 
Initial indications are that the program has brought hundreds 
of disabled veterans back to adaptive sports and we are seeing 
a few of them succeed even at the elite levels.
    I am also proud to note that the Turnstone Center for 
Adults and Children with Disabilities, located in my district 
in Fort Wayne, Indiana, is a participant in the Paralympics 
Sports Club's program. Therefore, I believe it is important to 
see this program continue and my bill would extend the program 
through fiscal year 2018.
    I look forward to hearing from today's witnesses on all the 
bills. And at this time, I will yield to the Ranking Member, 
Mr. Braley.
    [The prepared statement of Chairman Stutzman appears on p. 
36.]

           OPENING STATEMENT OF HON. BRUCE L. BRALEY

    Mr. Braley. Thank you, Mr. Chairman.
    About 7 years ago, I had the honor of bringing my mother to 
Washington for the dedication of the World War II Memorial.
    And I know, Mr. Chairman, you and your family, my family 
and I had an opportunity to spend a little bit of the 4th of 
July period here.
    And I cannot think of a better time to rededicate ourselves 
to the work of taking care of America's veterans and having had 
the opportunity to be here and celebrate that important 
holiday.
    I want to thank you for holding this legislative hearing 
because the bills included in today's hearing represent some of 
the current critical needs veterans have such as foreclosure 
protection for servicemembers and spouses, veteran small 
business contracting opportunities, housing loans for surviving 
spouses of disabled veterans, and the need to extend paralympic 
funding.
    I am pleased that one of the bills we will be discussing 
today is H.R. 1911, the ``Protecting Veterans Home Act,'' a 
bill I introduced to help veterans returning from combat who 
are facing the foreclosure of their homes.
    This legislation would protect veterans from being 
foreclosed upon by banks and would give these soldiers time to 
get their finances in order after long deployments.
    Our veterans often return from combat only to face new 
challenges, whether it is an injury or financial crisis caused 
by long deployments and time off from their civilian jobs. Our 
veterans deserve to know that we are standing up for them.
    This bill will give soldiers enough time to get back on 
their feet and get their finances in order before being kicked 
out of their homes. It is the least we can do for the brave men 
and women who serve this country.
    Providing veterans the opportunity to succeed means that we 
have to generate programs or benefits that will allow them to 
establish small businesses, careers, or own a home.
    One of the major hurdles veterans face when they become 
civilians is that while they are on active duty, their personal 
lives and careers are put on hold while their civilian 
counterparts do not have those same challenges.
    Their service to our country can make it difficult to 
obtain a home loan, successfully compete for Federal contracts, 
or even put them at risk of losing their home in the event of 
financial difficulty.
    Today's bills recognize the many challenges that our 
veterans face. I look forward to today's discussion on how 
these bills will help veterans overcome some of the challenges 
they face and welcome any ideas on how to improve them.
    I am also anxious to hear from the testimony of our 
distinguished witnesses.
    And with that, I thank you and yield back.
    [The prepared statement of Congressman Braley appears on p. 
36.]
    Mr. Stutzman. Thank you, Mr. Braley.
    And at this time, I understand, Mr. Johnson, you have an 
opening statement and I do not know if Mr. Walz would like to 
make one.
    Okay. Mr. Johnson.

             OPENING STATEMENT OF HON. BILL JOHNSON

    Mr. Johnson. Thank you, Mr. Chairman, and I appreciate the 
time to discuss these important pieces of legislation.
    As many of you know, I have introduced H.R. 2329, the 
``Ensuring a Response for Servicemembers Act.'' The 
Servicemembers Civil Relief Act was created to protect the 
legal interests of our troops whose service to our Nation may 
interfere with their ability to meet certain financial 
obligations. The SCRA temporarily suspends certain judicial 
administrative transactions and proceedings during active-duty 
military service that would otherwise adversely affect their 
legal rights.
    Unfortunately, some financial institutions legally bound by 
the provisions of the SCRA have been uncooperative and 
unresponsive in assisting servicemembers to meet their legal 
obligations in a timely manner.
    H.R. 2329 will correct this situation by amending the SCRA 
to add the requirements for lending institutions in two ways.
    They must designate a compliance officer who is responsible 
for ensuring that the institution is complying with the 
provisions of the SCRA and distributing information to 
servicemembers.
    And then lending institutions with fiscal earnings of $10 
billion or more per year are to maintain a toll-free telephone 
number and make that number available on the institution's 
primary Internet Web site.
    It is not only in our Nation's best interest, but it is our 
responsibility to ensure that our troops will be able to 
continue to protect and defend our Nation without fear of 
financial difficulties stemming from their service.
    So I look forward to discussing these today, Mr. Chairman. 
Thank you very much.
    Mr. Stutzman. Okay. Thank you.
    And as Mr. Braley mentioned, I think this is a wonderful 
opportunity for us to remember our veterans and so I want to 
thank each one of you for being here today.
    And at this time, I will make the introductions and then we 
will yield to you for your testimony.
    With us today are Tom Tarantino, thank you for being here, 
from the Iraq and Afghanistan Veterans of America (IAVA); Mr. 
Shane Barker, thank you as well, from the Veterans of Foreign 
Wars (VFW); Mr. Jeff Steele from the American Legion; and also 
Major General David Bockel from the Reserve Officers 
Association (ROA).
    Thank you for being here. And I appreciate each of you and 
what you are doing serving our veterans.
    So let's begin with Mr. Tarantino, with your testimony and 
we will begin with you for 5 minutes.

STATEMENTS OF TOM TARATINO, SENIOR LEGISLATIVE ASSOCIATE, IRAQ 
   AND AFGHANISTAN VETERANS OF AMERICA; SHANE BARKER, SENIOR 
 LEGISLATIVE ASSOCIATE, NATIONAL LEGISLATIVE SERVICE, VETERANS 
 OF FOREIGN WARS OF THE UNITED STATES; JEFF STEELE, ASSISTANT 
DIRECTOR, NATIONAL LEGISLATIVE COMMISSION, AMERICAN LEGION; AND 
  MAJOR GENERAL DAVID BOCKEL, USA (RET.), EXECUTIVE DIRECTOR, 
  RESERVE OFFICERS ASSOCIATION OF THE UNITED STATES, ALSO ON 
  BEHALF OF RESERVE ENLISTED ASSOCIATION OF THE UNITED STATES

                   STATEMENT OF TOM TARANTINO

    Mr. Tarantino. Thank you, Mr. Chairman and Ranking Member 
and Members of the Subcommittee.
    On behalf of Iraq and Afghanistan Veterans of America's 
200,000 member veterans and supporters, I want to thank you for 
inviting me to testify at this hearing to share our members' 
views on these very important issues.
    My name is Tom Tarantino. I am a Senior Legislative 
Associate with IAVA and I proudly served 10 years in the United 
States Army, beginning my career as an enlisted Reservist and 
leaving service as an active-duty cavalry officer.
    Throughout these 10 years, my single most important duty 
was to take care of other soldiers. In the military, they teach 
us to have each other's backs. Although my uniform is now a 
suit and tie, I am proud to work with Congress to ensure that 
the entire country has the backs of America's servicemembers 
and veterans.
    IAVA supports H.R. 210, 240, 1236, 911, 2274, 2329, 2302, 
and 2345. And we thank the Committee for their work on these 
important bills and urge Congress to swiftly pass them..
    For the remainder of my testimony, however, I would like to 
address some of our serious concerns with H.R. 2301. It is the 
``Streamlining Education Claims Processing Act of 2011.''
    IAVA strongly opposes H.R. 2301. And although we believe 
this legislation was well intentioned, it could, in its current 
form, result in late fees or nonpayment charges to thousands of 
student veterans and may cause them to be barred or disenrolled 
from their current academic programs.
    This bill seeks to move VA educational assistance payments 
to the schools to the end of the term. However, that is not how 
schools work. This could cause veterans to be disenrolled after 
the add/drop period and could potentially delay Basic Allowance 
for Housing (BAH) payments throughout the entire term and that 
is in the best case.
    So without any sort of clause in this law that would 
protect veterans from penalties, from fees, and from any other 
measures resulting in delayed payments, the unintended 
consequence of this bill may be completely and totally 
destructive to veterans' academic careers and may act as even a 
disincentive for schools to go out and try to enroll veterans.
    Additionally, the second part of this bill creates a per 
school standard for determining the maximum cost per credit 
hour based on full-time enrollment. Gentlemen, this is a 
regressive proposal and it violates the whole intent of the 
Post-9/11 Educational Improvement Act of 2010. That bill was 
meant to correct an error that the VA made when formulating the 
regulations for the Post-9/11 GI Bill.
    In 2008, those regulations created 50 tuition caps and 50 
fee caps that were not connected. It created a system where 
veterans could not predict what benefits they got. The benefits 
from State to State varied widely.
    For example, in California, you could barely, in fact, you 
could barely attend public school whereas in Texas or New York, 
you could go to any private or graduate school you wanted under 
the GI Bill.
    Moreover, tuition and fees under a cap system varied 700 
percent between 2009 and 2010. They were unpredictable and, 
frankly, they were unsustainable, which is why we removed the 
tuition and fee caps which was the intent when the GI Bill was 
passed in 2008.
    This simply adds potentially 30,000 tuition and fee caps, 
one per school, and it will disadvantage veterans for not going 
to school full time. The way that this works is it creates a 
cap based on full-time enrollment on tuition.
    The language of the law is a little fuzzy on fees. So under 
the best case scenario, when fees are included in that equation 
and fees are not rated based on per credit hour, they are 
technically--they tend to be very standard whether you take 
five, ten, or twelve units.
    If a student takes a full load, they will not notice the 
difference. They will not care. It will not matter to them. 
However, if they take less than a full load, they could be on 
the hook for hundreds of dollars because the fee charges do not 
reduce with the amount of credit hours you take.
    And in my testimony, I have a chart that outlines how this 
math works.
    I understand where I think Congress was going with this, 
but the math does not work out. And that is the best case 
scenario. And the worst case scenario, fees are not even 
mentioned and the student could be on the hook for the total 
cost of fees anyway.
    Gentlemen, these calculations just do not work out. And we 
support streamlining the GI Bill. That is why we supported the 
House version of the Post-9/11 Educational Assistance Act, 
which was a much more robust bill, but the Committee chose not 
to push it forward. And so what we got was an incomplete 
version out of the Senate.
    And I want to applaud this Committee for its very hard work 
in helping fix some of the errors that came out of that Senate 
bill. And we are looking forward to passing specifically H.R. 
1383 this year.
    I want to thank you for your time and your efforts, but, 
frankly, H.R. 2301 is fixing something that does not need 
fixing. The system that will take place August 1st actually 
will work much better administratively and was the original 
intent of the Post-9/11 GI Bill.
    So I thank you for your time and attention and I look 
forward to taking any questions.
    [The prepared statement of Mr. Tarantino appears on p. 37.]
    Mr. Stutzman. Thank you, Mr. Tarantino.
    Mr. Barker, you have 5 minutes.

                   STATEMENT OF SHANE BARKER

    Mr. Barker. Chairman Stutzman, Ranking Member Braley, and 
Members of this Subcommittee, on behalf of the 2.1 million 
members of the Veterans of Foreign Wars of the United States 
and our auxiliaries, I thank you for this opportunity to 
present our views on today's pending legislation.
    In the interest of time, I will limit my remarks to a 
select number of bills before the Committee.
    The VFW is pleased to support H.R. 120, the ``Disabled 
Veterans Surviving Spouses Home Loans Act.'' This bill would 
extent VA home loan eligibility to surviving spouses of 
servicemembers who were disabled when they became deceased.
    Regardless of the extent a deceased veteran may have been 
disabled, spouses should have access to VA home loan benefits. 
Few things could be more important to a surviving spouse than 
knowing they can remain in their home after the passing of a 
husband or wife and we strongly support this legislation.
    The VFW does not support H.R. 240 which requires VA to use 
sole-source contracting methods when they can determine a 
veteran-owned small business can perform the necessary work. We 
are concerned that many such contracts may be routine and 
contracting officers may have some familiarity with established 
veteran-owed small businesses that would put others at a 
disadvantage.
    VA should be focusing their energies on processing and 
validating applications more quickly and efficiently, which we 
believe is the best way to foster more successful veteran-owned 
businesses.
    The VFW strongly supports H.R. 1263, which would amend the 
Servicemembers Civil Relief Act to protect the spouses of 
servicemembers who die on active duty from home foreclosure. 
Current law does not provide such protections and we believe 
that it should. Giving survivors this added protection is the 
right thing to do for those who have lost a loved one in 
defense of our country.
    The VFW supports H.R. 1911, the ``Protecting Veterans Homes 
Act of 2011,'' but believes it should go further to address the 
serious challenge of home foreclosure in the military.
    Servicemembers and their families need options to 
renegotiate the terms of their loan agreement and a lender who 
will provide reasonable accommodations, not simply more time 
mired in an intractable situation.
    We are particularly concerned about those serving in the 
Guard and Reserve as many take a pay cut and put their 
financial well-being at risk when they deploy.
    My written testimony provides concrete suggestions to 
achieve this goal. We are adamant that military members should 
not lose their homes when they are making good-faith efforts to 
make payments on time, but are unable to meet their commitment 
solely because they made a choice to defend our freedom and 
security.
    The VFW supports the intent of H.R. 2301, the 
``Streamlining Educational Claims Processing Act of 2011,'' but 
it should include specific protections for educational 
institutions who would disenroll students or limit their 
registration options until they receive payment from VA.
    We all know that many veterans have experienced discord 
with VA and their college or university because invoices are 
not getting paid on time because of complications when they 
drop a class or when they deploy, for other reasons including 
initial implementation hiccups.
    We want to see these and other problems addressed, but we 
also urge the Committee to be very cautious in their approach. 
In the short time since the Post-9/11 GI Bill was created, it 
has been altered significantly and this would be another 
significant change.
    Veterans are struggling to keep up with these changes when 
they should be free to focus on their education. And because 
schools use a wide variety of methods to establish the length 
of a credit-worthy class, we are also concerned with the 
definition of credit this bill would use to prorate payments.
    We hope the Committee will address these concerns when 
considering changes in an effort to bring equity to the Post-9/
11 GI Bill once and for all.
    Finally, the VFW supports H.R. 2329, the ``Ensuring a 
Response for Servicemembers Act.'' This bill would address 
problems brought to light earlier this year by mandating that 
all major lending institutions must employ an SCRA compliance 
officer and by requiring the posting of a toll-free number on 
the main page of their Web site to connect servicemembers 
directly to specially-trained customer service professionals. 
It is a common-sense bill that we are pleased to support.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions that you or Members of the Subcommittee 
may have.
    [The prepared statement of Mr. Barker appears on p. 41.]
    Mr. Stutzman. Okay. Thank you.
    Mr. Steele, 5 minutes.

                    STATEMENT OF JEFF STEELE

    Mr. Steele. Chairman Stutzman, Ranking Member Braley, and 
distinguished Members of the Subcommittee, thank you for this 
opportunity for the American Legion to present its views on 
legislation pending before the Committee.
    I will limit my remarks to three bills we would like to 
highlight for today's hearing.
    In 2008, Public Law 110-389 authorized the Department of 
Veterans Affairs to award grants to the U.S. Olympic Committee 
to plan, manage, and implement an adaptive sports program for 
disabled veterans and disabled members of the Armed Services.
    In addition, it authorized a monthly subsistence allowance 
to qualifying disabled veterans in training or competing for 
the Paralympics to help them more easily take part in 
competitive sports.
    Furthermore, both were authorized during fiscal years 2010 
through 2013. H.R. 2345 now before this Committee would extend 
these authorizations through 2018.
    Since its foundation in 1919, the American Legion has 
identified as its most important issue the rehabilitation and 
reintegration of the disabled veteran. We are also strong 
believers in the physical and psychological benefits that come 
from involvement in sports and recreation.
    Thus, we support such programs of the U.S. Olympic 
Committee to facilitate the rehabilitation and reintegration of 
our disabled veterans and servicemembers. We know that sports 
and physical activity can have a transformative effect on those 
with physical disability and the continued provision of funds 
will help to expand and provide greater access to sports 
programs for injured veterans and disabled members of the Armed 
Forces.
    Therefore, the American Legion supports this bill.
    H.R. 2329 seeks to encourage compliance with the 
Servicemembers Civil Relief Act by mandating that large lending 
institutions subject to the SCRA designate an employee as a 
compliance officer who is responsible for ensuring the 
institution's compliance with the provisions of the SCRA 
relating to the maximum rate of interest on debts incurred 
before military service and for distributing information to 
servicemembers whose obligations and liabilities are covered by 
those provisions.
    In addition, it requires these lending institutions to 
maintain a toll-free telephone number and make such telephone 
number available on the primary interest Web site of the 
institution.
    Earlier this year when a report that one of America's 
largest banks had been overcharging about 4,000 servicemembers 
on their home loans and had improperly foreclosed on the homes 
of 14 military families, we wholeheartedly joined the chorus of 
justifiable outrage about this shocking situation and called 
upon all financial institutions that handle mortgage for 
military families to review policies and practices to make sure 
they are obeying Federal law.
    While the bank involved has issued a mea culpa and made 
efforts to reassure the men and women of our military their 
commitment to make this right, the episode makes it clear that 
further strengthening of the SCRA is called for. It is a 
national security imperative that servicemembers be able to 
fight this Nation's wars without having to worry about their 
rights being trampled at home.
    The tragic stories of those who have been adversely 
affected by the failure of our financial institutions to play 
by the rules further highlight the necessity of enhancing the 
effectiveness of the legal and regulatory protections for our 
servicemembers and veterans.
    The American Legion supports this bill.
    Finally, H.R. 1263 would amend the SCRA to afford surviving 
spouses of servicemembers who die while in the military and 
whose death is service-connected the same protections against 
sale, foreclosure, and seizure of property currently applicable 
to their husbands who while in military service are unable to 
meet an obligation on real or personal property.
    Military families serve our country with pride, honor, and 
quiet dedication. We know that every member of the military 
family sacrifices just as much for this country. When one 
member of the family goes to war, the whole family goes with 
them.
    Currently spouses of servicemembers who have died while in 
the service have no mortgage protections leaving grieving 
families vulnerable to losing their home and being put out on 
the street. Extending mortgage foreclosure protection to 
surviving spouses will allow these families to explore their 
options so they may keep their home.
    The American Legion supports this bill.
    This completes my statement and I would be pleased to 
answer any questions you or the Subcommittee might have. Thank 
you.
    [The prepared statement of Mr. Steele appears on p. 43.]
    Mr. Stutzman. Okay. Thank you very much.
    And, General, thanks for being here and I turn it over to 
you for 5 minutes.

      STATEMENT OF MAJOR GENERAL DAVID BOCKEL, USA (RET.)

    General Bockel. Thank you, Mr. Chairman and Members of the 
Subcommittee. The Reserve Officers Association thanks you for 
the invitation to appear and give testimony.
    I am Major General David Bockel, Executive Director of the 
Reserve Officers Association. I am also authorized to speak on 
behalf of the Reserve Enlisted Association (REA).
    Though contingency operations in Afghanistan and Iraq are 
expected to draw down, currently there are still high levels of 
mobilizations and deployments and many outstanding citizen 
soldiers, sailors, airmen, Marines, and Coast Guardsmen who 
sacrifice much in order to serve. It is important, therefore, 
that we do not squander this valuable resource of experience 
nor ignore the benefits that they are entitled to because of 
their selfless service to their country.
    The legislation being discussed today shows support of our 
Guard and Reserve members, veterans, and survivors. ROA and REA 
support the passages of both H.R. 2274, introduced by 
Representation Bilirakis and H.R. 2301, introduced by 
Representative Stutzman, both of which would provide better 
oversight and streamlining of the Post-9/11 GI Bill.
    Currently many flaws exist in regards to the implementation 
of the GI Bill in part caused by a lack of oversight of the 
program. Many veterans are left to fall through the cracks of 
the Department of Veterans Affairs' system, many waiting months 
to receive benefits that they have earned.
    Also it is essential to build a more concise system of 
payment for educational benefits from the VA under the GI Bill.
    ROA and REA appreciate that Congress, the Administrative, 
and the U.S. Department of Defense have acknowledged the 
importance of family support including spouse support.
    ROA and REA urge Congress to pass H.R. 120 introduced by 
Representative Virginia Foxx which would provide certain 
surviving spouses of veterans with eligibility to both housing 
loans and monthly dependency and indemnity compensation from 
the VA.
    Spouses of deceased veterans must cope with the loss of the 
veterans while also getting their finances back in order and 
adapting to life without a partner. Furthermore, these spouses 
have made sacrifices for the United States and should be 
compensated for their losses.
    Thus, ROA and REA firmly believe that spouses of deceased 
veterans should be able to receive both dependency and 
indemnity payments and eligibility for VA's Home Loan Guarantee 
Program.
    Moreover, ROA and REA support expanding the eligibility of 
surviving spouses to receive the survivor benefit plan, 
dependency indemnity compensation payments with no offset.
    ROA and REA encourage Congress to support H.R. 1263, which 
would amend the Servicemembers Civil Relief Act to provide 
surviving spouses with certain protections relating to 
mortgages and mortgage foreclosures.
    Returning veterans often face new challenges upon their 
arrival home such as dealing with injury or having to find a 
new civilian job. For troops facing these hardships, getting 
their finances together to avoid foreclosure, sale, or seizure 
of their homes can seem almost impossible. And some of these 
protections provided in SCRA are set to expire at the end of 
2012.
    ROA and REA strongly support the passage of H.R. 1911, the 
``Protecting Veterans Homes Act,'' introduced by Representative 
Braley, which would permanently extend protections against 
foreclosure for servicemembers and would extend this grace 
period from 9 months to 12 months.
    ROA and REA also request support of H.R. 2329, the 
``Ensuring a Response for Servicemembers Act,'' introduced by 
Representative Bill Johnson, which would amend SCRA to provide 
financial protection for servicemembers.
    ROA and REA further recommend amending SCRA to broaden the 
types of leases and contracts which the person entering active 
duty can terminate without penalty and to forbid exorbitant 
overdraft fees and late fees for the deployed servicemembers.
    As an aside, ROA Servicemember Law Center provides fee 
information regarding SCRA as well as other legal issues 
relating to their service to all members of the military, their 
families, and counselors.
    ROA and REA appreciate that the House passed H.R. 1657 in 
May, which revises the enforcement penalties for 
misrepresentation of a business concern owned and controlled by 
veterans or is a small business concern owned or controlled by 
service-disabled veterans.
    ROA and REA support initiatives to provide small business 
owners with protection for their businesses to be sustained 
while on deployment.
    As such ROA and REA ask for Congressional support of H.R. 
240, which promotes jobs for veterans through the use of sole-
source contracts by the VA in order to meet contracting goals 
and preferences of the VA for small business concerns owned by 
and controlled by veterans.
    ROA and REA also support passage of H.R. 2302 introduced by 
Representative Stutzman that would require VA to inform 
Congress of conferences sponsored by VA.
    ROA and REA believe this is a good way for Congress to stay 
informed of the VA's activities and interests, which leads to 
greater transparency.
    Finally, ROA and REA support passage of H.R. 2345 
introduced by Representative Stutzman, which would extend 
authorization for the Secretary of VA to pay a monthly 
assistance allowance to disabled veterans training for or 
competing for the Paralympic team as well as authorizes the 
Secretary to provide assistance to the United States 
Paralympics.
    Once again, I would like to thank the Subcommittee for the 
opportunity to testify today. Please let me know if you have 
any questions.
    [The prepared statement of General Bockel appears on p. 
46.]
    Mr. Stutzman. Thank you, General.
    And I will begin the questions. And my first is to Mr. 
Tarantino.
    You mentioned your opposition to H.R. 2301. If we would add 
a hold harmless provision and drop the section on deleting 
credit hours, would you change the position on the bill or what 
are some of your thoughts regarding that?
    Mr. Tarantino. I think the only way we would conceive of 
supporting this bill is dropping the credit hours provision and 
ensuring that there are Federal protections for students from 
incurring any penalties. That would be the only way we would 
conceive of it.
    But overall, Congressman, I do not think this is necessary. 
A lot of the problems that came with processing the GI Bill was 
assigning structures to things that are by their own nature not 
very structured, things like tuition and fees. Tuition and 
fees, we have this loose understanding of what tuition is and 
this loose understanding of what fees are, but there is nowhere 
in any regulation or law is it defined.
    And so that is why when you assign caps or a structure to 
this system, you end up getting outliers that affect thousands 
of veterans. And that was the biggest flaw with the VA's 
initial regulations.
    Mr. Stutzman. So you do not think there is any problem 
with--I mean, I remember how it was. You change classes. You 
maybe drop a class. Your bill is kind of fluctuating there for 
some time. Do you think there is a problem of overpayment 
anywhere or----
    Mr. Tarantino. I mean, when you talk about overpayment and 
underpayment, this is actually a much deeper problem and it 
even goes so far into that the Veterans Benefits Administration 
(VBA) and VA Debt Management do not even have a method of 
effectively communicating with each other.
    I mean, and that is a whole other hearing that we could 
talk about it. I mean, up until a few months ago, they did not 
even have a phone number to call a guy from Debt Management and 
the guy in VBA . That is how bad it is.
    Mr. Stutzman. Yes.
    Mr. Tarantino. But, again, that is a separate issue. I 
think it is worth further exploring this, but I think it needs 
to be thought out and looked at a little bit more because, 
again, we are talking about roughly 30, 40,000 institutions 
that all have similar but not exactly the same policies and 
procedures when it comes to add/drop dates, when it comes to 
fiduciary management, when it comes to student accounts.
    And so if we are to put a structure on to something that is 
not very structured, we run the risk of causing a lot of 
outliers. And in the end, it could be and it usually is the 
students that pay the price.
    So if we are going to explore changing the payments, I 
think it is worth discussing this a lot more and actually, and 
I hate to use the word, but really study how this is going to 
affect it before we do this.
    Mr. Stutzman. Yes.
    Mr. Tarantino. You know, when we passed the GI Bill, it was 
the result of 2 years of discussion and thought and hearings 
and sort of working through, you know, ways that we can fix it.
    So I think it is worth talking about and I think it is a 
discussion that Congress, the veteran, the student veteran 
community, the veteran community, and the higher education 
community I think actually come together and figure out a 
solution that works.
    And I think that is a discussion that I know IAVA is 
extremely willing to have and I would hazard to say the higher 
education community would definitely like to have because I 
think ultimately what we want is a system that works for 
students and that both the VA and higher education find easy to 
administer. I think our goals are the same. So, yes, I think it 
is worth having this conversation more.
    Mr. Stutzman. Okay. Thank you very much.
    Mr. Tarantino. Thank you.
    Mr. Stutzman. And I am going to go ahead and yield to Mr. 
Braley.
    Mr. Braley. To follow-up on that, Mr. Tarantino, you had 
testified that the bill as it currently exists will 
disadvantage veterans not going to school full time. Do you 
remember that?
    Do you have any sense of the magnitude of those veterans as 
part of the overall veterans seeking educational assistance 
under this program?
    Mr. Tarantino. In sheer terms of numbers of veterans that 
are not attending the GI Bill full time, you can try asking the 
VA and they might get back to you sometime in 2025.
    Mr. Braley. But you raised this concern.
    Mr. Tarantino. Right.
    Mr. Braley. So I am interested in your perspective on how 
serious that problem is.
    I can tell you I have about 3,000 Iowa National Guard 
soldiers who will soon be returning home from Afghanistan. Many 
of them hopefully are returning to jobs they had before they 
were deployed, but a lot of them in this high level of 
unemployment for Iraq and Afghanistan veterans, they will 
probably be looking at educational options.
    And I assume that a lot of them are going to be working and 
going to school at the same time. So I am guessing a lot of 
them are going to fall into this. I am just interested in your 
perspective to support that statement in terms of how big that 
problem is.
    Mr. Tarantino. Without having hard core numbers, I would 
say it is a severe problem. I mean, and this is just anecdotal 
evidence from our membership. A significant number are taking 
school part time because you have to work.
    I had a full ROTC scholarship and I had to work full time 
to get through college.
    And so, you know, the nature of modern education and 
especially the nature of the Guard and the Reserve, you are 
going to have to take part time, especially when you are 
talking about the disabled student veteran population who may 
not be able to physically get through 15, 12 to 15 units.
    So in a system where they are going to have to pay out of 
pocket because they cannot take a full load, that is a severe, 
severe problem.
    Mr. Braley. Thank you.
    Mr. Barker, you had raised a concern about H.R. 1911 in 
that it did not go far enough in terms of giving veterans the 
opportunity to try to negotiate lower terms during the period 
of a deployment. And so I have a couple questions for you.
    You know, obviously we in Congress are dealing with the 
aftermath of a recession that was ignited in part because of 
home lending practices and because of that, home lenders are 
under great scrutiny in order to have credit-worthy loans to 
back up their portfolio.
    Have you or anybody in the VFW or any other veterans 
service organizations (VSOs), are aware or reached out to home 
lenders as a group and asked them to be involved in structuring 
a solution to this problem that could or could not result in a 
legislative response?
    Mr. Barker. The short answer is not to my knowledge.
    Mr. Braley. And what is your recommendation to us in terms 
of what types of options would best serve veterans in allowing 
them the ability to renegotiate terms of their loans with 
lenders who are in this predicament we find ourselves in?
    Mr. Barker. Sure. It is a simple concept, but it would 
require us to find a solution. The basic concept is when 
people, especially Guard and Reserve, are deploying and they 
take a tremendous pay cut, to re-amortize their loans or just 
work out prior to deployment, you know, before people go have a 
negotiation in place, have an agreement in place that would 
reduce payments, you know, perhaps by the amount of income that 
they are losing because of their deployment for that time, for 
the time of their deployment and perhaps shortly thereafter so 
that they do not get behind on their payments, so that there is 
no negative credit impact.
    The follow-on complications can be serious for many, many 
years. Even if a servicemember and their family has to leave 
their home, the complications do not end there. They continue 
on. So our idea is to give them the option and have willing 
participants, i.e. with the lending institutions to temporarily 
renegotiate the terms of their loan during the period of 
deployment.
    Mr. Braley. I am not unsympathetic to the problem. In fact, 
I am very sympathetic to the problem. I can also tell you that 
the political reality of the world we work in is if you can 
bring stakeholders to the table to try to craft a solution 
before it gets to the legislative process, you are going to 
have a much better opportunity to get consensus on how you 
structure that.
    I would just encourage all of the VSOs who are interested 
in this issue to work with you, reach out outside of the 
hearing that we are conducting today. I would be more than 
happy to work with you in trying to come up with a reasonable 
solution to this problem.
    Mr. Barker. We appreciate that wise counsel.
    Mr. Braley. Mr. Steele, you had raised the issue about 
mortgage foreclosure protection for surviving spouses and we 
all know this is a huge issue.
    And one of the things that I am interested in in terms of 
your recommendations is when you deal with this problem, you 
are dealing with the probate courts of 50 separate States who 
become involved in the death of any servicemember. You have the 
lending practices of the lenders themselves and how you take 
that loan with a surviving spouse who is probably a co-signer 
of the loan and becomes legally responsible.
    So have you and the American Legion thought through how we 
can do a better job of helping surviving spouses wrestling with 
this in light of this legislation, know where they need to go 
to find their way through this maze and get to a result that 
works best for them?
    Mr. Steele. The short answer would be no, but we appreciate 
the question and that can serve as a prompt for giving thought 
to that question.
    Mr. Braley. Great.
    Mr. Steele. So thank you.
    Mr. Braley. We would welcome any suggestions you might 
have. This is a big, big challenge for mostly widows who are 
struggling to cope with a lot of changes in their lives and 
anything we can do to remove that burden from their plate would 
be greatly appreciated. So I would welcome that insight as 
well.
    Mr. Steele. Thank you.
    Mr. Braley. Major General, I want to just ask you briefly. 
You had talked about the fact that there have been a number of 
calls received at the Servicemembers Law Center. Eighty percent 
of those calls were on Uniformed Services Employment and 
Reemployment Rights Act (USERRA).
    Can you just briefly share with us what the main items of 
concern were that were coming in on those calls?
    General Bockel. We receive approximately 500 calls a month 
and these are, you know, the first line of defense for the 
Guard and Reserve and their ombudsman. If they cannot find 
relief there, we are the only other source they have. And most 
of them are USERRA, as we mentioned.
    And as to specifics, do they fit in any particular 
category, I cannot really tell which ones are which, but 
somebody who was denied employment, somebody who was not put 
back in a position they would have attained had they stayed. I 
cannot tell you how many of those there are.
    But we do get a certain number of SCRA calls. And 
interestingly, I was discussing with majority counsel earlier a 
government agency that deals with credit protection setting up 
a separate branch to deal with SCRA issues.
    So it has reached a level that the Federal Government 
beyond just this law is taking an interest in. Of course, we 
will be involved in that as well.
    Mr. Braley. If the organization has the capability of 
categorizing and quantifying the nature of those calls, that 
could be of benefit to us in helping us understand the nature 
of the concerns and where the major attention needs to be 
focused. We would appreciate receiving that.
    General Bockel. I will make sure that we send you a summary 
depending if you just want a----
    Mr. Braley. Absolutely.
    General Bockel [continuing]. Snapshot of a particular month 
or a 6-month period or quarter, something like that. I will 
gather that information and we will have it back over to you.
    [General Bockel subsequently provided the following 
information:]


                                                                    2011 ROA Servicemember's Law Center Stats as of 10/25/11
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                             January      February     March     April      May      June      July     August     September      October      November    December      Total
                 Subject                  ------------------------------------------------------------------------------------------------------------------------------------------------------
                                              Total        Total       Total     Total     Total     Total     Total     Total       Total         Total        Total        Total       Total
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
USERRA                                            161          180       288       337       295       223       187       296           272             0            0           0       2,239
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
State Leave Laws                                    1            0         2         3         0         7         0         1             5             0            0           0          19
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Federal Leave Laws                                  3            5         1         5         5         3         0         7             6             0            0           0          35
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
SCRA                                               15           24         6        13        15        15        95         3            14             0            0           0         200
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Military Family Law                                 5           45         2         1         3         6         2         9            15             0            0           0          88
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Military Personnel Admin                            4            7         8         5         5        12        27        32            29             0            0           0         129
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
VA Benefits                                         4            3         5         1         4         5         8         1             2             0            0           0          33
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Military Voting                                    85           50        33        74        60        97        95       140            80             0            0           0         714
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Veterans Preference                                 0            0         2         5         5         2         2        19             3             0            0           0          38
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Military Justice                                    2            1         1         1         0         1         1         0             0             0            0           0           7
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Ethics Rules                                        0            0         0         0         0         0         0         0             0             0            0           0           0
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Personnel Law (Federal)                             0            0         0         0         0         0         0         0             0             0            0           0           0
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Other                                               8            6        13         9        19         9        13        13            29             0            0           0         119
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Total                                             288          321       361       454       411       380       430       521           455             0            0           0       3,621
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


    Mr. Braley. Thank you.
    With that, I will yield back. Thank you.
    Mr. Stutzman. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    First of all, I would like to thank all of you for your 
support of H.R. 2329.
    Do you believe, and I have heard in your testimony, I think 
I know the answer to this, but just want to make sure, do you 
believe this legislation will be effective in assisting 
servicemembers, veterans, and their families to receive more 
effective and responsive assistance from lending institutions 
regarding their mortgages?
    I know we have heard some horror stories in previous 
hearings. Any of you, all of you.
    Mr. Tarantino. I will go ahead and start, Congressman.
    Yes. One of the biggest problems with the SCRA that we have 
seen out in the wild is that nobody knows about the SCRA.
    You know, a few weeks ago, I attended a veterans and law 
conference at the John Marshall Law School in Chicago and the 
biggest complaint from lawyers around the country, especially 
law clinics, is that most employers, they just do not know 
about the provisions of the SCRA. This is largely because, you 
know, prior to 2001, we had a 20-year period where it was 
pretty much a peacetime military and these issues just did not 
come up as much. Now they do and the business community is way 
behind in catching up.
    So I think this is a really sensible way to ensure that the 
institutions that could potentially hurt veterans the most and 
hurt servicemembers the most have a clear and nondescript way 
to have access to not just the information but actually the 
protection of the SCRA.
    So we thank you very much for the legislation.
    Mr. Barker. I think we believe it is a clear indication 
from Congress that you are taking it seriously, which we very 
much appreciate. We want to be a part of that and we do think 
it will help.
    Mr. Johnson. Good. Any recommendations on anything else 
that we can add that would strengthen the bill to make sure 
that our servicemembers, veterans, and their families are 
protected where they engage with the lending institutions?
    Mr. Barker. I think I would suggest that it may be best to 
see how this goes and take it from there, but we think it is a 
great start.
    Mr. Johnson. Okay. Good.
    With that, Mr. Chairman, I yield back.
    Mr. Braley. Mr. Chairman, may I just follow-up with the 
gentleman's comment about awareness and follow-up with Mr. 
Tarantino on that?
    Mr. Stutzman. Sure.
    Mr. Braley. I am a big fan of self-help. I wonder if any 
groups or whether you collectively have considered reaching out 
to the U.S. Chamber. They had representatives testify in front 
of this Subcommittee about the possibility of doing some public 
service announcements (PSAs) on the specific issues that you 
have identified, Mr. Tarantino, that were raised at this 
conference on how employers are lacking basic information about 
the law and how it functions. But they certainly have a lot of 
resources and those type of PSAs should not be that expensive 
to put together, but I can tell you I have never seen any type, 
a similar type of a PSA run. And with the high volume of 
returning unemployed veterans, I think it would be something 
worth exploring.
    Mr. Tarantino. I mean, I know that the Chamber has been 
incredibly proactive in helping veterans not just with 
employment but also with information. That had not occurred to 
me. I think that is actually an excellent idea. And, I mean, 
that is definitely something we can look into.
    And, I mean, the Chamber has been one of the best partners 
in the last 2 years in helping veterans with employment issues. 
And so it is something that I think would be worth further 
discussion.
    Mr. Stutzman. Okay. Thank you to each of you for being 
here. That completes our first panel discussion. And I thank 
you again for your testimony and for your participation.
    Our second panel is comprised of Dr. Susan Aldridge, 
President of University of Maryland's University College, who 
is here representing the American Association of State Colleges 
and Universities (AASCU), and also Mr. Arthur Kirk, Jr., the 
President of Saint Leo University, who is here representing the 
National Association of Independent Colleges and Universities 
(NAICU), and welcome them to the table.
    Thank you to both of you for being here today. And, Mr. 
Kirk, we will start with you for 5 minutes to hear your 
testimony.

    STATEMENTS OF ARTHUR F. KIRK, JR., PRESIDENT, SAINT LEO 
UNIVERSITY, SAINT LEO, FL, ON BEHALF OF NATIONAL ASSOCIATION OF 
 INDEPENDENT COLLEGES AND UNIVERSITIES; AND SUSAN C. ALDRIDGE, 
 PH.D., PRESIDENT, UNIVERSITY OF MARYLAND, UNIVERSITY COLLEGE, 
    ADELPHI, MD, ON BEHALF OF AMERICAN ASSOCIATION OF STATE 
                   COLLEGES AND UNIVERSITIES

                STATEMENT OF ARTHUR F. KIRK, JR.

    Mr. Kirk. Thank you, Chairman Stutzman, Ranking Member 
Braley, and Members of the Subcommittee. I appreciate having 
the opportunity to appear today to discuss pending legislation 
dealing with the Post-9/11 GI Bill.
    I am, as you heard, Art Kirk, President of Saint Leo 
University.
    Saint Leo University is an independent Catholic university 
founded in 1889. It offers over 40 undergraduate and graduate 
degree programs on its residential campus in Florida and to 
adult students on 16 military bases in six States, to students 
in all States and overseas through our Center for Online 
Learning, and on ten Florida community college campuses.
    Saint Leo University enrolled 4,743 veterans during the 
past academic year, 2,790 or 59 percent of whom were chapter 33 
or Post-9/11 veterans. The University awarded 678 associate, 
bachelor, and graduate degrees to our veterans. The University 
also educated 5,026 active-duty military and Reservists during 
the course of this last academic year. All tolled, this equals 
37 percent of the students who took at least one course with us 
during the year.
    I represent today my University, one of the leaders in 
educating our veterans and active-duty military, but I also 
represent the member institutions of the National Association 
of Independent Colleges and Universities, an organization that 
represents the diversity of private, nonprofit higher education 
in the United States.
    The bill that I will address today is H.R. 2301, which 
would change the reimbursement procedures for veterans and 
colleges and universities.
    This bill would reduce the need for the Department of 
Veterans Affairs to make adjustments to their payments for 
veterans. However, it would also clearly increase the need for 
adjustments that would have to be made at the school level for 
other financial aid for veterans, particularly title 4 student 
financial aid.
    Program participation would become much more complicated 
both for the veteran students and for schools. Issues related 
to billing and to the assignment of responsibility for payment 
will be less clear. The management information systems in most 
schools will require reprogramming, but the more likely 
solution will be more manual adjustments.
    A particular concern is the impact this change would have 
on small colleges and the veterans who choose to attend them. 
While I would be quite pleased if every veteran looking for a 
college were to choose Saint Leo, I also deeply believe in the 
goal of the GI Bill to give veterans the widest choice possible 
of educational options.
    Over half of our Nation's private, nonprofit colleges have 
fewer than 5,000 students and a quarter have fewer than 2,000. 
Many veterans choose to attend these institutions. While they 
serve only a fraction of the veterans that we do at Saint Leo, 
these schools will struggle with more new procedures and 
consequent cash flow problems.
    The typical semester is 15 weeks. This bill would move 
payment from the beginning of the semester when most students' 
accounts are collected to 30 days after the semester ends. That 
is 19 weeks in which to wait for payment. The school will, of 
course, have had to pay all of their faculty and staff and 
other bills during that time.
    The problem will not necessarily be limited to small 
schools. The medium endowment of private, not-for-profit 
colleges is about $18 million. Indeed, while Saint Leo was not 
small 14 years ago, we found our cash flow was tight year round 
at that time. Delayed payment would have been a hardship for 
us. Thankfully we would now have the cash reserves to handle 
this.
    Another concern for many small colleges would be coping 
with changing procedures. Among other things, these changes 
would involve things such as manually voiding late payment fees 
and future registration blocks, which are automatically set 
when a student's bill is not paid.
    Saint Leo has several experts to handle the many different 
services and administrative procedures for veterans. We also 
have personnel who train other staff in these procedures. Small 
colleges or colleges with relatively few numbers of veterans 
will not have these expert resources.
    At Saint Leo University, we are already implementing a 
system we believe will resolve the problems this bill seeks to 
address. We are implementing a two-step veteran certification 
process.
    Our veteran certifying officers will enter the veteran as a 
student, but will certify zero tuition and fees in VAOnce, the 
VA GI Bill database system, at the semester's start. This 
allows the veterans to receive their housing and living 
stipend.
    After the period for adding and dropping the course ends, 
we will then reenter in VAOnce and add the tuition and fee 
charges for all the courses in which the veteran is actually 
enrolled.
    In summary, there are some pluses to H.R. 2301. Student 
accounts do stabilize after add/drop deadlines. So if passed, 
the bill would provide a truer picture in most cases.
    The VA would pay after the term, so debt collection letters 
to the students or the institutions would decline 
significantly. Every one of those letters must be researched.
    However, on the downside, cash flow to institutions and 
veterans would be problematic for many. More title 4 aid 
adjustments for veterans' accounts are likely to be needed. It 
will be hard to pay title 4 credit balances to students since 
they will not have a credit on their account from the VA. 
Veterans would face difficulties registering in many colleges 
without payment in advance or in places like Saint Leo without 
the bill settled for the previous term before the next term 
begins.
    Many colleges and university information systems will not 
be able to accommodate these changes without at least some 
reprogramming.
    Greater confusion about who owes what, the veteran, the VA, 
or title 4 will ensue. Schools will not know what VA will pay 
or what to bill the veteran. Such confusion increases the 
barriers to successful completion for our vets.
    We believe that the problems that H.R. 2301 is intended to 
solve would be better addressed if greater efforts were made to 
work within the framework the institutions now use to deliver 
financial aid to their students.
    We believe, for example, that Saint Leo's approach will 
have no adverse effects on the veterans and will reduce the 
need for billing adjustments by the VA. An approach like ours 
or others that may be devised by other colleges would offer a 
better solution.
    Saint Leo, NAICU, and many others in the higher education 
community stand ready to assist the Subcommittee in identifying 
ways to serve our veterans effectively and efficiently.
    Thank you.
    [The prepared statement of Mr. Kirk appears on p. 50.]
    Mr. Stutzman. Thank you, Mr. Kirk.
    And, Dr. Aldridge, thank you for being here. Five minutes 
for your testimony.

             STATEMENT OF SUSAN C. ALDRIDGE, PH.D.

    Dr. Aldridge. Thank you, Chairman Stutzman, Ranking Member 
Braley, and distinguished Members of the Subcommittee.
    My name is Susan C. Aldridge and I am the President of the 
University of Maryland, University College. And today I 
represent and present the perspective of the American 
Association of State Colleges and Universities or AASCU.
    The University of Maryland, University College has a 64-
year history of serving the military and veterans both 
stateside and overseas. Of our 94,000 students, we serve 50,000 
active-duty servicemembers and veterans. Even today as I speak, 
we are on the ground in Afghanistan and in Iraq delivering 
face-to-face courses to active-duty servicemembers.
    In summary, AASCU's written statement regarding H.R. 2301 
points out that there is a need to streamline the claims 
process for the payment of VA education benefits. However, the 
bill as introduced, while well-intended, has the potential to 
harm rather than benefit student veterans.
    I will now bring your attention to three areas of concern 
identified by AASCU.
    First, a delay in payment up to 30 days after the end of 
the quarter, semester, or term is unprecedented and in many 
cases will prohibit student veterans from enrolling in 
subsequent courses until payment has been made by the VA. This 
puts student veterans at a significant disadvantage in 
comparison to their civilian contemporaries and will 
unnecessarily delay their time to degree.
    With our younger veterans facing high rates of 
unemployment, we cannot afford to impede their academic 
progress.
    Second, if H.R. 2301 as introduced is made law, 
institutions, particularly public institutions, may be faced 
with unpalatable prospects of requiring student veterans to pay 
out of pocket until funding is received from the VA.
    The increasing budget cuts faced by public institutions do 
not provide for a reasonable expectation that tuition and fees 
can be deferred past the end of the term. Out-of-pocket costs 
will be prohibitive for an unknown but surely high number of 
veterans who cannot afford to pay these fees up front.
    Third, soon after the passage of the Post-9/11 GI Bill, 
institutions brought on additional staff and invested in new 
technologies to meet the demands of direct payments by the VA 
to the institutions. Given the increasing regulatory demands on 
institutions of higher education, the prospect of having to 
make further investments is daunting and may not be a feasible 
option for many of the State colleges and universities that are 
members of AASCU.
    AASCU member institutions have proudly answered the call 
since the passage of the original GI Bill. We understand and 
have responded to the challenges faced by student veterans and 
take great pride in having them in our classrooms. Their 
success is of great importance to the future of this great 
country and we owe all that we have to offer to them.
    Therefore, we ask the Committee to reconsider this 
legislation. At a minimum, we ask that time be taken to work 
with organizations such as Partnership for Veterans Education 
to give thoughtful deliberation to the impact that this bill 
would have on the timely and affordable attainment of a college 
degree for those who have so bravely served and unselfishly 
served in defense of our Nation and its citizens.
    Thank you very much for this opportunity.
    [The prepared statement of Ms. Aldridge appears on p. 53.]
    Mr. Stutzman. Thank you for being here.
    And I will start the questioning. To either one of you, 
would you agree that the vast majority of changes in enrollment 
that trigger a transaction with VA happen during the add/drop 
period and, if so, rather than delay payment until the end of 
the semester, what if the bill directed the VA to pay after the 
drop/add period?
    Mr. Kirk. One, we think that the vast majority of changes 
in a student's schedule and, hence, charges would occur during 
that add/drop period and that that would be a positive step and 
I think reduce significantly the charges back and forth.
    Dr. Aldridge. Certainly the students' records will be 
cleaner at that point in time. There are some institutions that 
are members of AASCU that have 8-week terms, so the time frame 
is very tight in terms of that 30-day window.
    So depending upon when drop/add occurs, we are still 
dealing with a fairly tight window if the State requirements 
for payment require that the students have their payments paid 
in full prior to registering for the next term.
    So I think that is at least a viable option to consider, 
but we would need to go back and talk to our members about 
that, particularly with those institutions that have shorter 
length terms.
    Mr. Stutzman. Okay. The number of paperwork transactions 
between the VA and the schools contributes to the high level of 
frustration with the Post-9/11 GI Bill by all parties. Your 
organizations obviously do not like H.R. 2301.
    So how would you suggest we fix the problem and are your 
members willing to continue the current process?
    Mr. Kirk. I can certainly speak for my institution and I 
think the vast majority, if not all the members of the 
Independent Colleges and Universities, that we will continue 
with the current process and work diligently with whatever 
process is required of us.
    Again, we have devised a solution in terms of not billing 
the VA until after add/drop. That goes into effect in our 8-
week term that begins on August 1st. We think it is going to 
significantly reduce the number of transactions.
    It does put an added burden on us because now for every 
veteran, we are making two entries into the system, but I think 
all of our schools, public and private, are absolutely 
committed to serving our veterans as best we can.
    Mr. Stutzman. That is your school has chosen to wait to 
bill until after the drop/add date?
    Mr. Kirk. Yes. Because, you know, the issues that the VA is 
facing at the end of the term also impact the institutions. 
Every one of those debt letters and transactions has to be 
researched back and forth. So we are trying to ameliorate the 
problem by implementing this ourselves and are hoping it is 
going to be a significant improvement.
    Mr. Stutzman. Do you know if any other schools have chosen 
to make the same decision that you have?
    Mr. Kirk. I do not. I would not be surprised that a number 
of other schools have because our veteran certifying officers 
are talking through list serves and that kind of thing. And we 
all recognize there is a problem here.
    Dr. Aldridge. I concur with my colleague, Mr. Kirk. I think 
the institutions are absolutely committed to these veteran 
students and want to do whatever they can to both ameliorate 
some of the paperwork issues but keep these students in school.
    Many of the institutions have tackled the administrative 
burden with a variety of different creative solutions, which is 
one of the reasons that I think it will be best for us to sit 
down and look at some of the creative solutions that 
institutions have come up with to alleviate the burden and 
simultaneously not harm the student or prevent them from 
continuing their education.
    At our institution, we allow students to register for the 
second term and do not prevent them from continuing until the 
outstanding balance is still outstanding after the second term. 
We have shorter terms, however, than some institutions. And so 
institutions that have a 15-week term could not do that most 
likely.
    So I would really encourage an ongoing discussion about 
this because I think there are some creative ideas that are out 
there that might both address the issue that you are trying to 
address through this legislation and also continue to protect 
the student and their ongoing education.
    Mr. Stutzman. If your semester is shorter, is your add/drop 
date, does that come earlier----
    Dr. Aldridge. Yes.
    Mr. Stutzman [continuing]. In the semester----
    Mr. Kirk. Yes.
    Dr. Aldridge. Yes. That's right.
    Mr. Stutzman [continuing]. Than it would in our semester? 
Okay. Thank you.
    I will yield to Mr. Braley.
    Mr. Braley. Well, let me thank both of you for the 
extraordinary efforts both of your institutions are making to 
educate our Nation's veterans.
    Mr. Kirk, let me start with you. You stated that cash flow 
would be a problem for many institutions.
    Do you have any sense of how much money we are talking 
about would be impacted at an average institution?
    Mr. Kirk. It would be sheer speculation. But for many of 
our small colleges with 1,000, 1,200, 2,000 students, they 
might have 40 or so veterans. And those colleges are most 
likely to face cash flow issues year round. They are small. As 
I indicated, average endowment $18 million. Not a lot of 
reserves there, so it could definitely have an impact on some 
institutions.
    Mr. Braley. You also stated that it would be better to work 
within the existing framework that institutions now use to 
deliver financial aid to students.
    Are you stating that the VA should use the Department of 
Education's system instead of their own?
    Mr. Kirk. No. I think we all understand that the VA has 
made a considerable investment, but I think bringing the 
Department of Education title 4 financial aid folks into the 
conversation because it will have impact on the veterans' title 
4 financial aid, which they are eligible for, so that we are 
all at the table and we do not have unintended consequences of 
solving a problem here but creating a bigger one over there 
because the veteran will be in the middle.
    Mr. Braley. What is it that is keeping everybody from being 
at the same table now?
    Mr. Kirk. I cannot answer that question, sir. I certainly 
volunteer my services and the services of my experts on campus 
to participate in that conversation. And I know that the 
National Association of Independent Colleges and Universities 
would be happy to help put that conversation together.
    [Mr. Kirk subsequently provided the following information:]

    We are currently processing our first semester/term dealing with 
the net payer issues, which I believe is what I was referring to.
    Title IV aid is excluded from the net payer issue so VA students 
will have their tuition paid by the VA plus receive their Title IV Aid. 
The problem we are seeing is state aid such as FRAG and Bright Futures. 
These students cannot receive both and were caught off guard by that. 
It may not be that they were not informed of the changes by the VA, but 
they probably just did not understand the impact. We have weekly team 
meetings with our veterans folks from the registrars area, our centers, 
student accounts and financial aid staff to develop methods of 
identifying and reporting students with financial aid so the Veteran 
Certification Officers will know how much to certify with the VA.
    The other big problem we are experiencing is with the payments 
coming from the VA. It is taking hours of staff time to match payments 
up to students. Amounts don't match and payments are coming from 
different regional processing offices and even being deposited to the 
wrong back accounts. We do hope to see a reduction over time now that 
we are not certifying until after drop/add.

    Mr. Braley. Dr. Aldridge, how would the VA benefit from 
adapting the Department of Education's common origination and 
disbursement system in your opinion?
    Dr. Aldridge. I do not know the specific details of how the 
two systems work together, but I certainly would be willing to 
have my staff who work on both of those processes, work with 
you. Because we have so many students, I would be happy to have 
them work with the staff to address whatever the issues are 
that you deem appropriate. And I know that the AASCU staff and 
other institutions would meet with you as well.
    Mr. Braley. If you would be willing to check on that and 
provide us any feedback that you get from them, we would 
appreciate that.
    Dr. Aldridge. I will.
    [The AASCU subsequently provided the information in the 
answer to Question #1 of the Post-Hearing Questions and 
Responses for the Record, which appear on p. 70.]
    Mr. Braley. Based upon your experience and talking to your 
peers around the country who deal with these challenges, is it 
your opinion that schools are unwilling to work with veterans 
and the Veterans Administration to accept payment in arrears?
    Dr. Aldridge. No. I think there are difficulties at the 
institutions right now. Many State institutions have lost 20, 
30, 40 percent of their State allocations for funding because 
of the State budget cuts.
    So many of these institutions have significant financial 
problems, not just capital infrastructure issues, but the 
general public does not want to pay more for an education, and 
simultaneously the appropriations from the States have 
decreased significantly. I think at this critical point in 
time, cash flow is an issue for that reason.
    These institutions appreciate having the veteran students 
on their campuses. Most of these campuses have added additional 
staff, have changed processes, have changed mechanisms in their 
IT systems in order to accommodate the new requirements, and 
have added new services and support systems, have worked with 
Wal-Mart and others who have offered grants to help them with 
special projects on their campuses to support these students.
    So I think there has been a genuine committed effort to 
support these warriors, particularly these individuals who are 
coming back from Iraq and Afghanistan, who need much more 
support than students that we have seen in the past. And I 
think I am seeing a renewed commitment on the part of the 
campuses to do everything they can.
    Mr. Kirk. I hesitate to speak for public institutions, but 
my understanding in the State of Florida is the Florida public 
institutions are prohibited from carrying balances for 
students. So----
    Mr. Braley. By State law?
    Mr. Kirk. I do not know whether it is law or policy.
    Dr. Aldridge. Yeah.
    Mr. Kirk. I cannot say, but I know that they are 
prohibited.
    Dr. Aldridge. Yes.
    Mr. Kirk. So the institution itself does not have the 
option.
    Dr. Aldridge. Allow me to address that. It is not a State 
law, but there are different governing councils in each of the 
different States. Many of the governing boards for universities 
do not allow them to carry debt as a State institution. And so 
they have very severe restrictions in terms of how long they 
can carry a student debt.
    So that is our biggest concern in each of these States. 
Many of them are required, we are required, for example, by the 
State of Maryland to send students to collections within a 
specific period of time.
    So the students will not be allowed to register if that 
payment has not been made unless they pay out of pocket. And 
most of these students are not able to pay out of pocket. That 
is our greatest concern.
    We can probably work through many of the other logistics 
that need to be worked through, but there are some cumbersome 
requirements State by State that really prevent the 
institutions from having bad debt from individuals that have 
not paid.
    Mr. Braley. Well, given the extensive involvement that the 
University of Maryland has with veteran students, if the 
university were required to carry all of those veterans' unpaid 
balances, do you have any sense of how much money that would 
be?
    Dr. Aldridge. We have not been able to calculate that, but 
I assure you we are working on that.
    Mr. Braley. Okay.
    Dr. Aldridge. It would not be insignificant.
    Mr. Braley. If you are able to quantify that in some way 
and share that with the Committee, that would be much 
appreciated.
    And I will yield back at this time.
    Dr. Aldridge. We will do that.
    [The AASCU subsequently provided the information in the 
answer to Question #2 of the Post-Hearing Questions and 
Responses for the Record, which appear on p. 70.]
    Mr. Stutzman. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    You mentioned a two-step process at Saint Leo that would be 
a better solution than the one that exists currently.
    What is that process?
    Mr. Kirk. Again, at the point at which the veteran enrolls, 
we would enter the VA system, indicate that the veteran had 
enrolled, but put that they enrolled in zero credit. The 
veteran then would begin to receive their housing and support 
checks.
    At the end of the add/drop period, we would then enter the 
system after they had added or dropped any courses. We would 
reenter the system and enter the actual courses that they were 
enrolled in after add/drop because there is a lot of movement 
among students from the point of registration to the end of the 
add/drop period.
    This would at least eliminate for the VA having to 
reconcile any of the dropped courses or the added courses and 
so forth.
    Mr. Johnson. In other words, you would get a jumpstart on 
the administrative process of getting the veteran enrolled?
    Mr. Kirk. And we have to make a one-step process a two-step 
process, but it saves, we think, so much time at the end for 
everyone on our side as well as the VA that we are very hopeful 
it is going to significantly ameliorate the problem for the 
vast majority of our veteran students.
    Mr. Johnson. Okay. How does the Department of Education pay 
title 4 funding? Is there anything we can learn from them to 
make the GI Bill process simpler for students and schools and 
the VA?
    Mr. Kirk. I certainly think so because they have been at it 
now for over 50 years and process much larger sums, hundreds of 
millions of dollars to every institution. So I am sure there 
are things that we can learn.
    I would not consider myself an expert in title 4 by any 
stretch of the imagination. It is a very involved process that 
starts with the financial aid form to determine the amount of 
aid for which a student is eligible.
    The institution then packages it, Pell Grants, potentially 
institutional grants, State grants, and loans based on the 
amount the student is eligible for including if they are 
getting funds from the VA. We cannot over-award financial aid. 
We cannot give them more than that form has indicated that they 
are eligible to receive.
    Those monies come to the institution. The balances for 
tuition and, if appropriate, room and board costs are applied 
to the student's bill. The excess for living expenses, books 
perhaps, and so forth must be refunded to the student within 5 
days.
    But if I go any farther, I am going to exceed my ability to 
really accurately describe that system. But they will be 
involved because many of our veterans also are receiving some 
title 4 financial aid and it is part of the process. So having 
them at the table will be very helpful.
    Mr. Johnson. Got you. Okay. Well, thank you very much.
    I yield back the balance of my time.
    Mr. Stutzman. Any further questions?
    Okay. Thank you very much for your testimony and for 
answering the questions that we had. It has been very helpful.
    And we will move on to the next panel
    Mr. Kirk. Thank you.
    Dr. Aldridge. Thank you.
    Mr. Stutzman. Our third panel is comprised of Mr. Curtis 
Coy, the Deputy Under Secretary for Economic Opportunity of the 
Department of Veterans Affairs. And Mr. Coy is accompanied by 
Mr. John Brizzi, Deputy General Counsel for the U.S. Department 
of Veterans Affairs.
    And welcome to both of you. Thank you for being here. And 
we will begin with your testimony. Mr. Coy, you have 5 minutes.

STATEMENT OF CURTIS L. COY, DEPUTY UNDER SECRETARY FOR ECONOMIC 
OPPORTUNITY, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT 
    OF VETERANS AFFAIRS; ACCOMPANIED BY JOHN BRIZZI, DEPUTY 
  ASSISTANT GENERAL COUNSEL, OFFICE OF GENERAL COUNSEL, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Coy. Good morning, Mr. Chairman, Ranking Member Braley, 
and Members of the Subcommittee.
    I appreciate the opportunity to appear before you today for 
the very first time on behalf of the Department of Veterans 
Affairs to discuss bills that would affect our housing and 
education programs as well as our mission of service to our 
Nation's veterans.
    I am accompanied today by Mr. John Brizzi from the VA 
Office of General Counsel.
    Four of the bills you are considering today would affect 
the VA Home Loan Program.
    H.R. 120, the ``Disabled Veterans Surviving Spouses Home 
Loans Act,'' would expand eligibility for VA's Guaranteed Home 
Loan Program to surviving spouses of certain totally disabled 
veterans who pass away due to nonservice-connected causes. This 
law would give a covered veteran the peace of mind that his or 
her surviving spouse will be able to receive VA home loan 
benefits regardless of the veteran's cause of death.
    VA cannot offer a position on this bill at this time, 
however, because we have not had the opportunity to determine 
the full effect of this bill on the Veterans Benefits Housing 
Program fund. VA will provide an estimate of the cost of this 
bill at a later date.
    [The VA provided the costs for H.R. 120 in the answer to 
Question #2 of the Post-Hearing Questions and Responses for the 
Record, which appear on p. 72.]
    Mr. Coy. The other three bills that would affect the VA 
Home Loan Program are all proposed amendments to the 
Servicemembers Civil Relief Act.
    H.R. 1911, the ``Protecting Veterans Home Act, ``would 
extend the period of time for which SCRA mortgage protections 
would apply from the current 9 months to 12 months and make 
this permanent.
    H.R. 1263 would expand SCRA protections to the surviving 
spouses of servicemembers whose deaths are service-connected. 
Currently those protections apply only to active-duty 
servicemembers.
    H.R. 2329 would require lending institutions to designate 
an SCRA compliance officer and larger institutions maintain a 
toll-free telephone hotline.
    VA generally supports any measures that will help 
servicemembers and veterans preserve their homes, but we will 
defer to the Department of Defense on the merits of these 
particular bills.
    Two of the bills before you affect VA education benefits.
    H.R. 2274 would require that VA and the Department of 
Defense report on the Post-9/11 GI Bill. VA would be required 
to report information about utilization of educational 
assistance and expenditures under chapter 33 as well as the 
number of credit hours, certificates, degrees, and other 
qualifications earned by chapter 33 beneficiaries.
    Further, VA would need to make recommendations for 
administrative and legislative changes to the delivery of 
education benefits.
    In general, we concur with the requirement to report 
annually on the Post-9/11 GI Bill and we have already notified 
schools that we will be requiring this information on the 
majority of the items in this bill.
    H.R. 2301 proposes a number of changes to the VA Education 
Program. First, it would define educational terms of quarter, 
semester, or term and full-time pursuit as they are established 
by the schools themselves.
    VA does not support this portion of the bill as drafted 
because it would allow each educational institution to 
establish a definition for a quarter, semester, or term. 
Allowing educational institutions to establish their own 
definitions would add an additional level of complexity to 
understanding the program.
    Currently VA has standards regarding how many weeks of 
training constitute quarters and semesters.
    Second, H.R. 2301 would require VA to pay educational 
institutions for Post-9/11 GI Bill expenses at the end of the 
quarter, semester, or term. Currently we make lump sum payments 
to educational institutions upon receipt of the enrollment 
certification from the school.
    We generally support this section of the bill. We believe 
this amendment would minimize the probability of overpayments 
of educational assistance under the Post-9/11 GI Bill. 
Requiring VA to hold tuition and fee payments to the end of the 
enrollment period would allow educational institutions time to 
submit or provide updates or changes. However, holding the 
claim open for such a period would by definition increase the 
amount of time it takes for the VA to complete the claim.
    VA is also concerned about the effective date of the 
legislation because schools begin submitting enrollment 
certifications as early as the month of June for terms that 
begin in August. If VA has already processed enrollment for 
terms beginning after 1 August of this year, educational 
institutions may have already received those payments.
    Therefore, we recommend postponing the effective date of 
this provision until August 1, 2012.
    VA requests clarifications on Section 4 of H.R. 2301 and we 
have requested specific guidance in my written statement. And 
we would be happy to work with the Committee to fully and 
effectively implement this section of the bill.
    [VA failed to provide the costs for H.R. 2274 and H.R. 
2301.]
    Mr. Coy. I will discuss three other bills that involve VA 
programs.
    H.R. 2345 would extend VA's authority to assist the United 
States Paralympics with adaptive sports programs for disabled 
vets and disabled members of the Armed Forces by 5 years. It 
would also extend VA's authority to award monthly assistance 
allowance to veterans training or competing with the U.S. 
Paralympics team by 5 years.
    Extending these authorities would allow VA and the U.S. 
Paralympics to continue developing their adaptive sports 
programming while building stronger relationships with partner 
organizations and allowing veterans to continue their 
rehabilitation for years to come.
    Subject to availability of funding, we fully support these 
extensions.
    H.R. 240 would require contracting officers to enter 
contracts with service-disabled veteran-owned or veteran-owned 
small businesses for all VA procurements under $5 million.
    VA opposes this legislation because the proposed language 
would be too restrictive and take discretion for necessary 
business judgments away from VA contracting officers.
    Furthermore, in pursuit of this existing authority, VA has 
consistently achieved its socioeconomic contracting goals for 
service-disabled veteran-owned and veteran-owned small 
business. We consider it likely that VA would pay higher prices 
over time for contracts awarded under the $5 million threshold.
    Finally, H.R. 2302 would require VA to notify Congress in 
advance of certain covered conferences by VA that would cost 
the Department at least $5,000.
    VA opposes this bill because it would impose burdensome 
notification and reporting requirements on the Department and 
would not add any value to VA's existing conference review 
process.
    It would also discourage legitimate and beneficial 
conference activities including in-person gatherings within VA 
with other Federal agencies, VSOs, and veterans' advocates and 
businesses encouraged to hire veterans.
    The definition of covered conferences captures the majority 
of operational meetings in VA's day-to-day business.
    Mr. Chairman, this concludes my prepared remarks and I 
would be pleased to respond to your questions or any from the 
other Members of the Subcommittee.
    [The prepared statement of Mr. Coy appears on p. 57.]
    Mr. Stutzman. Thank you, Mr. Coy.
    I will begin the questions. What is the percentage of 
schools that enroll 100 or fewer veterans? Do you have any 
idea?
    Mr. Coy. Yes, sir. For Post-9/11 schools, there are about 
5,500 schools. Of those, only 15 percent have enrollment of 100 
or more veterans. Of all schools, there are about 9,500 schools 
that participate in the GI Bill and 92 of those schools have 
student veteran enrollment over 1,000.
    Mr. Stutzman. Okay. So roughly 85 percent of schools enroll 
100 or fewer veterans?
    Mr. Coy. Fewer than 100, yes, sir.
    Mr. Stutzman. Okay.
    Mr. Coy. And of those schools, of Post-9/11 GI Bill 
schools, those 5,500 schools, only 21 of them have enrollments 
over 1,000. And of those 21, about 6 of those 21 are full-up 
online schools.
    Mr. Stutzman. Okay. So not necessarily like a University of 
Phoenix or something----
    Mr. Coy. Yes, sir.
    Mr. Stutzman [continuing]. Relative? Okay. Do you think 
that any of these colleges or these schools would experience a 
serious cash flow problem or a significant increase in 
administrative effort if the delayed payment provision did 
become law?
    Mr. Coy. I have to take a look at what the cash flow is for 
those schools. I would point out that we generally pay full 
tuition costs for those schools in terms of how much they would 
have to float. We would have to look at that and I can 
certainly get you that for the record, sir.
    [The VA subsequently provided the following information:]

    VA does not have information on cash flow problems or other 
administrative difficulties related to smaller institutions. Therefore, 
VA defers questions pertaining to cash flow problems or administrative 
difficulties regarding H.R. 2301 to the educational institutions.

    Mr. Stutzman. Do you have any idea what kind of impact H.R. 
2301 would have on the number of students who have overpayments 
to VA?
    Mr. Coy. I can get you the exact amount of students that 
are currently in that category. I do not have it in front of 
me. I am not thinking it is that many, but I do not have the 
number in front of me.
    Mr. Stutzman. Okay. And then also any idea on what dollar 
amount in overpayments?
    Mr. Coy. No, sir. I do not have that information in front 
of me, but I will be happy to provide that to you in a written 
response.
    [The VA subsequently provided the following information:]


------------------------------------------------------------------------
     Debt Summary for VA Education Programs as of September 30, 2011
-------------------------------------------------------------------------
                Program                      Number           Amount
------------------------------------------------------------------------
Chapter 33 Students                     156,652          $160,395,245.15
------------------------------------------------------------------------
Chapter 33 Schools                      40,328           $57,355,406.26
------------------------------------------------------------------------
Chapter 30                              42,654           $66,873,898.71
------------------------------------------------------------------------
Chapter 1606                            12,332           $8,873,858.42
------------------------------------------------------------------------
Chapter 1607                            4,350            $5,084,319.47
------------------------------------------------------------------------
Chapter 35                              24,823           $31,187,993.08
------------------------------------------------------------------------


    Mr. Stutzman. Okay. Yes. That would be very, very helpful 
if that information would be available.
    Why did the VA choose not to adopt the Department of 
Education's benefit management system?
    Mr. Coy. Their payment process? The short answer, sir, is 
that I am not sure and I will look into it. But it is my 
understanding that they are two entirely different processes in 
the way they award money to students. But I will be happy to 
provide that for the record.
    Mr. Stutzman. Would there be any potential capability of or 
compatibility between the two systems or just----
    Mr. Coy. The short answer is I do not know, but I will be 
happy to find that out. I do not know much about Department of 
Education's payment system but will shortly.
    [The VA subsequently provided the following information:]

    VA has considered the feasibility of employing a system similar to 
the Department of Education's (ED) COD system. In 2008, VA met with ED 
for a demonstration of its system. At that time VA was still developing 
detailed business requirements but knew we would need a system that 
could do the following:

    1.  Issue payments both to students and schools though Treasury 
after approval;
    2.  Allow VA to tie and track payment information to a specific 
Veteran;
    3.  Allow VA to establish accounts receivable and transfer all debt 
information to the VA Debt Management System;
    4.  Allow VA employees to enter adjustments to beneficiaries; and
    5.  Maintain detailed accounting information at the beneficiary 
level.

    After meeting with ED, VA determined that the COD system would not 
meet all of our requirements.
    On June 30, 2011, representatives from VA and ED met to discuss 
their respective programs and to get a better understanding of each 
system. From this meeting, VA determined that the systems were 
incompatible. Major differences exist in the way the programs are 
administered, which preclude VA from adopting ED's COD system.

    Mr. Stutzman. Okay. Regarding the cost of conferences, 
further scrutiny of the VA not a bad thing for taxpayers, is 
it?
    Mr. Coy. I am not sure of the question, sir.
    Mr. Stutzman. If we would, as far as the conferences go and 
with further scrutiny and transparency of the cost of the 
conferences that the VA has, that they would spend on a 
conference, I do not believe further scrutiny is a bad thing. 
Would the VA hold a different position? Obviously you are 
opposed to the bill, and why?
    Mr. Coy. I have invited Susan Blauert to come forward and 
answer that specific question on the conferences.
    Ms. Blauert. I am Susan Blauert. I am Deputy Assistant 
General Counsel in the Office of General Counsel.
    And what our views are laid out as are really a concern 
about the breadth and scope of the bill and the impact that the 
covered conferences as defined would have.
    I do not think we are opposed to transparency per se. We 
just have concerns about the breadth and scope of these 
particular requirements.
    Mr. Stutzman. Well, how do you think it would discourage 
conferences if this bill would pass?
    Ms. Blauert. How, I do not----
    Mr. Stutzman. I believe in the testimony that the VA 
opposes the section and one of the reasons was that it would 
discourage conferences. Let me see if I can find that right 
off.
    Do you have that? Where was that at?
    Okay. Opposes it because it would discourage conferences 
and has too low of a threshold for reporting the expenditures 
of a conference.
    I mean, obviously $5,000 is a low threshold, but the 
transparency, I believe, is very important. And it seems like 
some of the conferences have exceeded what most taxpayers would 
believe to be appropriate.
    Would you agree with that?
    Mr. Brizzi. Mr. Chairman, I will try and address this 
matter.
    VA certainly has no objection in any way to transparency. 
And we believe that we are already transparent as to our 
expenditures for conferences.
    But what this does is put us in a position where, even if 
we are going to conduct a very small conference, we may not 
necessarily be able to meet one of your requirements, which is 
to provide notice to the Congress 180 days in advance of that.
    We may simply be in a shorter time frame on organizing some 
meetings that we believe would fall under your criteria as it 
presently is drafted primarily, because it is an ``or'' 
situation versus ``and.'' If any one of the three criteria 
would apply, then we would be subject to this advanced 
reporting.
    We certainly have no problem with reporting. I do not want 
you to think that in any way that VA is reluctant to be 
providing this information.
    Mr. Stutzman. Well, I think I understand why you may feel 
that the thresholds may be tying your hands a little bit more 
than necessary, but I think the point is that we are trying to 
get at, with the fiscal situation that we are in, eliminating 
frivolous, wasteful conferences that really appear to be 
extravagant in spending.
    The information that I have here is that there was a 
conference in Scottsdale, Arizona, where the VA paid a 
contractor over $99,000 and extended the conference over a 
weekend. I mean, that typically does not go on hopefully within 
government agencies, but it does not make sense right now at a 
time when we are trying to control spending in Washington. And 
this is the type of action that we are trying to get at.
    Mr. Brizzi. Certainly. I cannot disagree with you. We can 
respond to that particular matter for the record if you would 
like.
    [The VA subsequently provided the following information:]

    The VA Schedule of Rating Disabilities (VASRD) forum held in 
Scottsdale, Arizona, from January 25 to February 4, 2011. These 
conferences are required as part of the VASRD update, and it is 
impossible to complete the update of the VASRD without them. VA 
attempts to complete updates for four to six body systems each year, 
and the nature of the body systems is such that each body system 
requires a completely different group of attendees and medical experts. 
VA attempts to hold the conferences in the part of the country closest 
to the experts we need for the particular body system we are updating.
    This particular conference was not extended over the weekend. It 
was always scheduled to last for 2 weeks. This is all part of our 
effort to accelerate the VASRD update process and better serve our 
Nation's Veterans. We completed two body systems the first week of the 
conference and two different body systems the second week. The expert 
personnel, doctors, raters, VSOs, and other participants for each of 
the weeks were different, so none of the technical staff or experts 
were held over the weekend. One group left Friday night, and the next 
group arrived on Sunday night. We kept our support staff in place, 
because it was cheaper to keep them there than fly them back to DC 
Friday night and then back to Arizona on Sunday night. The support 
staff worked the entire weekend to complete the documents and finalize 
the first two body systems and then set up everything for the second 
conference. The entire conference was planned to make the best use of 
resources.

    Mr. Stutzman. That would be fine.
    Mr. Brizzi. Thank you.
    Mr. Stutzman. Any further comments?
    Okay. I will yield to Mr. Braley.
    Mr. Braley. Just a few questions. Mr. Coy, what are the 
main differences in how the VA pays for tuition versus how the 
Department of Education pays for tuition?
    Mr. Coy. The short answer, sir, is that I am not entirely 
clear on how Education does their payment system. And I will 
certainly find out and provide that to you for the record.
    I think Mr. Brizzi can shed some light on how Education 
pays its grants.
    [The VA subsequently provided the following information:]
    Few differences exist in how tuition is paid by the 
Departments. Both VA and ED send payment information to 
Treasury who will then release the payments. Both VA and ED 
have the ability to pay by check or by EFT. ED has more 
advanced automated tools that schools can use to reconcile 
payments received to accounts.
    Mr. Brizzi. It is not so much a matter of us choosing one 
particular system, simply because we like our system better.
    The statutes are vastly different. The two programs are 
different in their organization, in their requirements, and in 
some respects in the specific purpose for which they are 
provided.
    So this is not a new discussion, obviously. This has been 
brought up many times before and VA's position has always been, 
to my memory, that depending on how we are authorized to 
operate under the statute, that is the way we proceed.
    Mr. Braley. I understand that these types of rationales are 
offered and have been offered for years, but we spend a lot of 
time here talking about the concept of interoperability and how 
government agencies communicate with one another.
    If there is a problem that deals with how you streamline 
payment for educational funding that serves a similar purposes 
and if the agencies are not talking to each other about how 
they could coordinate and streamline those payment systems, 
then we are failing to do our job because those statutes can 
also be amended. The regs that implement those statutes can be 
amended.
    If there are better ways to serve veterans and make sure 
they are getting payment for educational benefits they are 
entitled to, I am willing to take that responsibility on.
    Mr. Brizzi. I also agree with that. We certainly do have 
relationships with, and communications with, the Department of 
Education. I think what I am trying to indicate is that we 
would be in some respects trying to fit a square peg into a 
round hole if we tried to adopt and follow Education's 
procedures.
    Mr. Braley. Right. And in my experience, Mr. Brizzi, a lot 
of times, those square pegs cannot be fitted into a round hole 
because the people who have the knowledge base to solve that 
problem much as they solved that problem during the Apollo 13 
mission are not talking to each other and oftentimes come to us 
requesting a legislative response without a consensus decision 
on how we can do it better.
    So I guess the message I am sending today is that I welcome 
input from people who have talked to people in the Department 
of Education about how we on this Committee can help improve 
and streamline the payment systems, achieve a common purpose, 
and do what is important to get our veterans the educational 
assistance they earned.
    And with that, I will yield back. Thank you.
    Mr. Stutzman. Okay. I think that is all the questions that 
we have from the Subcommittee.
    I want to thank you for being here and for your answers. If 
you could submit the information that we had asked for and were 
not able to give an answer that would be helpful and we will 
look forward to that.
    And as always, we are grateful for all the witnesses who 
took time and their effort to present their testimony.
    I would like to remind the Subcommittee that we will hold a 
markup next week on Thursday, the 14th at 10:00 a.m.
    And, finally, I would ask unanimous consent that all 
Members have 5 legislative days to revise and extend their 
remarks. Hearing none, so ordered.
    And this hearing is adjourned.
    [Whereupon, at 11:42 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

              Prepared Statement of Hon. Marlin Stutzman,
             Chairman, Subcommittee on Economic Opportunity
    Good morning. We are here to receive testimony on nine bills, 
including bills by Ranking Member Braley and me, as well as other 
Members. These bills cover a variety of issues ranging from the 
Servicemembers Civil Relief Act to the VA-U.S. Paralympics program. As 
always, we ask witnesses to summarize their statements and to observe 
the 5-minute rule.
    I introduced H.R. 2301 to reduce the administrative burden on both 
the VA and the schools as a means to speed up processing by cutting 
down on the number of transactions per student due to changes in 
enrollment. The bill would direct VA to pay chapter 33 tuition and fees 
after receiving a bill from a school reflecting all changes in 
enrollment during the academic period.
    The testimony I have reviewed makes it clear, that some 
institutions may have concerns because of cash flow and other reasons.
    I would point out that veterans make up less than 10 percent of all 
college students for many schools. But witnesses have pointed out other 
problems, some due to State laws and regulations and technical issues 
such as needing to update schools' IT systems and varying lengths of 
academic periods.
    To that end, the two major stakeholders in this process--VA and the 
schools--need to come together and figure out how to make this work. 
The schools have a right to expect payment, but they also have an 
obligation to their veterans to adjust their processes.
    We cannot write a bill that will account for every variation in how 
schools operate. On the VA's part, perhaps it is time for VA and the 
Department of Education to adopt a common payment system to make things 
easier on the schools. One thing I can promise you is that this will 
not be the last time we meet on this issue.
    I have also introduced H.R. 2302; a bill that would require VA to 
report the estimated costs of conferences and any other type of meeting 
that meet certain thresholds.
    The bill would also require VA to report the final costs of those 
conferences. While I have no objection to bringing together VA staff 
and others at a conference, I believe a measure of transparency on the 
costs is important.
    Finally, the VA-U.S. Paralympics program appears to be meeting the 
goals set out in Public Law 110-389. In that law, former Chairmen Buyer 
and Filner saw the benefit of using sports as part of rehabilitating 
injured servicemembers.
    Initial indications confirm the program has brought hundreds of 
disabled veterans back to adaptive sports and we are seeing a few of 
them succeed even at the elite levels. Therefore, I believe it is 
important to see this program continue. My bill would extend this 
program through FY 2018.
    I look forward to hearing from today's witnesses on all the bills 
and I now yield to the Ranking Member, Mr. Braley.

                                 <F-dash>
          Prepared Statement of Hon. Bruce L. Braley, Ranking
        Democratic Member, Subcommittee on Economic Opportunity
    The bills included in today's hearing represent some of the current 
critical needs veterans have such as foreclosure protections for 
servicemembers and spouses, veterans small business contracting 
opportunities, housing loans for surviving spouses of disabled-
veterans, and the need to extend Paralympics funding.
    I am pleased that one of the bills we will be discussing today is 
H.R. 1911, the Protecting Veterans' Homes Act, a bill I introduced to 
help veterans returning from combat who are facing foreclosure of their 
homes. This legislation would protect veterans from being foreclosed 
upon by banks and would give these soldiers time to get their finances 
in order after long deployments.
    Our veterans often return from combat only to face new challenges. 
Whether it's an injury or a financial crisis caused by long deployments 
and time off from their civilian jobs, our veterans deserve to know 
that we're standing up for them. This bill will give our soldiers 
enough time to get back on their feet and get their finances in order 
before being kicked out of their homes. This is the least we can do for 
the brave men and women who serve this country.
    Providing veterans the opportunity to succeed means that we must 
generate the programs or benefits that will allow them to establish 
small businesses, careers, or a home. One of the major hurdles veterans 
face when they become civilians is that while they are on active duty 
their personal lives and careers are put on hold, while their civilian 
counterparts don't have these challenges. Their service to our country 
can make it difficult to obtain a home loan, successfully compete for 
Federal contracts, or even put them at risk of losing their home in the 
event of financial difficulty.
    Today's bills recognize the many challenges that our veterans face. 
I look forward to today's discussion on how these bills will help 
veterans overcome some of the challenges they face and welcome any 
ideas on how to improve them.

                                 <F-dash>
        Prepared Statement of Tom Tarantino, Senior Legislative
          Associate, Iraq and Afghanistan Veterans of America
    Mr. Chairman, Ranking Member, and Members of the Committee, on 
behalf of Iraq and Afghanistan Veterans of America's 200,000 Member 
Veterans and supporters, I thank you for inviting me to testify at this 
hearing to share our members' views on these important issues.
    My name is Tom Tarantino and I am the Senior Legislative Associate 
with IAVA. I proudly served 10 years in the U.S. Army beginning my 
career as an enlisted Reservist and leaving service as an Active-Duty 
Cavalry Officer. Throughout those 10 years, my single most important 
duty was to take care of other soldiers. In the military, they teach us 
to have each other's backs. Although my uniform is now a suit and tie, 
I am proud to work with this Congress to ensure the entire country has 
the backs of America's servicemembers and veterans.


------------------------------------------------------------------------
                                     Name/
             Bill #                 Subject      Sponsor      Position
------------------------------------------------------------------------
H.R. 120                          Disabled     Rep. Foxx    Support
                                   Veterans'
                                   Surviving
                                   Spouse
                                   Home Loans
                                   Act
------------------------------------------------------------------------
H.R. 240                          Preferentia  Rep. Filner  Support
                                   l VA
                                   Contracts
                                   to Veteran
                                   Businesses
------------------------------------------------------------------------
H.R. 1263                         Mortgage     Rep. Filner  Support
                                   Protection
                                   s for
                                    Surviving
                                   Spouses
------------------------------------------------------------------------
H.R. 1911                         Protecting   Rep. Braley  Support
                                   Veterans'
                                   Homes Act
------------------------------------------------------------------------
H.R. 2274                         Annual       Rep.         Support
                                   Reports on   Bilirakis
                                   the NGIB
                                   to
                                   Congress
------------------------------------------------------------------------
H.R. 2301                         Streamlinin  Rep.         Oppose
                                   g            Stutzman
                                   Education
                                   Claims
                                   Processing
                                   Act of
                                   2011
------------------------------------------------------------------------
H.R. 2302                         Reports to   Rep.         No Position
                                   Congress     Stutzman
                                   on VA
                                    Conferenc
                                   es
------------------------------------------------------------------------
H.R. 2329                         SCRA         Rep.         Support
                                   Transparen   Johnson
                                   cy for
                                    Financial
                                   Institutio
                                   ns
------------------------------------------------------------------------
H.R. 2345                         Extension    Rep.         Support
                                   of           Stutzman
                                   Benefits
                                   to
                                    Veteran
                                   Paralympia
                                   ns
------------------------------------------------------------------------


H.R. 2301_Streamlining Education Claims Processing Act of 2011

    IAVA opposes H.R. 2301. Although we believe that this legislation 
was well intentioned, it could, in its current form, result in late 
fees or non-payment charges for student veterans, may cause them to be 
barred or disenrolled from their academic programs, and cause veterans 
to pay a bill that the Government promised to cover.
    The bill seeks to move VA educational assistance payments made to 
educational institutions to the end of the term. However, without a 
clause protecting the veteran from penalties, fees, and other measures 
resulting from the delayed payment, the unintended consequences from 
this bill may be destructive to some veterans' academic careers, and 
will act as a disincentive for schools to enroll veterans.
    This measure will likely disadvantage veterans who are attending 
college less than full-time. The proposed measure forces schools to 
total tuition and fee costs and divide them by what the school 
determines as ``full-time'' in order to establish the school's ``cap.'' 
Students attending full-time will never notice the difference. However, 
part-time students will be short-changed because fees are typically 
charged at a flat rate regardless of how many units a student takes.
    For Example: John attends a university that charges $2400 in 
tuition per term. Additionally, there are $2500 in health, student 
life, and facilities fees that are charged per term. Full time is 12 
units at this school.
    Under the proposed formula, John would have a $408 per credit hour 
cap.
    $2400 Tuition + $2500 Fees = $4900 per term/12 Units = $408 per 
credit hour cap
    If John takes a full load at 12 units:
    $2400 Tuition + $2500 Fees= $4900 per term--(12 Units x $408) = $0 
charged to the veteran per term
    But if he only takes 8 units:
    $1600 Tuition + $2500 Fees= $4,100 per term--(8 Units x $408 cap= 
$3264) = $836 charged to the veteran per term
    IAVA supports streamlining GI Bill processing at the VA to help 
veterans get their benefits in a more expedient and uncomplicated 
fashion. However, such efforts must be done with the veteran 
beneficiaries in mind. Reducing bureaucracy at the VA is important, but 
it cannot occur at the veterans' expense.

                               __________

    Mr. Chairman, Ranking Member, and Members of the Committee, on 
behalf of Iraq and Afghanistan Veterans of America's 200,000 Member 
Veterans and supporters, I thank you for inviting me to testify at this 
hearing to share our members' views on these important issues.
    My name is Tom Tarantino and I am the Senior Legislative Associate 
with IAVA. I proudly served 10 years in the U.S. Army beginning my 
career as an enlisted Reservist and leaving service as an Active-Duty 
Cavalry Officer. Throughout those 10 years, my single most important 
duty was to take care of other soldiers. In the military, they teach us 
to have each other's backs. Although my uniform is now a suit and tie, 
I am proud to work with this Congress to ensure the entire country has 
the backs of America's servicemembers and veterans.


------------------------------------------------------------------------
                                     Name/
             Bill #                 Subject      Sponsor      Position
------------------------------------------------------------------------
H.R. 120                          Disabled     Rep. Foxx    Support
                                   Veterans'
                                   Surviving
                                   Spouse
                                   Home Loans
                                   Act
------------------------------------------------------------------------
H.R. 240                          Preferentia  Rep. Filner  Support
                                   l VA
                                   Contracts
                                   to Veteran
                                   Businesses
------------------------------------------------------------------------
H.R. 1263                         Mortgage     Rep. Filner  Support
                                   Protection
                                   s for
                                    Surviving
                                   Spouses
------------------------------------------------------------------------
H.R. 1911                         Protecting   Rep. Braley  Support
                                   Veterans'
                                   Homes Act
------------------------------------------------------------------------
H.R. 2274                         Annual       Rep.         Support
                                   Reports on   Bilirakis
                                   the NGIB
                                   to
                                   Congress
------------------------------------------------------------------------
H.R. 2301                         Streamlinin  Rep.         Oppose
                                   g            Stutzman
                                   Education
                                   Claims
                                   Processing
                                   Act of
                                   2011
------------------------------------------------------------------------
H.R. 2302                         Reports to   Rep.         No Position
                                   Congress     Stutzman
                                   on VA
                                    Conferenc
                                   es
------------------------------------------------------------------------
H.R. 2329                         SCRA         Rep.         Support
                                   Transparen   Johnson
                                   cy for
                                    Financial
                                   Institutio
                                   ns
------------------------------------------------------------------------
H.R. 2345                         Extension    Rep.         Support
                                   of           Stutzman
                                   Benefits
                                   to
                                    Veteran
                                   Paralympia
                                   ns
------------------------------------------------------------------------


H.R. 120_Disabled Veterans' Surviving Spouses Home Loans Act

    IAVA supports H.R. 120. Allowing the spouse of permanently disabled 
veteran to be recognized as a veteran when applying for a home loan is 
the least that we can do to recognize the sacrifices made by our 
military families. Permanently disabled veterans have the unfortunate 
fate of enduring physical and emotional hardships--but they don't 
agonize alone. This bill will provide a small measure of comfort toward 
easing the new emotional and financial challenges after the death of 
their veteran. Passing this bill will create a valuable respite for 
surviving spouses in providing a safe home for their families, and for 
themselves.

H.R. 240_Preferential VA Contracts to Veteran Businesses

    IAVA supports H.R. 240. This bill ensures that contracting officers 
bypass usual competitive procedures for awarding contracts, if 
qualified veteran owned businesses are competing for the contract. If 
passed, IAVA believes that this bill can be an effective means in 
attempting to reduce veteran unemployment and increasing the success of 
the over 2.2 million veteran-owned small businesses nationwide.

H.R. 1263_Mortgage Protections for Surviving Spouses

    IAVA supports H.R. 1263. We believe that expanding Servicemembers 
Civil Relief Act (SCRA) protections to surviving spouses is necessary 
to help ease the already heavy burden born by our Gold Star families. 
Currently, the SCRA protects military members from having to suffer the 
sale, foreclosure, or seizure of property, if the failure to meet their 
obligation resulted as a consequence of their military service. This 
bill seeks to extend these same protections to the surviving spouses of 
military servicemembers who die while in the service or as a result of 
a service-connected injury. Surviving spouses dealing with the loss of 
their servicemember should not have to fear the loss of their vehicle 
or home in a time of mourning and crisis.

H.R. 1911_Protecting Veterans' Homes Act

    IAVA strongly supports the Protecting Veterans' Homes Act. In 2008, 
IAVA fought to extend foreclosure protections for veterans from 9 to 12 
months. During these difficult economic times, foreclosure rates in 
military towns increased at four times the national average, and 
homelessness reached 107,000 veterans on any given night. IAVA believes 
that permanently extending these protections can be instrumental in 
reducing both foreclosure rates and homelessness among veterans. Giving 
veterans 3 more months to keep their homes and shelter their families 
is a small but meaningful step towards reducing these staggering 
statistics.

H.R. 2274_Annual Reports on the New GI Bill to Congress

    IAVA supports H.R. 2274. By mandating yearly, separate information 
from the Secretary of Defense and the Secretary of Veterans Affairs, 
Congress stands to receive multifaceted reports regarding the Post-9/11 
GI Bill's effects on retention levels in the Armed Forces, its span to 
non-active duty personnel, current efforts to expand knowledge of the 
Post 9/11-GI Bill, and levels of utilization and certificates or 
degrees earned under the bill. Recommendations from both secretaries 
will help identify improvements in the administration of the New GI 
Bill to better serve our Next Greatest Generation.

H.R. 2301_Streamlining Education Claims Processing Act of 2011

    IAVA opposes H.R. 2301. Although we believe that this legislation 
was well intentioned, it could, in its current form, result in late 
fees or non-payment charges for student veterans and may cause them to 
be barred or disenrolled from their academic programs.
    The bill seeks to move VA educational assistance payments made to 
educational institutions to the end of the term. However, without a 
clause protecting the veteran from penalties, fees, and other measures 
resulting from the delayed payment, the unintended consequences from 
this bill may be destructive to some veterans' academic careers, and 
will act as a disincentive for schools to enroll veterans.
    Additionally, the second part of the bill creates a per-school 
standard for determining maximum cost per credit hour rates based on 
full-time enrollment. This is a regressive proposal that completely 
violates the intent of the Post-9/11 Educational Improvements Act of 
2010. That bill was supposed to remove the overly complicated, 
confusing and unsustainable tuition and fee structure.
    This measure will likely disadvantage veterans who are attending 
college less than full-time. The proposed measure forces schools to 
total tuition and fee costs and divide them by what the school 
determines as ``full-time'' in order to establish the school's ``cap.'' 
Students attending full-time will never notice the difference. However, 
part-time students will be short-changed because fees are typically 
charged at a flat rate regardless of how many units a student takes.
    For Example: John attends a university that charges $2400 in 
tuition per term. Additionally, there are $2500 in health, student 
life, and facilities fees that are charged per term. Full time is 12 
units at this school.
    Under the proposed formula, John would have a $408 per credit hour 
cap.
    $2400 Tuition + $2500 Fees= $4900 per term/12 Units = $408 per 
credit hour cap
    If John takes a full load at 12 units:
    $2400 Tuition + $2500 Fees = $4900 per term--(12 Units x $408) = $0 
charged to the veteran per term
    But if he only takes 8 units:
    $1600 Tuition + $2500 Fees = $4,100 per term--(8 Units x $408 cap= 
$3264) = $836 charged to the veteran per term
    The suggested calculation forces institutions to set a cap per 
credit hour, which, at an equal fee amount, favors full-time over less 
than full-time enrollment and could result in higher out of pocket 
expenses for part-time student veterans.
    IAVA supports streamlining GI Bill processing at the VA to help 
veterans get their benefits in a more expedient and uncomplicated 
fashion. However, such efforts must be done with the veteran 
beneficiaries in mind. Reducing bureaucracy at the VA is important, but 
it cannot occur at the veterans' expense.

H.R. 2302_Reports to Congress on VA Conferences

    IAVA has no position on H.R. 2302

H.R. 2329_SCRA Transparency for Financial Institutions

    IAVA supports H.R. 2329. We believe that this bill will result in 
greater transparency and ease for servicemembers to make use of their 
rights under the Servicemembers Civil Relief Act (SCRA). SCRA provides 
significant benefits to the brave men and women who serve in our Armed 
Forces at a time of great stress and uncertainty. By requiring lending 
institutions to have a named compliance officer to verify the 
institution's adherence to SCRA provisions, H.R. 2329helps to ensure 
that our deployed warriors do not have to return home to illegal 
foreclosures and repossessions. Veterans should not have to fight 
another war to have things returned to them that should never have been 
taken in the first place.

H.R. 2345_Extension of Benefits to Veteran Paralympians

    IAVA supports H.R. 2345. This bill extends the VA's allowance to 
veteran Paralympians to 2018. These men and women have sacrificed so 
much for their country. Supporting these brave and talented Americans 
is the right thing to do, and showcases the amazing drive and 
resilience that this generation of warriors have to offer society.

                                 <F-dash>
         Prepared Statement of Shane Barker, Senior Legislative
        Associate, Veterans of Foreign Wars of the United States
    MR. CHAIRMAN AND MEMBERS OF THIS COMMITTEE:
    On behalf of the 2.1 million members of the Veterans of Foreign 
Wars of the United States and our Auxiliaries, the VFW would like to 
thank this committee for the opportunity to present its views on these 
bills.

H.R. 120, Disabled Veterans' Surviving Spouses Home Loans Act

    The VFW is pleased to support H.R. 120, which would further extend 
VA home loan eligibility to surviving spouses of servicemembers who 
were disabled at the time of death. VFW believes that regardless of 
time and level of disability of the deceased veteran, the spouse should 
be provided access to VA home loan program benefits. We hope the 
Committee enacts this legislation so as to benefit spouses, especially 
at a time when home loans are more difficult to finance.

H.R. 240, To amend title 38, U.S.C., to promote jobs for veterans 
        through sole source contracts by the Department of Veterans 
        Affairs

    The VFW does not support this legislation. By insisting that VA 
grant sole source contract when the contract officer determines that a 
veteran-owned small business can fulfill the contract requirements, 
meets the cost threshold and that the contract is a fair and reasonable 
price, it would appear that veteran-owned small businesses would be 
granted an advantage. However, many of the projects that would fall 
into this contract category are routine contacts and contracting 
officers will have familiarity with established veteran-owned small 
business, putting new veteran-owned small businesses at a disadvantage 
of securing a contract because the contracts will go to the known 
businesses. Also, by reducing competition, truly identifying a fair and 
reasonable price might be lost for the contracting officer.
    An alternate solution for promoting veteran-owned small businesses 
would be to ensure that VA has the resources necessary to process 
applications from veteran-owned small businesses more quickly, so these 
companies can be verified and added to the database of veteran-owned 
small businesses, which is a requirement to secure a contract as a 
veteran-owned small business.

H.R. 1263, To amend the Servicemembers Civil Relief Act to provide 
        surviving spouses with certain protections relating to 
        mortgages and mortgage foreclosures

    The VFW supports this legislation as it would protect spouses of 
servicemembers who die on active duty from foreclosure. Current law 
does not provide these protections; this bill would close that 
loophole. We believe that making this small change is the right thing 
to do for those who have lost a loved one in defense of our country.

H.R. 1911, Protecting Veterans' Homes Act of 2011

    The VFW supports this legislation, but believes it could go a step 
further to address the serious challenge of home foreclosure for the 
men and women of our military who are struggling to keep their homes. 
Servicemembers and their families need options to renegotiate the terms 
of their loan agreement, and a cooperative partner in the effort. 
Adding an additional 3 months onto the mortgage protection period does 
not produce either of those conditions. We are particularly concerned 
about the Guard and Reserve components, because many take cuts in pay 
and put their financial well-being at risk when they deploy.
    We are so concerned that we believe serious thought should be given 
to amending the Servicemembers Civil Relief Act in such a way to reduce 
mortgage payments on a scale that reflects the loss of income for those 
who experience salary decreases during and immediately after 
deployments. Our military members should not lose their homes if they 
are making good faith efforts to make payments on time, and are falling 
short of meeting their commitments solely because they are defending 
the freedom and security of this Nation. Servicemembers should have the 
option to contact their lender before a deployment to inform them and 
make arrangements for reduced payments during the deployment so they 
can keep their homes and give their families less to worry about while 
they are away. This can be achieved by amending title 50, U.S.C. by 
inserting a new subsection (b) in Section 533 that would incorporate 
this language.
    Veterans are not looking for a free ride. They do, however, want 
the civilian world to understand and appreciate their unique 
circumstances. We hope to see legislation to provide a meaningful 
solution to this persistent challenge.

H.R. 2274, To amend title 38, United States Code, to direct the 
        Secretary of Veterans Affairs and the Secretary of Defense to 
        submit to Congress annual reports on the Post-9/11 Educational 
        Assistance Program, and for other purposes

    The VFW supports this legislation, as it creates a congressional 
reporting mandate for both the Secretary of Defense and Secretary of 
Veterans Affairs with regard to the successful use of chapter 33 GI 
Bill benefits. Under previous iterations of the GI Bill--particularly 
chapter 30--both departments were mandated to report to Congress 
regularly on usage, enrollment and successful completion of GI Bill-
financed programs. However, no such provision currently exists under 
chapter 33. These periodic reports and the information contained in 
them are critical to demonstrating success and identifying potential 
shortcomings within the program.

H.R. 2301, Streamlining Education Claims Processing Act of 2011

    The VFW supports the intent of this bill to streamline the payment 
process for student-veterans utilizing the Post-9/11 GI Bill and to 
minimize the paper trail for VA. However, the VFW would encourage the 
Committee to include explicit protections for veterans against any 
hindrances in their ability to continue their education, such as 
threats of disenrollment or restrictions from class registration while 
schools await payment from VA. When the Post-9/11 GI Bill was 
implemented and initial tuition payments were delayed, the VFW, our 
partners within the veterans' community, VA administrators, and even 
Members of this committee received scores of complaints from veterans 
that schools were either threatening them with disenrollment or barring 
their registration for the subsequent semester's classes. While barring 
veterans from enrollment may seem like a public relations nightmare for 
colleges and universities, we have already seen it once before, and it 
took a concerted effort on the part of the veterans' community to 
ensure that each individual school did not hold their veterans 
accountable for the shortcomings of the VA's payment system. The VFW 
also notes that VA must be allowed proper time to implement any such 
changes to their processing and payment programs, with proper 
notification to the universities and student-veterans of the pending 
policy change.
    The Post-9/11 GI Bill is only 2 years old, meaning the first 
students to take advantage of the program have not even earned their 
degrees yet. However, Congress continues to look for ways to change the 
benefit and its delivery mechanisms, whether it is through changing the 
break payment system, adjusting tuition rates, creating new tuition 
caps, and now potentially overhauling the payment system. The VFW urges 
restraint in further manipulating the Post-9/11 GI Bill until we can 
gauge the initial success of the program, which was designed to 
simplify the process for veterans seeking to earn a college degree, but 
recently has proven to be a headache for veterans struggling to 
understand how and why the benefit keeps changing.

H.R. 2302, To amend title 38, United States Code, to direct the 
        Secretary of Veterans Affairs to notify Congress of conferences 
        sponsored by the Department of Veterans Affairs.

    The VFW supports this bill, mandating reports to Congress on 
conferences hosted or sponsored by VA. While the VFW acknowledges the 
benefits to VA and its employees of periodically hosting professional 
development seminars to remain at the forefront of relevant industries, 
the VFW agrees that Congress should have oversight on how VA chooses to 
conduct such events. During a time when Americans have called on 
Congress to demonstrate fiscal responsibility, the VFW believes that VA 
can demonstrate its solidarity with the American people by improving 
transparency with Congress.

H.R. 2329, Ensuring a Response for Servicemembers Act

    The VFW supports H.R. 2329, the Ensuring a Response for 
Servicemembers Act. Earlier this year we learned that J.P. Morgan Chase 
Bank had violated the Servicemembers Civil Relief Act by charging 
interest on home loans above the cap that act mandates. It also came to 
light that representatives that servicemembers contact over the phone 
often are not fully aware of SCRA rules and regulations, and thus, are 
not providing the customer service that our servicemembers need. This 
bill will mandate that major lending institutions must have a 
compliance officer to ensure SCRA laws are fully met. It will also 
ensure access to company representatives who are aware of what 
protections servicemembers have under the law by mandating a free 
number, available on the homepage of these institutions, is established 
to link them to specially trained customer service professionals. This 
is a common sense bill that we are happy to support.

H.R. 2345, To amend title 38, U.S.C., to extend the authority of 
        appropriations for the Secretary of VA to pay monthly 
        assistance allowance to disabled veterans training or competing 
        for the Paralympic Team

    Extending the assistance allowance for veterans who are training 
for the Paralympics will allow those veterans who are training or 
competing in competition to focus more of their time on training, as 
well as assist in showcasing the types of adaptive sports that are 
available and the benefits they hold for all disabled veterans. The VFW 
sees this as a small cost to promote recovery and healthy lifestyles 
for all veterans and we are happy to support this legislation.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or the Members of the Committee may have.

                                 <F-dash>
         Prepared Statement of Jeff Steele, Assistant Director,
            National Legislative Commission, American Legion

                             EXECUTIVE SUMMARY H.R. 120                                      Legion supports
H.R. 240                                      Legion supports
H.R. 1263                                     Legion supports
H.R. 1911                                     Legion supports
H.R. 2274                                     Legion suggests
                                               improvements
H.R. 2301                                     Legion supports
H.R. 2302                                     Legion has no position
H.R. 2329                                     Legion supports
H.R. 2345                                     Legion supports

    Chairman Stutzman, Ranking Member Braley and distinguished Members 
of the Subcommittee:
    Thank you for this opportunity to submit The American Legion's 
views on the legislation being considered by the Subcommittee today. We 
appreciate the efforts of this Subcommittee to address the different 
needs of the men and women who are currently serving and those who 
served during past conflicts.
     H.R. 120: Disabled Veterans' Surviving Spouses Home Loans Act
    Includes as a veteran, for purposes of eligibility for housing 
loans guaranteed by the Department of Veterans Affairs (VA), the 
surviving spouse of a veteran who at the time of death was in receipt 
of or entitled to compensation for a service-connected disability rated 
totally disabling if: (1) the disability was so rated for 10 or more 
years preceding death; (2) the disability was so rated for at least 5 
years since the veteran's discharge or release from active duty; or (3) 
the veteran was a former prisoner of war who died after September 30, 
1999, and the disability was so rated for at least 1 year preceding 
death. Requires any applicable VA housing loan fee to be collected from 
such spouse.
    Generally, VA pays Dependency and Indemnity Compensation (DIC) to 
the surviving spouses of military servicemembers who die while on 
active duty, and to surviving spouses of veterans whose death resulted 
from service-related causes. These surviving spouses are also eligible 
for VA Home Loan Guaranty Benefits.
    DIC also may be paid to surviving spouses of veterans who were 
totally disabled from service-connected conditions at the time of 
death, even though their service-connected disabilities did not cause 
their deaths. Such surviving spouses qualify according to the same 
criteria used in H.R. 120. Although, these qualifying surviving spouses 
are eligible for the same DIC benefit as those above, they are not 
eligible for similar VA Home Loan Guaranty Benefits. H.R. 120 would 
correct this inequity.

The American Legion supports this bill.
                                H.R. 240
    To amend title 38, United States Code, to promote jobs for veterans 
through the use of sole source contracts by Department of Veterans 
Affairs for purposes of meeting the contracting goals and preferences 
of the Department of Veterans Affairs for small business concerns owned 
and controlled by veterans.
    This legislation is simple; it changes one word in title 38 
Sec. 8127(c). It changes the word ``may'' to ``shall'' and is intended 
to reemphasize the priority of place of veteran-owned small businesses 
in the awarding of certain contracts by the Department of Veterans 
Affairs.
    It is vital that veteran-owned and service-disabled veteran-owned 
businesses receive a fair and proportionate share of Federal contracts, 
especially from the agency whose primary function is to help veterans--
the VA, so these veterans can build and maintain successful businesses.
    To that end, The American Legion supports legislation that supports 
and develops veteran and service-disabled veteran-owned businesses, 
while providing them equal opportunity to start and/or grow a small 
business, including establishing numerical goals for all veterans to 
compete in government procurement. We believe this legislation serves 
that end.

The American Legion supports this bill.
                               H.R. 1263
    Amends the Servicemembers Civil Relief Act to afford surviving 
spouses of servicemembers who die while in the military and whose death 
is service-connected the same protections against sale, foreclosure, 
and seizure of property currently applicable to their husbands who 
while in military service are unable to meet an obligation on real or 
personal property.
    Military families serve our country with pride, honor, and quiet 
dedication. We know that every member of a military family sacrifices 
just as much for this country. When one member of the family goes to 
war, the whole family goes with them. Currently, spouses of 
servicemembers who have died while in service have no mortgage 
protections, leaving grieving families vulnerable to losing their home 
and being put on the streets. Extending mortgage foreclosure protection 
to surviving spouses will allow families to explore their options so 
they may keep their home.

The American Legion supports this bill.
               H.R. 1911: Protecting Veterans' Homes Act
    Amends the Servicemembers Civil Relief Act to extend from 9 to 12 
months after military service the period of protection against mortgage 
sale or foreclosure, as well as the stay of proceedings, in the case of 
an obligation on real property of a servicemember that originated 
before the period of military service. Amends the Housing and Economic 
Recovery Act of 2008 to repeal the sunset date for such periods of 
relief.
    This bill would help active duty servicemembers who are returning 
home and are facing foreclosure stay in their homes. Given the tough 
housing and job markets, extending the period of protection as this 
bill does will give servicemembers the time they need after returning 
from deployment to regain solid financial footing.

The American Legion supports this bill.
                               H.R. 2274
    To amend title 38, United States Code, to direct the Secretary of 
Veterans Affairs and the Secretary of Defense to submit to Congress 
annual reports on the Post-9/11 Educational Assistance Program, and for 
other purposes.
    With regard to that part of H.R. 2274 within the jurisdiction of 
this committee, The American Legion generally supports the spirit of 
this legislation, but we recommend the following improvements. First 
and foremost, the report should be made available to the public by 
placing a link to the report on the GI Bill landing page of the VA Web 
site. In addition, the report should include such information as may be 
useful to a student-veteran, such as student-veteran attendance by type 
of college, graduation and dropout rates, average tuition rates, and 
average debt accrued by type. Such information would assist student-
veterans make informed decisions about the use of this earned benefit.
    H.R. 2301: Streamlining Education Claims Processing Act of 2011
    To amend title 38, United States Code, to direct the Secretary of 
Veterans Affairs to make payments to educational institutions under the 
Post-9/11 Educational Assistance Program at the end of a quarter, 
semester, or term, and for other purposes.
    The American Legion's first and foremost concern with the 
administration of the new GI Bill is that veterans depending on this 
education benefit are able to apply for and receive chapter 33 benefits 
in as timely and seamless a manner as possible. Because H.R. 2301 is 
aimed at adjusting the payment relationship between VA and educational 
institutions, it is for the most part beyond our purview except to note 
that we view favorably the tendency the change would have to mitigate 
the number of overpayments incurred by student-veterans. To establish 
an overpayment puts unnecessary burdens on both the student and VA in 
the effort to recover the overpayment. Therefore, eliminating as much 
as possible such overpayments is good for both students and VA.

The American Legion supports this bill.
                               H.R. 2302
    To amend title 38, United States Code, to direct the Secretary of 
Veterans Affairs to notify Congress of conferences sponsored by the 
Department of Veterans Affairs.
The American Legion has no position on this bill at this time.
                               H.R. 2329
    To amend the Servicemembers Civil Relief Act to provide for certain 
requirements for financial institutions that are creditors for 
obligations and liabilities covered by that Act.
    This bill seeks to encourage compliance with the Servicemembers 
Civil Relief Act (SCRA) by mandating that large lending institutions 
subject to the SCRA designate an employee as a compliance officer who 
is responsible for ensuring the institution's compliance with 
provisions in the SCRA relating to the maximum rate of interest on 
debts incurred before military service, and for distributing 
information to servicemembers whose obligations and liabilities are 
covered by those provisions. In addition, it requires these lending 
institutions to maintain a toll-free telephone number and make such 
telephone number available on the primary Internet Web site of the 
institution.
    Earlier this year, when reports that one of America's largest banks 
had been overcharging about 4,000 servicemembers on their home loans, 
and had improperly foreclosed on the homes of 14 military families, we 
wholeheartedly joined the chorus of justifiable outrage about this 
shocking situation and called upon all financial institutions that 
handle mortgages for military families to review policies and 
practices, to make sure they are obeying Federal law.
    While the bank involved has issued a mea culpa and made efforts to 
reassure the men and women of our military their commitment to make 
this right, the episode makes it clear that further strengthening of 
the SCRA is called for. It is a national security imperative that 
servicemembers be able to fight the Nation's wars without having to 
worry about their rights being trampled at home. The tragic stories of 
those who have been adversely affected by the failure of our financial 
institutions to play by the rules further highlight the necessity of 
enhancing the effectiveness of the legal and regulatory protections for 
our servicemembers and veterans.

The American Legion supports this bill.
                               H.R. 2345
    To amend title 38, United States Code, to extend the authorization 
of appropriations for the Secretary of Veterans Affairs to pay a 
monthly assistance allowance to disabled veterans training or competing 
for the Paralympic Team and the authorization of appropriations for the 
Secretary of Veterans Affairs to provide assistance to United States 
Paralympics, Inc.
    Public Law 110-389 (2008) authorized VA to award grants to the U.S. 
Olympic Committee to plan, manage and implement an adaptive sports 
program for disabled veterans and disabled members of the Armed Forces. 
In addition, it authorized a monthly subsistence allowance to 
qualifying disabled veterans in training or competing for the 
Paralympics to help them more easily take part in competitive sports. 
Further, both were authorized during fiscal years 2010 through 2013. 
H.R. 2345 would extend these authorizations through 2018.
    Since its foundation in 1919, The American Legion has identified as 
its most important issue the rehabilitation and reintegration of the 
disabled veteran. We are also strong believers in the physical and 
psychological benefits that come from involvement in sports and 
recreation. Thus, we support such programs of the U.S. Olympic 
Committee that facilitate the rehabilitation and reintegration of our 
disabled veterans and servicemembers. We know that sports and physical 
activity can have a transformative effect on those with a physical 
disability and the continued provision of funds will help to expand and 
provide greater access to sports programs for injured veterans and 
disabled members of the Armed Forces.

The American Legion supports this bill.

    The American Legion appreciates the opportunity to comment on the 
bills being considered by the Subcommittee. I would be happy to answer 
any questions that you might have. Thank you.

                                 <F-dash>
Prepared Statement of Major General David Bockel, USA (Ret.), Executive 
 Director, Reserve Officers Association of the United States, and also 
     on behalf of Reserve Enlisted Association of the United States
INTRODUCTION

    Mr. Chairman and Members of the Subcommittee, the Reserve Officers 
Association (ROA) and the Reserve Enlisted Association (REA) would like 
to thank the Subcommittee for the opportunity to testify. ROA and REA 
applaud the ongoing efforts by Congress to address issues facing 
veterans and servicemembers such as educational programmatic hurdles, 
problems within the home loan programs, SCRA and more.
    Though contingency operations in Afghanistan and Iraq are expected 
to drawdown currently there are still high levels of mobilizations and 
deployments, and many of these outstanding citizen soldiers, sailors, 
airmen, Marines, and Coast Guardsmen have put their civilian careers on 
hold while they serve their country in harm's way. As we have learned, 
they share the same risks and their counterparts in the Active 
Components on the battlefield. Recently we passed the 800,000th mark 
for the number of Reserve and Guard servicemembers who have been 
activated since post-9/11. More than 275,000 have been mobilized two or 
more times. The United States is creating a new generation of combat 
veterans that come from its Reserve Components (RC). It is important, 
therefore, that we don't squander this valuable resource of experience, 
nor ignore the benefits that they are entitled to because of their 
selfless service to their country
    ROA and REA would like to thank the Committee and staff for making 
improvements to the Post-9/11 GI Bill, enhancing benefits for 
caregivers, and much more.

Amendments to GI Bill

    ROA and REA support the passages of H.R. 2274 and H.R. 2301, which 
would provide better oversight and streamlining of the Post-9/11 GI 
Bill.
    Currently, many flaws in implementation of the GI Bill exist due to 
a lack of oversight of the program. Many veterans are left to fall 
through the cracks of the Department of Veterans' Affairs (VA) system, 
waiting months to receive benefits that they have earned and deserved.
    Greater oversight authority of the VA and of the implementation of 
the GI Bill is seriously needed. H.R. 2274, introduced by Rep. Gus 
Bilirakis (R-FL), would require both the Secretary of Defense and the 
Secretary of the VA to submit an annual report about the efficacy and 
operation of the GI Bill during the previous fiscal year. These reports 
would assist in singling out the biggest problems in implementing the 
GI Bill and would increase accountability for those responsible for 
implementing the bill.
    H.R. 2301, introduced by Rep. Marlin Stutzman (R-IN), and titled 
the ``Streamlining Education Claims Processing Act of 2011,'' would 
establish a more concise system of payment for educational benefits 
from the VA under the GI Bill. The act States that, for charges 
incurred from educational institutions by individuals eligible for GI 
Bill educational benefits, the VA must send payments within 30 days of 
receipt of the charges.
    Currently, funds promised to students eligible for GI Bill benefits 
by the VA often arrive late, go missing, or are otherwise inadequate. 
Streamlining the payments of GI Bill benefits to veterans would help 
create more accountability in the VA and would ensure that veterans are 
able to take full advantage of the benefits to which they are entitled.

    ROA and REA urge Congress to implement these measures in order to 
ensure that veterans are adequately compensated for the service they 
have provided our country.

Disabled Veterans' Surviving Spouses Home Loans Act

    ROA and REA urge Congress to pass H.R. 120, introduced by Rep 
Virginia Foxx (R-NC), and named ``Disabled Veterans' Surviving Spouses 
Home Loans Act.'' This Act would provide certain surviving spouses of 
veterans with eligibility to both housing loans and monthly dependency 
and indemnity compensation from the VA.
    Currently, spouses of veterans whose deaths were not service-
related, but who had permanent and total service-related disabilities 
for at least 10 years immediately prior to their death, are eligible to 
receive monthly dependency and indemnity compensation payments from the 
VA, but are not eligible for the VA's Home Loan Guarantee.
    Spouses of deceased veterans must cope with the loss of the 
veterans while also getting their finances back in order and adapting 
to life without a partner. These spouses, by supporting disabled or 
coping with the loss of a spouse who was a veteran, have made 
sacrifices for the United States and should be compensated for their 
losses. Thus,, ROA and REA firmly believe that spouses of deceased 
veterans should be able to receive both dependency and indemnity 
payments and eligibility for the VA's Home Loan Guarantee.

    Please consider H.R. 120, which would provide veterans' surviving 
spouses with the benefits they need in order to move on after the death 
of their spouses.

Small Business

    Reserve Component small business owners are particularly challenged 
by deployments. About 22 percent of self employed Reservists find that 
their activations impact their personal businesses, causing severe 
problems. Many have to sell out partnerships, or close down the 
business. And many of these Reserve Component members are employers of 
others, therefore many non-military lose their jobs when the business 
owner is deployed.

    ROA and REA support initiatives to provide small business owners 
with protections for their businesses to be sustained while on 
deployment.

    ROA and REA appreciate the House passing the H.R. 1657, which was 
passed in May. This bill amended title 38, United States Code, to 
revise the enforcement penalties for misrepresentation of a business 
concern owned and controlled by veterans or as a small business concern 
owned or controlled by service disabled veterans.
    ROA encourages Congress to look at enacting Uniformed Services 
Employment and Reemployment Rights Act (USERRA) protections for 
employers who require regularly scheduled mandatory continuing 
education and licensing/certification and to make necessary changes to 
USERRA to strengthen employment and reemployment protections.

    Once again, ROA asks for Congress' support with the H.R. 240, which 
promotes jobs for Veterans through the use of sole source contracts by 
Department of Veterans Affairs for purposes of meeting the contracting 
goals and preferences of the Department of Veterans Affairs for small 
business concerns owned and controlled by Veterans.

Servicemembers Civil Relief Act

Protecting Veterans' Homes Act

    Under the Servicemembers Civil Relief Act (SCRA), members of the 
Armed Forces are granted 9 months of protection from non-judicial 
mortgage foreclosure after returning home from Active Duty. This 
temporary moratorium on civil action allows soldiers to return home and 
re-adjust to civilian life while at the same time pooling their funds 
to repay debts such as mortgages.
    Returning veterans often face new challenges upon their arrival 
home, such as dealing with injury or having to find a new civilian job. 
For troops facing these adversities, getting their finances together to 
avoid foreclosure, sale, or seizure of their houses can seem almost 
impossible.
    Currently, such protections in the Servicemembers Civil Relief Act 
are set to expire at the end of 2012.

    ROA and REA strongly support the passage of H.R. 1911, titled 
``Protecting Veterans' Homes Act,'' introduced by Rep. Bruce Braley (D-
IA), which would permanently extend protections against foreclosure for 
servicemembers and would extend this grace period from 9 months to 12 
months.

    Ensuring a Response for Servicemembers Act

    Under the SCRA, since 1917, a person entering active duty has been 
permitted to terminate a lease on premises. In 2003, Congress broadened 
this provision to enable the person entering active duty to terminate a 
vehicle lease. In 2008, Congress enacted a new provision to permit a 
servicemember to terminate a cell phone contract under certain 
circumstances.
    ROA and REA appreciate Congress' work on these issues, however, 
there are many other kinds of leases and contracts that the person 
entering active duty may need to terminate.
    ROA and REA request support of H.R. 2329, introduced by Rep. Bill 
Johnson (R, Ohio), which would amend the Servicemembers Civil Relief 
Act to provide for certain requirements for financial institutions that 
are creditors for obligations and liabilities covered by that Act.
    ROA and REA further recommend amending the SCRA to broaden the 
types of leases and contracts which the person entering active duty can 
terminate without penalty. For example, a reservist who has his own 
small private business and who leases his equipment is being deployed 
for a year and has no need for the equipment since he must shut down 
his business. However, his lease on the equipment is not up for another 
few years and the lesser won't let him out of the contract early and 
insists that the reservist still pays for the equipment. Congress needs 
to amend the SCRA to include leases and contracts of this nature, in 
addition to leases of premises, vehicles and cell phones.
    In addition ROA and REA propose further amending the SCRA to forbid 
exorbitant overdraft fees and late fees for deployed servicemembers. 
There have been instances where deployed servicemembers have been 
charged hundreds or thousands of dollars in overdraft fees or late fees 
for a low dollar overdraft on a checking account or a late payment on a 
credit card. Such exorbitant fees should not be allowed to happen.

    <bullet>  Congress needs to amend the SCRA to clarify that the 
person returning from the military service has the right to reinstate 
income-replacement insurance and other forms of insurance, as well as 
health insurance narrowly defined.
    <bullet>  Improve SCRA to protect deployed members from creditors 
that willfully violate SCRA.
    <bullet>  Continue to enact tax credits for health care and 
differential pay expenses for deployed Reserve Component employees.

Amending SCRA for Surviving Spouses

    In order to best support servicemembers it is essential to also 
support the family. ROA is thankful for the Department of Defense's 
(DoD), the administration's and Congressional acknowledgment that the 
military spouse is part of DoD's family.

    ROA and REA encourage Congress to support H.R. 1263, which would 
amend the Servicemembers Civil Relief Act to provide surviving spouses 
with certain protections relating to mortgages and mortgage 
foreclosures.

    This bill would amend section 303 by adding this subsection:

    <bullet>  Protection for surviving spouses- with respect to a 
servicemember who has died while in military service and whose death is 
service-connected, this section shall apply to the surviving spouse of 
the servicemember if such spouse is the successor in interest to 
property covered under subsection (a).

    Expand eligibility of surviving spouses to receive Survivor Benefit 
Plan (SBP)_Dependency Indemnity Compensation (DIC) payments with no 
offset. Under current law, the surviving spouse of a retired military 
member who dies from a service-connected disability is entitled to 
Dependency Indemnity Compensation (DIC) from the Veterans' 
Administration.
    ROA is grateful for the U.S. Federal Court of Appeals decision in 
the Sharp vs. United States case that restored eligibility for DIC to 
military surviving spouses who remarry after 57 years of age; this only 
extends to about 400 spouses. Approximately 45,000 surviving spouse are 
left behind.

Servicemembers Law Center

    ROA offers a unique area of expertise pertaining not only to 
Servicemembers Civil Relief Act (SCRA), but also the Uniformed Services 
Employment and Reemployment Rights Act (USERRA) and other Guard/Reserve 
issues, through the Servicemembers Law Center run by director Captain 
Sam Wright, JAGC, USN (Ret.).
    In the summer of 2009 ROA established the Servicemembers Law Center 
(SMLC) as a source of excellence in the areas of employment and 
consumer law for active, Guard and Reserve personnel.
    The Law Center's goals include the following:

    <bullet>  Advise Active and Reserve members who have been subject 
to legal problems that relate to their military service.
    <bullet>  Develop a network of legal scholars, law school clinics 
and private practitioners interested in legal issues of direct 
importance to servicemembers.
    <bullet>  Advance world-class continuing legal education on issues 
relating to USERRA and SCRA.
    <bullet>  Broaden the existing database of USERRA and SCRA 
research.
    <bullet>  In conjunction with bar associations, develop standards 
that will help to ensure that lawyers to whom servicemembers are 
referred for legal services have the requisite expertise to represent 
them effectively.

    Recruiting and retaining members of the armed services, especially 
those in the National Guard and Reserves, depends in part on assuring 
current and future Citizen Warriors that laws and regulations are in 
place to protect them effectively from discriminatory practices.
    The Law Center is functioning at a modest but effective level. ROA 
is pursuing efforts to obtain private or public funding and to identify 
public and private entities willing to sustain this effort in order to 
expand this service to fuller capacity. This is especially needed 
following potential cuts to the National Committee of Employer Support 
of the Guard and Reserve (ESGR).
    As part of the SMLC and under Captain Wright, the Law Center 
maintains the ``Law Review'' data base and indices containing over 700 
articles on USERRA and SCRA issues (available at www.roa.org/
law_review_archive). On a monthly basis Captain Wright receives about 
500 calls from concerned servicemembers, families and attorneys. On a 
monthly basis for the past several months about 80 percent of the calls 
were about USERRA.
    The Law Center's services include:

    <bullet>  Counseling: Review cases, and advise individuals and 
their lawyers as to lawfulness of actions taken against deployed Active 
and Reserve Component members.
    <bullet>  Referral: Provide names of attorneys within a region that 
have successfully taken up USERRA, SCRA and other military-related 
issues.
    <bullet>  Promote: Publish articles encouraging law firms and 
lawyers to represent servicemembers in USERRA, SCRA and other military-
related cases.
    <bullet>  Advise: File amicus curiae, ``friend of the court'' 
briefs on servicemember protection cases.
    <bullet>  Educate: Quarterly seminars to educate attorneys a better 
understanding of USERRA, SCRA and other military-related issues.

    The Servicemembers Law Center is available at www.roa.org/
Servicemembers_Law_Center.

Other Bills

    ROA and REA support H.R. 2302 to amend title 10, United States 
Code, to direct the Secretary of the VA to notify Congress of 
conferences sponsored by the VA.

    This bill encourages transparency and oversight which are important 
aspects of governance. Furthermore it would help to keep Congress 
apprised of VA's activities and interest areas.

    ROA and REA also support H.R. 2345 to amend title 38, United States 
Code, to extend the authorization for the Secretary of the VA to pay a 
monthly assistance allowance to disabled veterans training or competing 
for the Paralympic Team and the authorization for the Secretary to 
provide assistance to the United States Paralympics, Inc.

Conclusion

    ROA and REA appreciate the opportunity to submit testimony, and we 
reiterate our profound gratitude for the progress achieved by this 
committee such as providing a GI Bill for the 21st Century and advanced 
funding for the VA.
    ROA and REA look forward to working with the Subcommittee on 
Economic Opportunity and the House Veterans' Affairs Committee, where 
we can present solutions to these and other issues, and offer our 
support. We hope in the future to have an opportunity to discuss these 
issues in person.
    ROA and REA encourage this Committee to utilize the Servicemembers 
Law Center and reports, which are both valuable assets, and to share 
them with your constituents and other Congressional members.

                                 <F-dash>
      Prepared Statement of Arthur F. Kirk, Jr., President, Saint
          Leo University, Saint Leo, FL, on behalf of National
          Association of Independent Colleges and Universities
                           Executive Summary
    I am testifying on behalf of Saint Leo University and the National 
Association of Independent Colleges and Universities (NAICU) regarding 
H.R. 2301, a bill to change the reimbursement procedures under the 
Post-9/11 Educational Assistance Program.
    Saint Leo University has a long history of serving veteran 
students--enrolling 4,743 during the past academic year, 2,790 (59 
percent) of whom were Post-9/11 veterans. The NAICU membership includes 
over 1,000 institutions nationwide, representing the diversity of 
private, non-profit higher education in the United States.
    H.R. 2301 would reduce the need for the Department of Veterans' 
Affairs (VA) to make adjustments to their payments for veterans. 
However, clearly, it also would increase the need to make adjustments 
at the school level for other financial aid for veterans--particularly 
title 4 student financial aid. Program participation would become much 
more complicated, both for the veteran students and for the 
institutions they attend. Issues related to billing and to the 
assignment of responsibility for payment will be less clear. The bill 
will require reprogramming of the management information systems of 
most schools; however, the more likely solution will be more manual 
adjustments. Meeting these challenges would be particularly difficult 
for small colleges--which could limit the options of veterans who wish 
to attend them.
    There are some pluses to H.R. 2301. Student accounts do stabilize 
after add/drop deadlines so, if passed, the bill would provide a truer 
picture in most cases. Also, the VA would pay after the term, so debt 
collection letters to the student or the institution would decline 
significantly, and time spent researching the letters would be reduced.
    On the down side, cash flow to institutions and veterans would be 
problematic for many. More title 4 aid adjustments for veterans' 
accounts are likely to be needed. It will be hard to pay title 4 credit 
balances to students, since they won't have a credit on their account. 
Veterans would face difficulties registering in many colleges without 
payment in advance or, in places like Saint Leo, without the bill being 
settled for the previous term before the next term begins. Many 
institutional information systems will not be able to accommodate these 
changes without, at least, some re-programming. Greater confusion about 
who owes what (the veteran, the VA, and title 4) also will ensue. Such 
confusion increases the barriers to successful completion for our vets.
    We believe that the problems that H.R. 2301 is intended to solve 
would be better addressed through greater efforts to work within the 
framework the institutions now use to deliver financial aid to their 
students. For example, we believe that a two-step certification process 
Saint Leo is planning will reduce the need for billing adjustments by 
the VA without adversely affecting veterans. An approach like ours, or 
others that may be devised by other colleges, would offer a better 
solution. Saint Leo, NAICU, and many others in the higher education 
community stand ready to assist the Subcommittee in identifying ways to 
serve our veteran students effectively and efficiently.
    Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee, I appreciate having the opportunity to appear today to 
discuss pending legislation dealing with the Post-9/11 GI Bill. I am 
Art Kirk, president of Saint Leo University.
    Saint Leo University is an independent Catholic university founded 
in 1889. The University offers over 40 undergraduate and graduate 
degree programs on its residential campus in Florida, and to adult 
students on 16 military bases in Florida, Virginia, South Carolina, 
Mississippi, Texas, and California; to students in all States and 
overseas, through our center for online learning; and on 10 Florida 
community college campuses.
    The University began offering full degree programs on military 
bases in 1973, and became the first college or university in the Nation 
to grant the bachelor's degree on an Air Force base. We were an early 
adopter, in 1997, of online offerings for the military. The 
University's mission, to provide opportunities for people of good 
character regardless of their religion, compelled the University to 
respond to these needs.
    Saint Leo University enrolled 4,743 veterans during the past 
academic year, 2,790 (59 percent) of whom were chapter 33 or Post-9/11 
veterans. The University awarded 678 associate, bachelor's, and 
graduate degrees to veterans. The University also educated 5,026 active 
duty military and reservists during the course of the last academic 
year. All told, this equals 37 percent of the students who took at 
least one course with us during the year.
    Today I represent not just my university, one of the leaders in 
educating our veterans and active duty military. I also represent the 
member institutions of the National Association of Independent Colleges 
and Universities. With more than 1,000 members nationwide, NAICU 
reflects the diversity of private, nonprofit higher education in the 
United States. Members include traditional liberal arts colleges, major 
research universities, church- and faith-related institutions like 
mine, historically black colleges and universities, women's colleges, 
performing and visual arts institutions, 2-year colleges, and schools 
of law, medicine, engineering, business, and other professions. NAICU 
is committed to celebrating and protecting this diversity of the 
Nation's private colleges and universities.
    The Subcommittee is receiving testimony about a number of bills 
today. The one that I will address is H.R. 2301, which would change the 
reimbursement procedures for veterans and colleges and universities 
under the Post-9/11 Educational Assistance Program.
    This bill would reduce the need for the Department of Veterans' 
Affairs (VA) to make adjustments to their payments for veterans. 
However, clearly, it also would increase the need for adjustments at 
the school level for other financial aid for veterans--particularly 
title 4 student financial aid. Program participation would become much 
more complicated, both for the veteran students and for the 
institutions they attend. Issues related to billing and to the 
assignment of responsibility for payment will be less clear. The bill 
will require reprogramming of the management information systems of 
most schools; however, the more likely solution will be more manual 
adjustments. I will address this concern more fully in a moment.
    A particular concern is the impact of this change on small 
colleges, and on the veterans who choose to attend them. While I would 
be quite pleased if every veteran looking for a college were to choose 
Saint Leo, I also believe deeply in the goal of the GI Bill to give 
veterans the widest choice possible of educational options.
    Over half of our Nation's private, non-profit colleges have fewer 
than 5,000 students, and a quarter have fewer than 2,000. Many veterans 
choose to attend these smaller institutions. While their veteran 
student population is just a fraction of that at Saint Leo, these small 
schools will struggle far more with the new procedures under this bill, 
and the consequent cash flow problems. The typical semester is 15 
weeks. This bill would move payment from the beginning of the semester, 
when most student accounts are collected, to 30 days after the semester 
ends. That's 19 weeks in which to wait for payment. Meanwhile, the 
institution will, of course, have had to pay faculty and staff salaries 
and other bills during that time.
    This problem won't necessarily be limited to small colleges. The 
median endowment across all private, not-for-profit colleges is only 
about $18 million. Indeed, while Saint Leo was not small 14 years ago, 
we did find that our cash flow was tight year-round at that time. 
Delayed payment would have been a hardship for us. Thankfully, we would 
now have the cash reserves to handle this.
    Even if it is difficult to do so, private colleges may be able, by 
using cash reserves or lines of credit, to enroll students and defer 
collections as proposed. However, public colleges and universities will 
face unique challenges if this bill is enacted. Most public 
institutions must collect full tuition from their students, or from the 
students' financial aid providers, at the beginning of the term. 
Veterans will face barriers to enrolling at public universities and 
colleges, given that many will not be in a position to pay their 
tuition and fees up front, and then wait for their reimbursement months 
later.
    As I noted earlier, another concern for the many smaller colleges 
would be coping with changes in procedures. Among others, these changes 
would involve such matters as manually voiding late payment fees and 
future registration blocks--which trigger automatically when a 
student's bill is not paid.
    Saint Leo has several experts in the specialized services and 
administrative procedures essential to enrolling veterans. We also have 
skilled staff members who train others in these procedures. Small 
colleges or colleges with relatively small numbers of veterans are 
likely to lack these expert resources.
    Saint Leo University already is implementing a two-step veteran's 
certification process that, we believe, will resolve the problems this 
bill seeks to address. Our Veterans Certifying Officers will enter the 
veteran as a student, but will certify zero tuition and fees in 
VAOnce--the VA GI Bill database system--at the semester's start. This 
allows the veteran to receive their housing and living stipend. After 
the period for adding and dropping courses ends, we then will reenter 
the student in VAOnce, now adding the tuition and fee charges for all 
the courses in which the veteran is actually enrolled.
    In summary there are some pluses to H.R. 2301:

    <bullet>  Student accounts do stabilize after add/drop deadlines, 
so the bill would provide a truer picture in most cases.
    <bullet>  The VA would pay after the term, so debt collection 
letters to the student or the institution would decline significantly. 
Every one of these letters must be researched, and the time spent doing 
so would be reduced.

    However, on the down side:

    <bullet>  Cash flow to institutions and veterans would be 
problematic for many.
    <bullet>  More title 4 aid adjustments for veterans' accounts are 
likely to be needed.
    <bullet>  It will be hard to pay title 4 credit balances to 
students, since they won't have a credit on their account.
    <bullet>  Veterans would face difficulties registering in many 
colleges without payment in advance or--in places like Saint Leo--
without the bill for the previous term being settled before the next 
term begins.
    <bullet>  Many college and university information systems will not 
be able to accommodate these changes without, at least, some re-
programming.
    <bullet>  Greater confusion about who owes what (the veteran, the 
VA, and title 4) will ensue. Schools won't know what VA will pay, or 
what to bill the veteran. Such confusion increases the barriers to 
successful completion for our vets.

    We believe that the problems that H.R. 2301 is intended to solve 
would be better addressed through greater efforts to work within the 
framework the institutions now use to deliver financial aid to their 
students. We believe, for example, that Saint Leo's approach will have 
no adverse affects on the veterans, and will reduce the need for 
billing adjustments by the VA. An approach like ours, or others that 
may be devised by other colleges, would offer a better solution.
    I'd also like to briefly mention the two other provisions of H.R. 
2301:

    <bullet>  Section 3 sets an effective date of August 1 of this 
year--less than a month from now. Making the proposed changes on such 
short notice would be highly disruptive for students, institutions, and 
the VA alike. All of the procedural concerns outlined in my testimony 
would be magnified.
    <bullet>  Section 4 specifies the means by which established 
charges per credit hour are to be determined. It is our understanding 
that the provision is designed to avoid situations in which charges to 
a student taking only one course are significantly higher than the per-
credit charge if the student were taking a full load. However, since 
established charges per credit hour will no longer be used as the basis 
for determining the chapter 33 tuition benefit, this provision will not 
have any effect that we can discern. Rather, its most likely effect 
will be to create confusion about how it is to be interpreted. For that 
reason, we would suggest that the language be dropped.

    Saint Leo, NAICU, and many others in the higher education community 
stand ready to assist the Subcommittee in identifying ways to serve our 
veteran students effectively and efficiently.
    Finally, on a related topic, allow me to take this opportunity to 
extend our appreciation to the Members of this Subcommittee, and to the 
full Veterans' Affairs Committee, for your work in moving the 
``Restoring GI Bill Fairness Act of 2011'' (H.R. 1383). The bill 
provides an important ``hold-harmless'' for veterans who otherwise 
would see their Post-9/11 GI Bill tuition-and-fee benefits reduced 
August 1. Enactment of this bill would assure that student veterans 
attending private institutions in several States will not face an 
unexpected increase in expenses while mid-way through their higher 
education programs.

                                 <F-dash>
       Prepared Statement of Susan C. Aldridge, Ph.D., President,
      University of Maryland University College, Adelphia, MD, on
   behalf of American Association of State Colleges and Universities
                           Executive Summary
Potential negative impacts on veteran students of H.R. 2301, 
        ``Streamlining Education Claims Processing Act of 2011''

    <bullet>  Registration holds due to unpaid balances that would have 
to be resolved manually on a case-by-case basis
    <bullet>  In States where public institutions are not legally 
permitted to allow students with unpaid balances to register for a 
subsequent semester/quarter, mandatory interruption of studies until VA 
paid the institution
    <bullet>  Inability to receive refunds (for veteran students who 
also receive other forms of financial assistance than Post-9/11 GI Bill 
funds) to pay for college expenses unrelated to tuition and fees since 
students would show an account balance due until VA paid the 
institution, creating considerable financial hardship
    <bullet>  Potential requirement to pre-pay tuition and fees and be 
reimbursed when VA paid the institution a month after each semester/
quarter/term, creating considerable financial hardship
    <bullet>  Increased confusion regarding benefit eligibility under 
the Post-9/11 GI Bill since payments would be for the previous 
semester/quarter/term

Potential negative impacts on higher education institutions of H.R. 
        2301, ``Streamlining Education Claims Processing Act of 2011''

    <bullet>  Violation of State laws in States where public 
institutions are already required to prevent students with unpaid 
balances from registering for subsequent terms
    <bullet>  Potential violations of State accounting rules for public 
institutions and/or previously established State accounting policies 
(particularly if forced to carry unpaid balances between fiscal years)
    <bullet>  Cash flow problems, particularly for institutions with 
large veteran student populations
    <bullet>  Increased Post-9/11 GI Bill processing burden on school 
certifying officials as well as financial aid offices, bursar/
cashiering offices, accounting offices, and other institutional 
personnel, particularly in understanding H.R. 2301's concurrent impact 
with the ``net cost'' provision of Public Law 111-377, ``Post-9/11 
Veterans Educational Assistance Improvement Act of 2010,'' also 
effective August 1, 2011
    <bullet>  Increased infrastructure and staffing expenses since 
institutions would be required to either modify existing electronic 
registration, payment, and fund balance systems or to process all 
veteran student accounts by hand each term
    <bullet>  Unclear financial impact on institutions of students who 
drop out mid-term given the shift in payment date by VA under H.R. 
2301--will institutions be paid for the instruction that they have 
delivered up to that point?

    Chairman Stutzman, Ranking Member Braley, and distinguished Members 
of the Subcommittee, my name is Susan Aldridge and I am president of 
the University of Maryland, University College. Today, however, I am 
here to present the perspective of the American Association of State 
Colleges and Universities (AASCU). This statement is related to the 
potential effects of legislation currently being considered by this 
Subcommittee on its 420 institution and system members located in 49 
States, the District of Columbia, Puerto Rico, Guam, and the Virgin 
Islands. Thank you for holding this hearing and providing the 
opportunity to present this testimony.
    In addition, AASCU is the contract administrator for the 
Department-of-Defense-funded Servicemembers Opportunity Colleges (SOC). 
The SOC Consortium is a network of approximately 1,900 colleges and 
universities offering educational services to our Nation's Armed Forces 
and veterans. In order to be included in the Consortium, an institution 
must establish flexible policies appropriate for the unique demands on 
servicemembers and dependents. These policies address items such as 
enrollment, credit evaluation of military training, and transfer of 
credit.
    The legislation that AASCU would like to focus its comments upon 
today is H.R. 2301, the ``Streamlining Education Claims Processing Act 
of 2011.'' While AASCU agrees in principle with the concept behind H.R. 
2301--to simplify the payment process of Post-9/11 Veterans Educational 
Assistance Act benefits, which has been arduous for higher education 
institutions and veteran students alike--this particular legislation 
will not simplify the funds payment process. Unfortunately, it will 
complicate it even further and cause even more delays for veteran 
students in receiving the benefits to which they are entitled.
    As AASCU testified to the Subcommittee on Economic Opportunity of 
the Committee on Veterans Affairs in September 2010,<SUP>i</SUP> the 
VA's problems in implementing the Post-9/11 GI Bill are well-documented 
in both prior hearing testimony and the press. VA itself has gone on 
record that its previous performance was unacceptable. The GAO's 
February 2011 report on VA education benefits and its May 2011 report 
specifically on the administration of the Post-9/11 GI Bill program 
provide further documentation of this state of affairs.
---------------------------------------------------------------------------
    \i\ American Association of State Colleges and Universities (AASCU) 
``Testimony on Post-9/11 GI Bill Benefits Program,'' presented by Dr. 
Alan G. Merten, President, George Mason University, September 16, 2010. 
Retrieved July 1, 2011 from http://www.congressweb.com/aascu/docfiles/
AMerten%20Testimony%20Veterans%20Cmte%2009162010.pdf.
---------------------------------------------------------------------------
    H.R. 2301, however, would not fix VA's processing issues. Instead, 
it would financially penalize institutions and veteran students for a 
problem they did not create. AASCU is fully cognizant that VA is 
experiencing a historic culture shift (some might say culture shock) in 
terms of veteran education benefits processing and that the VA was 
originally given very little time to implement the Post-9/11 GI Bill. 
We have acknowledged this in previously published testimony and policy 
briefs. However, making veteran students and institutions of higher 
education bear the brunt of the VA's inevitable adjustment process 
hardly seems equitable. Other ways can--and should--be found to 
alleviate Post-9/11 GI Bill payment delays.
    For instance, it would seem reasonable for the VA to seek further 
assistance in managing the Post-9/11 GI Bill program from the U.S. 
Department of Education, another Cabinet agency that long ago managed a 
large-scale transition to electronic processing involving all title 4-
eligible institutions of higher education. In fact, the May 5, 2011 GAO 
review of the Post-9/11 GI Bill program, Veterans' Educational 
Benefits: Enhanced Guidance and Collaboration Could Improve 
Administration of the Post-9/11 GI Bill Program, concluded that ``VA 
may be able to achieve greater efficiencies by building stronger 
partnerships with schools, Education, and other expert external 
organizations. For instance, Education has learned many management 
lessons and overcome some of its management challenges over the years 
by refining its systems and administrative processes for delivering 
student aid.'' <SUP>ii</SUP>
---------------------------------------------------------------------------
    \ii\ Veterans' Educational Benefits: Enhanced Guidance and 
Collaboration Could Improve Administration of the Post-9/11 GI Bill 
Program, GAO-11-356R, p. 3. Retrieved July 1, 2011 from http://
www.gao.gov/new.items/d11356r.pdf.
---------------------------------------------------------------------------
    However, the report also stated that ``VA did not continue its 
coordination with Education because of the limited applicability of 
Education's systems and procedures, according to VA officials.''
    Notwithstanding the obvious statutory differences between title 4 
financial aid and chapter 33 veterans education benefits, this 
statement from VA that the established Department of Education (ED) 
computer systems enabling the disbursement of billions of dollars to 
tens of millions of title 4 aid recipients are of ``limited 
applicability'' does not take into account that, according to the 
National Center for Education Statistics (NCES), 16 percent of military 
undergraduates (including veterans) received Federal Pell Grants in 
2007-08.<SUP>iii</SUP> Therefore, veteran students are not completely 
isolated from ED systems and procedures.
---------------------------------------------------------------------------
    \iii\ Issue Tables: A Profile of Military Servicemembers and 
Veterans Enrolled in Postsecondary Education in 2007-08, Table 5-A. 
Retrieved July 1, 2011 from http://nces.ed.gov/pubs2009/2009182.pdf.
---------------------------------------------------------------------------
    Given that veteran students can qualify for both ED and VA funds 
and that institutions are well-versed in ED's electronic processing 
methods, it would seem reasonable for VA to more seriously explore 
adapting pre-existing systems such as ED's Common Origination and 
Disbursement (COD) system used by financial aid administrators, loan 
servicers, and other appropriate stakeholders to administer title 4 
grants and loans. A separate GAO review of VA's implementation of its 
own IT system to support the Post-9/11 GI Bill <SUP>iv</SUP> suggested 
technological areas in need of improvement, so it also seems reasonable 
that exploring adaptations and management techniques ED used during its 
earlier construction of the COD would benefit VA in this process.
---------------------------------------------------------------------------
    \iv\ Veterans Affairs Can Further Improve Its Development Process 
for Its New Education Benefits System, GAO-11-115, ``Highlights.'' 
Retrieved July 1, 2011 from http://www.gao.gov/new.items/d11115.pdf.
---------------------------------------------------------------------------
    While VA's response to the GAO review of Post-9/11 GI Bill 
implementation stated that ``VA will again contact ED and the higher 
education community to determine the applicability of any of their 
processes in VA's administration of the Post-9/11 GI Bill,'' H.R. 2301 
seems to inadvertently discourage VA from working collaboratively with 
other Cabinet agencies to ease its own burdens and deliver educational 
funds to veteran students and institutions in the most efficient, cost-
effective way possible. Given the budget crisis facing this country, we 
do not consider this a judicious mode of action.
    That overall comment being made, AASCU would now like to address 
some specific logistical concerns regarding the detrimental impact of 
H.R. 2301 on higher education institutions and veteran students. Our 
colleagues at AACRAO, NACUBO, and NASFAA--to name a few higher 
education associations with particular subject matter expertise in 
admissions and registration, business and finance, and financial aid--
could provide even more nuanced critiques of H.R. 2301's potential 
impact on their constituencies. We encourage the Subcommittee to also 
call upon them for comment and analysis.
    The first detrimental impact of H.R. 2301 concerns tuition and fee 
payment deferment at registration. In general, higher education 
institutions can permit students to register for a term and have their 
tuition and fees (and room and board, where applicable) ``deferred'' in 
full or in part based on expected financial aid from all sources. These 
sources are generally Federal, State, institutional, or third-party aid 
such as employer reimbursements or external scholarships.
    However, the student is ultimately responsible for the unpaid 
tuition and fee balance should any deferred aid not arrive. And if that 
aid does not arrive before the end of the term, the student is normally 
barred from registering for any subsequent term until the debt is 
satisfied. Some States specifically forbid public institutions of 
higher education to register students who have unpaid balances from a 
previous term.
    Florida is one such example. According to the Florida State 
University System Board of Governors' ``7.002 Tuition and Fee 
Assessment, Collection, Accounting and Remittance'' regulation 
<SUP>v</SUP> (bolding AASCU's), State colleges and universities are 
required to:
---------------------------------------------------------------------------
    \vi\ State University System of Florida Board of Governors 
Regulations, chapter 7, ``Tuition and Fees,'' Section BOG 7.002, 
``Tuition and Fee Assessment, Collection, Accounting, and Remittance,'' 
sec. (7). Retrieved July 1, 2011 from http://www.flbog.org/about/
regulations/regulations.php.
---------------------------------------------------------------------------
    ``establish by regulation, procedures for the payment of tuition 
and associated fees. Such regulation shall provide that a student's 
course schedule will be canceled if payment, or appropriate 
arrangements for payment, has not occurred by the deadline set by each 
university, which shall be no later than the end of the second week of 
classes . . . .However, the president may choose to temporarily suspend 
further academic progress in lieu of canceling a student's course 
schedule in those cases where the student has partially paid tuition 
and the university guarantees full payment from an authorized and 
existing fund before the submission of the final student data course 
file or the end of the semester, whichever is later; otherwise, the 
student credit hours shall not be counted for State funding purposes. 
Suspension of academic progress shall preclude students from receiving 
grades, transcripts, or a diploma and shall deny registration for 
future terms until the student's account has been settled in full.''
    Therefore, if H.R. 2301 is made law, particularly at public 
institutions governed by State laws forbidding students with unpaid 
balances to register, institutions would be faced with the unpalatable 
prospect of either
    a.  carrying veteran students' unpaid account balances from term to 
term and possibly fiscal year to fiscal year--which is not only a cash 
flow problem for all institutions of higher education, but may even be 
illegal for individual State colleges and universities depending on 
their State accounting rules and procedures, or
    b.  requiring veteran students to pay up front for courses and be 
reimbursed whenever the VA pays the school.
    Both of these prospects are unfair not only to veteran students, 
but the institutions serving them. The first could force public 
institutions--depending on the State--into a conflict with State debt 
management and collection policies in order to accommodate veteran 
students receiving Post-9/11 GI Bill funds. Even if institutions did 
not find themselves in violation of State law, they would most likely 
be forced to carry unpaid balances on their ledgers from fiscal year to 
fiscal year given institutions' different fiscal year closing dates 
versus the iron-clad payment time frame set up by H.R. 2301. They would 
also encounter cash flow issues stemming from the delayed payments by 
VA.
    In addition, if VA were permitted to send payments 1 month after 
the end of each semester, the bursar and cashiering offices at 
institutions would then be forced to process all veteran students' 
Post-9/11 GI Bill payments at once rather than receiving a steady flow 
of payments for veteran students during each semester. This would 
create further delays for veteran students in receiving refunds.
    The second prospect could restrict veterans' access to college and 
ability to use their Post-9/11 GI Bill benefits either for their own 
education or that of their eligible spouses and dependents--not because 
institutions do not want to educate veterans or their families, but 
because institutions would not be fiscally able to indefinitely 
``front'' their tuition and fee bills for term after term. Instead, 
institutions would have to ask veteran students to pay and be 
reimbursed, which is contrary to the entire purpose of the Post-9/11 GI 
Bill.
    In addition, the payment change in H.R. 2301 would create yet 
another unfunded mandate for higher education institutions. 
Institutions' computerized billing, payment, and refund systems would 
either have to be reprogrammed--at significant extra cost to 
institutions--or staff would have to spend extra hours processing 
manual payments and overrides for veteran students on top of the long 
hours they already spend counseling veteran students on their benefit 
eligibility and resolving over- and underpayments by VA. Given the 
regulatory and counseling burden on higher education as a whole, and 
the fact that many school certifying officials perform these duties in 
addition to other job duties, this prospect is daunting.
    The January 2011 amendments to the Post-9/11 GI Bill specifically 
restrict the use of the $12/student fee paid to schools by the VA for 
processing veteran students' registration and enrollment. (As noted in 
AASCU's previous testimony, institutions serving large numbers of 
veterans have voluntarily hired extra staff, created new veterans' 
centers, and incurred expenses often far exceeding these monies 
received from VA.) Therefore schools would be unable to use these fees 
to partly defray the overall infrastructure expenses necessary to 
accommodate H.R. 2301. Given the well-publicized finance issues in 
public higher education in particular, H.R. 2301 would thus place an 
especially unfair compliance burden on public institutions.
    For example, 3 of the 7 brick-and-mortar campuses reported by the 
VA as having enrolled the most veteran students using Post-9/11 GI Bill 
benefits in 2009-10 were AASCU members (Old Dominion University, Troy 
University, and University of Maryland--University College). These 
institutions enrolled over 5,000 of the 12,000+ veteran students on the 
7 campuses. The University of Maryland--University College alone 
enrolled over 3,000 veteran students in 2009-10; it currently enrolls 
over 4,500 veteran students. Forcing these institutions to perform 
manual billing and registration overrides for thousands of veteran 
students would be cumbersome, expensive, and labor-intensive--in 
addition to not being in the best interests of veteran students.
    Therefore, public colleges and universities that enroll veteran 
students, befitting their mission as public taxpayer-supported 
institutions serving the public good, would be consistently financially 
penalized for these enrollments if VA were permitted to delay payments 
30 days after the end of each semester. In addition, they would most 
likely be forced into conflict with their States' debt management and 
collection policies.
    The second detrimental aspect of H.R. 2301 is its concurrent impact 
with the ``net cost'' provision in Public Law 111-377, which amended 
the original Post-9/11 GI Bill. This provision requires institutions to 
subtract certain forms of financial assistance awarded to students by 
States, institutions, the Federal Government, or other third parties 
from their tuition and fee charges reported to VA for Post-9/11 GI Bill 
payments.
    When AASCU last testified before this committee, our representative 
stated that the net cost provision would inflict ``intolerable chaos . 
. . on both veteran students and program administrators.'' The 
provision was nevertheless signed into law and is scheduled to take 
effect August 1, 2011. Given how complicated the new process will be 
for students and program administrators compared to the original Post-
9/11 GI Bill payment structure--and how many unforeseen complications 
will undoubtedly occur after it takes effect--delaying tuition and fee 
payments for 30 days after a semester will create even more problems 
for both veterans and institutions.
    The third detrimental impact of H.R. 2301 is its potential impact 
on payment for students who drop out during a term after attending 
classes. Under the current Post-9/11 GI Bill payment process, funds 
flow to the institution during the period of enrollment after a 
certificate of eligibility has been issued by VA for a veteran student 
and the institution has certified that veteran student's enrollment.
    VA has strongly encouraged institutions to certify veteran student 
enrollment as early as possible--even prior to a semester when the 
veteran's actual tuition and fees are unknown.<SUP>vi</SUP> 
Institutions thus often have to submit two enrollment certifications 
for one veteran, the first with zero tuition and fees and a second 
amended enrollment certification with the actual tuition and fees when 
the veteran registers. If a veteran drops or adds courses later in the 
registration process, the original enrollment certification must be 
amended. This has created more challenges for both institutions and VA 
in terms of processing.
---------------------------------------------------------------------------
    \vi\ U.S. Department of Veterans Affairs School Certifying Official 
Handbook, 1st ed., May 15, 2011, p. 37. Retrieved July 1, 2011 from 
http://gibill.va.gov/documents/job_aids/SCO_Handbook_v1.pdf.
---------------------------------------------------------------------------
    Delaying payment for 30 days after the end of a term, for every 
term, thus creates uncertainty about whether institutions will be paid 
by VA if a veteran student drops out partway through a term after 
having attended classes that the institution has delivered in good 
faith. H.R. 2301 does not address this issue, and clarification would 
be necessary for institutions on this point.
    While AASCU has expressed significant concern about H.R. 2301's 
effect on higher education institutions in this testimony, we would 
like to state for the record that our member institutions--as well as 
those public institutions who belong to the Association of Public and 
Land-grant Universities (APLU) and the private nonprofit institutions 
belonging to the National Association of Independent Colleges and 
Universities (NAICU), which is also testifying in front of this body--
are proud to serve veterans and active-duty military students. We all 
understand these students' challenges and support their using college 
education benefits they have earned through their military service. 
Their success is very important to not only our institutions, but our 
country.
    In addition, we would like to state that the higher education 
community has repeatedly reached out to the VA during the Post-9/11 GI 
Bill implementation process to offer expert guidance, assistance, and 
cooperation. Veteran students are not only veterans, but our students.
    The enactment of H.R. 2301 into law would not only place a further 
burden on students and institutions struggling to understand and 
implement the cascading set of Post-9/11 GI Bill amendments currently 
taking effect. It would also be contrary to the entire intent of not 
only the Post-9/11 GI Bill but the original GI Bill, because it would 
effectively penalize veteran students and institutions alike for 
problems not of their making.
    We stand ready and willing to partner with VA in creating better 
processes to deliver Post-9/11 GI Bill funds to veteran students and 
institutions. But H.R. 2301--though well-intended--will harm veteran 
students and institutions of higher education alike rather than 
streamlining the process by which these funds are delivered.

                                 <F-dash>
           Prepared Statement of Curtis L. Coy, Deputy Under
         Secretary for Economic Opportunity, Veterans Benefits
          Administration, U.S. Department of Veterans Affairs
    Good afternoon, Mr. Chairman, Ranking Member Braley, and Members of 
the Subcommittee. I am pleased to present the views of the Department 
of Veterans Affairs (VA) on a number of bills that would affect our 
housing and education programs, as well as our mission of service to 
our Nation's Veterans. I am accompanied today by Mr. John Brizzi, 
Deputy Assistant General Counsel, Office of the General Counsel.
                            HOUSING MATTERS
H.R. 120

    H.R. 120, the ``Disabled Veterans' Surviving Spouses Home Loans 
Act,'' would amend section 3701(b) of title 38, United States Code, to 
expand eligibility for VA's guaranteed loan program to surviving 
spouses of certain totally disabled Veterans. Currently, a surviving 
spouse is eligible for home loan benefits if he or she was married to a 
Veteran who either died from a service-connected disability or is 
listed for more than 90 days as (i) missing in action; (ii) captured in 
the line of duty by a hostile force; or (iii) forcibly detained or 
interned in line of duty by a foreign government or power. Subsection 
(a) of section 3 would expand eligibility for home loan benefits to 
surviving spouses who were married to certain severely disabled 
Veterans who died from other than service-connected causes. For the 
surviving spouse to be eligible, the Veteran's disability must have 
been service-connected and rated totally disabling for (i) a period of 
10 or more years immediately preceding death, (ii) a period of not less 
than 5 years from the date of the Veteran's discharge or other release 
from active duty, or (iii) a period of not less than 1 year immediately 
preceding death, if such Veteran was a former prisoner of war who died 
after September 30, 1999. Subsection (b) would make the amendment to 
section 3701 apply with respect to any loan guaranteed after the date 
of the Act's enactment. Subsection (c) would clarify that a loan fee 
must be collected pursuant to 38 U.S.C. Sec. 3729 in the same manner as 
such fees are collected from surviving spouses who were married to 
Veterans who died from service-connected disabilities.
    Enactment of H.R. 120 would give a covered veteran the peace of 
mind that his or her surviving spouse will be able to receive VA home 
loan benefits, regardless of the veteran's cause of death. However, 
before VA can offer a position on the merits of this bill, it must 
first determine its full impact on the Veterans Benefits Housing 
Program Fund. We have not yet had the opportunity to do so, and will 
provide our estimate of the cost of enactment of the bill at a later 
date. .

H.R. 1263

    H.R. 1263 would amend section 303 of the Servicemembers Civil 
Relief Act by expanding the Act's mortgage protections to include a 
surviving spouse of a Servicemember whose death was service-connected. 
Currently, the protection is limited only to Servicemembers who are on 
active duty or those whose active duty ended within the covered period.
    VA defers to the Department of Defense regarding the merits of this 
bill.

H.R. 1911

    H.R. 1911, the ``Protecting Veterans' Homes Act,'' would amend 
section 303 of the Servicemember's Civil Relief Act to extend the 
period to which the Act's mortgage protections apply.
    Section 2(a) of the bill would extend the period within which a 
court may stay proceedings and adjust obligations relating to real or 
personal property. It would also extend the period within which a court 
may provide relief from a sale, foreclosure, or seizure resulting from 
a defaulted obligation. Before 2008, a court was permitted to exercise 
such protections if the legal action to enforce the obligation was 
filed during, or within 90 days after, the Servicemember's period of 
military service. With the enactment of Public Law 110-289, the 
``Housing and Economic Recovery Act of 2008,'' the protection was 
temporarily extended from 90 days to 9 months. Subsection (a) would 
further extend such period another 3 months, so that a Servicemember 
could rely on the Act's mortgage protections for a total of 12 months 
after his or her period of military service ended.
    Section 2(b) would eliminate the December 31, 2012, sunset date 
that the Housing and Economic Recovery Act of 2008 imposed on the 
extended protection and make it permanent.
    Subsection 2(c) would specify that the amendments made by the Act 
shall take effect on the date of enactment.
    VA defers to the Department of Defense regarding the merits of this 
proposal.

H.R. 2329

    H.R. 2329, the ``Ensuring a Response for Servicemembers Act,'' 
would amend section 207 of the Servicemembers Civil Relief Act to 
require lending institutions to designate an employee of the 
institution as a compliance officer responsible for ensuring the 
institution's compliance with the maximum interest rate requirements 
and for distributing information to Servicemembers whose obligations 
and liabilities are covered by such requirements. The bill would 
further require lending institutions that hold more than $10 million in 
assets during a fiscal year to establish and maintain the next fiscal 
year a toll-free telephone number, and to make such number available on 
the institution's primary Internet Web site.
    VA defers to the Department of Defense regarding the merits of this 
bill.
                           EDUCATION MATTERS
H.R. 2274

    Subsection (a) of H.R. 2274 would amend chapter 33 of title 38, 
United States Code, by adding a new section 3325 that would require (in 
subsection (a)) the Secretaries of Veterans Affairs and Defense to 
submit to Congress at least once every year (through January 1, 2021) 
separate reports on the operation of the Post-9/11 GI Bill (also 
referred to as ``chapter 33'').
    Pursuant to subsection (b) of proposed new section 3325, the 
Secretary of Defense would be required to include information in each 
report indicating: (1) the extent to which the benefit levels provided 
under chapter 33 are adequate to achieve the purposes of inducing 
individuals to enter and remain in the Armed Forces and of providing an 
adequate level of financial assistance to help meet the cost of 
pursuing a program of education; (2) whether it is necessary for the 
purpose of maintaining adequate levels of well-qualified active-duty 
personnel in the Armed Forces to continue to offer the opportunity for 
educational assistance under chapter 33 to individuals who have not yet 
entered active-duty service; and (3) describing the efforts under 
section 3323(b) of title 38, United States Code, to inform members of 
the Armed Forces of the active-duty service requirements for 
entitlement to educational assistance benefits under chapter 33 and the 
results from such efforts. The Secretary would also be required to 
include such recommendations for administrative and legislative changes 
regarding the provision of educational assistance to members of the 
Armed Forces and Veterans, and their dependents, as the Secretary 
considers appropriate. VA defers to the Department of Defense regarding 
these proposed reporting requirements.
    Pursuant to subsection (c) of proposed new section 3325, the 
Secretary of Veterans Affairs would be required to include in each 
report: (1) information concerning the level of utilization of 
educational assistance under chapter 33 and the expenditures under that 
chapter; (2) the number of credit hours, certificates, degrees, and 
other qualifications earned by beneficiaries under chapter 33 during 
the fiscal year preceding the fiscal year in which the report is 
submitted; and (3) such recommendations for administrative and 
legislative changes regarding the provision of educational assistance 
to members of the Armed Forces and Veterans, and their dependents, as 
the Secretary considers appropriate.
    VA concurs, in principle, with the requirement to report annually 
on the Post-9/11 GI Bill. However, we do not currently collect the 
number of credit hours, certificates, and other qualifications earned 
by individuals under the Post-9/11 GI Bill. We estimate that we would 
need at least 12 months to develop a mechanism to track and report such 
information.
    Subsection (b) of the bill would repeal section 3036 of title 38, 
United States Code, which requires the Secretaries of Defense and 
Veterans Affairs to submit to Congress at least once every 2 years 
separate reports on the operation of the Montgomery GI Bill--Active 
Duty, codified in chapter 30 of title 38. VA supports this repeal.
    We will provide an estimate of the cost of enactment for this bill 
for the record. [VA failed to provide the costs for H.R. 2274.]

H.R. 2301

    H.R. 2301, entitled the ``Streamlining Educational Claims 
Processing Act of 2011,'' includes a requirement that VA make payments 
to educational institutions under the Post-9/11 GI Bill at the end of a 
quarter, semester, or term.
    Section 2 of the bill proposes to amend section 3301 of title 38, 
United States Code, to provide definitions for the terms ``quarter, 
semester or term,'' and ``full-time pursuit.'' A ``quarter, semester, 
or term'' would be defined as the academic period during which a course 
of education is pursued, as established by the educational institution. 
The legislation would define ``full-time pursuit'' as the pursuit of a 
program of education during any quarter, semester or term, as 
established by the educational institution. Currently these terms are 
not defined under section 3301.
    VA does not support section 2 as presented because the legislation 
would allow each educational institution to establish a definition for 
a quarter, semester, or term. Allowing educational institutions to 
establish their own definitions would add an additional level of 
complexity to understanding the program. If enacted, this change would 
also have a significant negative impact on VA's Long-Term Solution 
(LTS) for processing Post-9/11 GI Bill claims. Currently, VA has 
standards regarding how many weeks of training constitute quarters and 
semesters. VA would have to make adjustments to the LTS to accommodate 
educational institutions' definitions of quarter, semester, or term.
    Section 3 of the bill would amend section 3313 of title 38 to 
require VA to make payments under the Post-9/11 GI Bill to educational 
institutions not later than 30 days following receipt of charges 
incurred by the individual at the end of the term. Currently, VA makes 
lump sum payments to the educational institutions for tuition costs on 
behalf of an individual pursuing a program of education upon receipt of 
an enrollment certification from the educational institution concerned. 
The changes made by this section would be effective for any quarter, 
semester, or term that begins on or after August 1, 2011.
    VA generally supports this section. We believe this amendment would 
minimize the probability of overpayments of educational assistance 
under the Post-9/11 GI Bill. However, we note that its enactment would 
potentially impact the timeliness of processing claims. Currently, VA 
processes tuition and fee payments upon receipt of an enrollment 
certification from a school. Requiring VA to hold tuition and fee 
payments to the end of the enrollment period would allow the 
educational institution time to submit changes or updates; however, 
holding the claim open during such period would, by definition, 
increase the amount of time it takes for VA to complete the claim. 
Additionally, if educational institutions submit enrollment 
certifications before the final charges are determined, VA may 
experience a significant increase in the number of claims submitted, 
which could negatively impact the average days to process claims.
    We also have concerns with the effective date of the legislation. 
Educational institutions begin submitting enrollment certifications as 
early as the month of June for terms that begin in August. If VA has 
already processed enrollments for terms that begin after August 1, 
2011, educational institutions may have already received payments for 
terms that have not yet begun. Therefore, VA recommends postponing the 
effective date of this provision until August 1, 2012.
    Section 4 of the bill would amend subsection (h) of section 3313. 
It is unclear, however, whether the drafters intend to amend subsection 
(h) as currently in effect or whether they intend to amend that 
subsection as it will be in effect as of October 1, 2011 (by virtue an 
amendment to section 3313 by section 105 of Public Law 111-377). 
Effective October 1, 2011, section 105(b) of Public Law 111-377 will 
operate to strike current section 3313(h) (Established charges defined) 
and redesignate current section 3313(g) (Payment of established charges 
to educational institutions) as section 3313(h). Finally, also 
effective on October 1, 2011, section 105(b) of the Public Law will add 
a new subsection (g) to section 3313 (Assistance for pursuit of 
programs of education other than programs of education leading to a 
degree). The text of section 4 is confusing in that it would amend 
section 3313(h) by striking ``(h) Payment of Established Charges to 
Educational Institutions.--Amounts'' and inserting ``(g) Payment of 
Established Charges.''--
    ``(1) Payment to Educational Institutions--Amounts''. (Emphasis 
added). We believe the drafters intended the first portion of the 
amendment to read ``(h) Payment of Established Charges.--''. Otherwise, 
this could be construed as supplanting the newly added language of 
subsection (g) discussed above. In addition, the affected subsection 
would be amended by the addition of a new paragraph (2), to require 
that VA determine the established charges for each credit hour of a 
program of education for any term, quarter or semester by dividing the 
total cost of the tuition for enrollment in the program of education on 
a full-time basis for that term, quarter or semester by the number of 
credit hours the educational institution is offering for the program 
course.
    It is not clear how this amendment would affect VA's determinations 
of payments to educational institutions once various amendments that 
were made by Public Law 111-377 become effective. Given the uncertainty 
surrounding section 4 of the proposal, VA is unable to provide views 
regarding that section at this time. We will seek clarification from 
the Subcommittee staff and provide comments on this section at a later 
date.
    We are unable to provide an estimate of the cost of enactment of 
H.R. 2301 at this time. However, once we clarify the drafters' intent 
regarding section 4, we will provide that estimate for the record. [VA 
failed to provide the costs for H.R. 2301.]
                             OTHER MATTERS
H.R. 2345

    Title VII of Public Law 110-389 included provisions authorizing the 
Secretary of Veterans Affairs to: (1) provide assistance to the United 
States Paralympics (USP) to plan, develop, manage and implement an 
adaptive sports program for disabled Veterans and disabled members of 
the Armed forces (codified at 38 U.S.C. Sec. 521A); and (2) award a 
monthly assistance allowance to Veterans training for or selected to 
compete on the U.S. Paralympic team (codified at 38 U.S.C. Sec. 322). 
The respective funding authorities for these provisions are set to 
expire at the end of fiscal year 2013.
    Section 1 of H.R. 2345 would amend section 322(d)(4) to extend, for 
a period of 5 years (through FY 2018), the authority for appropriations 
to fund VA's payment of monthly monetary allowances. Section 2 of the 
bill would amend section 521A(g) to extend, for a period of 5 years 
(through FY 2018), the authority for appropriations to fund VA's above-
described provision of assistance to the United States Paralympics; it 
also would amend section 521A(l) to similarly extend the termination 
date for provision of such assistance (through FY 2018).
    Extending these authorities would allow VA and the U.S. Paralympics 
to continue developing their adaptive sports programming while building 
stronger relationships with partner organizations in Veterans' 
communities, allowing Veterans to continue their rehabilitation through 
sports for years to come. Thus, subject to the availability of funding, 
we fully support these extensions.
    By its own terms, the cost of enactment of this bill would be $10 
million in fiscal year 2014, with a total 5-year cost (FY 2014 through 
FY 2018) of $50 million.

H.R. 240

    Section 1(a) of H.R. 240 would change the wording in section 8127 
of title 38, United States Code, from ``may'' to ``shall,'' to require 
contracting officers to contract with service-disabled Veteran-owned or 
Veteran-owned small businesses for all VA procurements under $5 million 
using other than competitive procedures for purposes of meeting the 
contracting goals and preferences established by the Secretary. The 
businesses must be deemed responsible and VA has to make an award at a 
fair and reasonable price. In addition, Section 1(b) would require VA 
to issue interim policy guidance to carry out this authority within 30 
days of enactment.
    VA opposes this legislation because the proposed language would be 
too restrictive, and would remove necessary business judgments that 
must be made at the discretion of VA contracting officers to acquire 
goods and services by the best means available for each applicable 
acquisition. Moreover, full and open competition, not the use of other-
than-competitive procedures, is the most preferred acquisition 
methodology, as competition is the best means to achieve a fair and 
reasonable price. Pursuant to 38 U.S.C. Sec. 8127(d), VA is currently 
required to set-aside acquisitions over $3,000 on a full and open 
competitive basis for service-disabled Veteran-owned or Veteran-owned 
small businesses on a priority basis when two or more such businesses 
are found in market research and an award can be made at a fair and 
reasonable price. Furthermore, pursuant to this existing authority, VA 
has consistently achieved its socioeconomic contracting goals for 
service-disabled Veteran-owned and Veteran-owned small businesses since 
the enactment of 38 U.S.C. Sec. 8127 in 2006.

H.R. 2302

    H.R. 2302 would amend title 38, United States Code, by adding a new 
section 517 to require the Secretary (VA) to notify Congress in advance 
of certain ``covered'' conferences sponsored by VA that would cost the 
Department at least $5,000.
    Subsection (a) of proposed new section 517 would provide that, not 
later than 180 days before the date on which a covered conference 
begins, the Secretary shall notify the Committees on Veterans' Affairs 
of the House and Senate of such conference, including the estimated 
costs to the Department.
    Subsection (b) of the proposed new section would provide that, not 
later than 60 days after the date on which a covered conference ends, 
the Secretary shall submit to the Veterans' Affairs Committees a report 
that includes an accounting of the final costs of the conference to the 
Department.
    Subsection (c) of the proposed new section would define the term 
``covered conference'' to mean a conference, meeting, or similar forum 
that is sponsored or cosponsored by VA and is: (1) held for a period of 
3 or more days (beginning at the time of the initial on-site 
registration and ending at the time the final event is completed); (2) 
attended by 20 or more individuals, including one or more VA employees; 
or (3) estimated to cost the Department at least $5,000, including 
costs related to transportation and parking, per diem payments, 
lodging, rental of halls, auditoriums, or other spaces, rental of 
equipment, refreshments, entertainment, contractors, and brochures and 
other printed media.
    VA opposes this bill as it would impose burdensome notification and 
reporting requirements on the Department. It would also discourage 
legitimate and beneficial conference activities, including in-person 
gatherings within VA, and with other Federal agencies, Veterans 
Services Organizations and Veterans advocates, and businesses 
encouraged to hire Veterans. In addition, the 180-day notification 
requirement would limit VA leadership's ability to promptly and 
appropriately respond to training, planning, or other emergent 
operational needs.
    All VA national events require notice to and/or approvals from VA 
Executive Management. Any conference that will be attended by more than 
100 individuals must be approved in advance by VA's Chief of Staff. 
When VA determines a face-to-face conference is the most preferred 
manner of conducting training, it complies with Government-wide 
regulations to identify potential locations and hotels. All proposed 
conference contracts for amounts exceeding $25,000 are reviewed by VA's 
Office of General Counsel. Conference contracts also undergo technical 
review. The process for determining conference locations is consistent 
with the Federal Acquisition Regulation and is driven by the specific 
requirements of each conference.
    The definition of ``covered conferences'' in H.R. 2302 captures the 
majority of operational meetings that are planned in the day-to-day 
administration of VA's large health care, benefits and cemetery 
systems. Because of the low participant and dollar thresholds, it would 
include minor gatherings and those events that feature a substantial 
virtual component. The bill's requirements would hinder the 
Department's ability to effectively plan day-to-day business activities 
and meet emerging business needs, and would not provide any additional 
value to the current review process. For example, VA medical center 
directors could not conduct timely town hall meetings, the Deputy 
Secretary could not conduct a timely Operational Management Review, and 
VA medical centers could not conduct timely grand rounds.
    In addition, conferences are an indispensable tool for VA training. 
The success of VA transformation, cultural change, and effective 
implementation of new policies (as well as carrying out changes in 
programs resulting from legislative enactments) are dependent on the 
ability of VA to carry out effective training. VA conferences also 
address maintenance and appearance of 131 national cemeteries, 
accountability and quality control procedures, and the administration 
of VA benefits related to burial and memorializing of our Nation's 
fallen heroes and their eligible family members. Moreover, VHA provides 
workforce development and continuing education for more than 239,000 
health care professionals and support staff at over 1,400 sites of care 
nationwide. Much of this training is necessary for these health care 
professionals to obtain and maintain their required licensing and 
certifications.
    VA is unable to estimate the costs associated with this bill.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to respond to any questions you or other Members of the 
Subcommittee may have.

                                 <F-dash>
             Statement of Vivianne Cisneros Wersel, Au.D.,
            Chair, Government Relations Committee, Gold Star
                         Wives of America, Inc.
    With malice toward none; with charity for all; with firmness in the 
right, as God gives us to see right, let us strive to finish the work 
we are in; to bind up the Nation's wounds, to care for him who has 
borne the battle, his widow and his orphan.''
     . . . President Abraham Lincoln, Second Inaugural Address, March 
4, 1865
    Chairman Stutsman, Ranking Member Bilirakis, and Members of the 
Subcommittee on Economic and Opportunities, thank you for the 
opportunity to present testimony on behalf of Gold Star Wives of 
America (GSW).
    Secretary of Veterans Affairs Eric Shinseki once stated, ``Taking 
care of survivors is as essential as taking care of our Veterans and 
military personnel. By taking care of survivors, we are honoring a 
commitment made to our Veterans and military members.'' We thank this 
committee for including us today to honor that commitment.
    I am Vivianne Wersel, the Chair of the Gold Star Wives' Government 
Relations Committee. I am the surviving spouse of Lt Col Richard 
Wersel, Jr. USMC who died suddenly on February 4, 2005, 1 week after he 
returned from his second tour of duty in Iraq. Gold Star Wives of 
America, founded in 1945, is a congressionally chartered organization 
of spouses of servicemembers who died while on active duty or who died 
as the result of a service-connected disability. It is an all-volunteer 
organization. We could begin with no better advocate than Eleanor 
Roosevelt, newly widowed, who helped make Gold Star Wives a truly 
national organization. Mrs. Roosevelt was an original signer of our 
Certificate of Incorporation and a member of the Board of Directors. 
Our current membership encompasses surviving spouses of servicemembers 
who died while on active duty or as a result of a service-connected 
disability during World War II, the Korean War, the Vietnam War, the 
first Gulf War, the wars in Iraq and Afghanistan, and every period in 
between.
    Gold Star Wives is an organization of those who are left behind 
when our Nation's heroes, bearing the burden of freedom for all of us, 
have fallen. We are that family minus one; we are spouses and children, 
all having suffered the unbearable loss of our spouses, fathers or 
mothers. We are those to whom Abraham Lincoln referred when he made the 
government's commitment ``. . . to care for him who shall have borne 
the battle, and for his widow, and his orphan.''
    This hearing encompasses various House bills; some do not reflect 
our membership. Today, I will focus on the legislation that pertains to 
military and veterans' surviving spouses.

H.R. 120_Disabled Veterans' Surviving Spouses Home Loans Act

    Disabled Veterans' Surviving Spouses Home Loans Act--to provide for 
eligibility for housing loans guaranteed by the Department of Veterans 
Affairs for the surviving spouses of certain totally-disabled veterans.

CRS Summary

    Disabled Veterans' Surviving Spouses Home Loans Act--Includes as a 
veteran, for purposes of eligibility for housing loans guaranteed by 
the Department of Veterans Affairs (VA), the surviving spouse of a 
veteran who at the time of death was in receipt of or entitled to 
compensation for a service-connected disability rated totally disabling 
if: (1) the disability was so rated for 10 or more years preceding 
death; (2) the disability was so rated for at least 5 years since the 
veteran's discharge or release from active duty; or (3) the veteran was 
a former prisoner of war who died after September 30, 1999, and the 
disability was so rated for at least 1 year preceding death. Requires 
any applicable VA housing loan fee to be collected from such spouse.
    This legislation will cover the surviving spouses of totally-
disabled veterans who were not included in earlier legislation for VA 
home loan guarantees.
    Despite the implication in statement concerning fees in the above 
summary, it appears to this legal novice that the VA fee for surviving 
spouses of totally-disabled veterans is waived. Earlier legislation 
waived the VA fee for surviving spouses included in earlier 
legislation.
    GSW supports the legislation.

H.R. 240_Sole Source Government Contracts for Small Businesses_Vet 
        Preference

CRS Summary

    Requires (current law authorizes) a Department of Veterans Affairs 
(VA) contracting officer to award contracts to small businesses owned 
and controlled by veterans using other than competitive procedures for 
contracts above the simplified acquisition threshold in order to meet 
VA small business procurement contracting goals.
    After the death of a veteran spouse, the surviving spouse is left 
behind to maintain the family's financial stability. Some surviving 
spouses were in business with the veteran spouse before their death, 
and other surviving spouses have the means and desire to start a 
business on their own. GSW supports this bill and suggests that 
surviving spouses of veterans who died of a service-connected cause and 
own small businesses be included in this legislation.
    GSW supports this legislation.

H.R. 1263

CRS Summary
    To amend the Servicemembers Civil Relief Act to provide surviving 
spouses with certain protections relating to mortgages and mortgage 
foreclosures. Amends the Servicemembers Civil Relief Act (SCRA) to 
afford surviving spouses of servicemembers who die while in the 
military and whose death is service-connected the same protections 
against sale, foreclosure, and seizure of property currently applicable 
to their husbands who while in military service are unable to meet an 
obligation on real or personal property.
    With the economic stresses the country now faces, we have many 
surviving spouses who worry about losing their jobs and/or when they 
will be able to retire. Some are one-step away from a car that stops 
running or an unmet house payment. Many of our members have a serious 
problem making house payments when their spouse dies. Not all surviving 
spouses receive the SGLI and the Death Gratuity today, as both may now 
be assigned to others, leaving the surviving spouse unable to meet 
their existing financial obligations.
    Our concern is that this legislation applies only to surviving 
spouses of those who die on active duty. Surviving spouses of 
servicemembers who subsequently die of wounds or illness should be 
entitled to the same protection.
    GSW supports this legislation and suggests that surviving spouses 
of servicemembers who subsequently die of wounds or illness be given 
this same protection.

H.R. 1911_Protecting Veterans' Homes Act

CRS Summary

Amends the Servicemembers Civil Relief Act to extend from 9 to 12 
        months after military service the period of protection against 
        mortgage sale or foreclosure, as well as the stay of 
        proceedings, in the case of an obligation on real property of a 
        servicemember that originated before the period of military 
        service.
Amends the Housing and Economic Recovery Act of 2008 to repeal the 
        sunset date for such periods of relief.
    GSW supports this legislation that would extend the time period in 
the Servicemembers Civil Relief Act from 9 to 12 months after military 
service, and repeals the sunset date for such periods of relief in the 
Housing and Economic Recovery Act of 2008.
    GSW supports this legislation.

H.R. 2274

    Latest Title: To amend title 38, United States Code, to direct the 
Secretary of Veterans Affairs and the Secretary of Defense to submit to 
Congress annual reports on the Post-9/11 Educational Assistance 
Program, and for other purposes.
    GSW supports this legislation and suggests that chapter 35, 
Dependents Educational Assistance benefits be included in this report.

H.R. 2301_Streamlining Education Claims Processing Act of 2011

    Latest Title: Payments will be made to Educational Institutions at 
end of semester for Post-9/11 education benefits.
    GSW does not support this legislation.
    This legislation would reduce the VA administrative costs and 
remove some of the turbulence from the processing of tuition benefits; 
it also has the potential to put students with limited income like 
surviving spouses whose children are entitled to these benefits in 
financial jeopardy. Delaying payment of tuition until the end of the 
term, quarter or semester would require the student or the surviving 
parent to cover the tuition costs out-of-pocket, which would be a 
financial hardship for many students and surviving parents.
    Many educational institutions have agreed to waiver payment of 
tuition for 60-90 days; however, there is currently no waiver in place 
that provides for tuition to be paid at the end of the term, quarter or 
semester.
    Even if the educational institution agreed to waive payment of 
tuition until the end of the term, quarter or semester, if the student 
is unable to complete the course of study successfully, this bill 
shifts the cost of the tuition debt as well as the cost of collecting 
the tuition debt from the VA to the educational institution. Due to the 
number of severely injured veterans and the veterans who suffer from 
TBI and PTSD, there may be many who cannot complete the course of 
education covered by the tuition. Educational institutions might cease 
to admit students using post 9-11 educational benefits. The VA has 
better resources from which to collect such a tuition debt.

H.R. 2329_Ensuring a Response for Servicemembers Act

Text of Legislation

    To amend the Servicemembers Civil Relief Act to provide for certain 
requirements for financial institutions that are creditors for 
obligations and liabilities covered by that Act.
    This is an enforcement parameter of the SCRA-to appoint a 
compliance officer at creditors- it makes someone at the creditors' 
office responsible for compliance (i.e., ensuring interest rates are 
lowered accordingly, that homes are not foreclosed when people are 
deployed, etc.) For the larger companies, ensures debtors can contact 
creditors through a phone number set up for this purpose.
    The families of the Nation's fallen have already suffered the 
greatest loss; there is no need to make these families struggle 
further. We are not living the ``good life'', but rather are living a 
modest life and sometimes existing near poverty levels.
    There are numerous news articles about the shenanigans some of the 
banks and other mortgage holders are pulling on those attempting to 
reduce their monthly mortgage payment and avoid foreclosure. This 
legislation would be helpful to surviving spouses who need to reduce 
their monthly mortgage payment.
    GSW supports this legislation.
    Gold Star Wives appreciates the compassionate work that Members of 
this Subcommittee and the staff do on our behalf. We always stand ready 
to provide this Subcommittee with any additional needed information. We 
are the voice of the surviving spouses and their children.

                                 <F-dash>
               Statement of Paralyzed Veterans of America
    Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee, Paralyzed Veterans of America (PVA), thanks you for the 
opportunity to submit a statement for the record regarding the proposed 
legislation being considered today. PVA appreciates the fact that you 
are addressing these important issues that affect the economic 
wellbeing of veterans. We support your effort to help these men and 
women that have honorably served their nation transition successfully 
back to the civilian world.
                                H.R. 120
    PVA supports H.R. 120, legislation that would modify the existing 
housing loan program for veterans which provides a loan guarantee by 
the Department of Veterans Affairs. This bill would expand the program 
to include the surviving spouse of a veteran who was 100 percent 
service-connected disabled if the disability was so rated for 10 years 
preceding death; the disability was so rated for 5 years since the 
veteran's discharge, or the veteran was a former prisoner of war who 
died after September 30, 1999, and the disability was so rated for at 
least 1 year preceding death.
                                H.R. 240
    PVA supports H.R. 240, which would promote employment for veterans 
in the current unfavorable employment market. This bill insures more 
veteran owned businesses receive consideration for government 
contracts. Veteran owned businesses tend to employ more veterans that 
nonveteran owned businesses. This would require VA contracting officers 
to award contracts to veteran owned small businesses through the use of 
sole source contracting. The use of the sole source contracting policy 
would result in contracts to veteran owned businesses that would exceed 
the minimal requirement of 3 percent.
                               H.R. 1263
    PVA supports H.R. 1263, legislation to amend the Servicemembers 
Civil Relief Act to afford surviving spouses of servicemembers who die 
while in the military and whose death is service-connected the same 
protections against sale, foreclosure, and seizure of property 
currently applicable to their husbands who while in the military 
service are unable to meet an obligation on real or personal property.
                               H.R. 1911
    PVA supports H.R. 1911, the ``Protecting Veterans' Homes Act''. 
This bill would extend the current protection authorized by the 
Servicemembers Civil Relief Act from the current time of 9 months to 12 
months after military service. This protection would apply to the sale 
or foreclosure, as well as the stay of proceedings, in case of an 
obligation of real property of a servicemember that originated before 
the period of military service.
                               H.R. 2274
    PVA supports H.R. 2274, which would require an annual report to 
Congress from the Department of Veterans Affairs and Department of 
Defense providing detailed information on the usage of, and their 
future recommendations for the Post-9/11 GI Bill. This report will help 
identify the effectiveness of the current program to recruit and retain 
members of the Armed Forces. These motivating factors were taken into 
consideration when developing this benefit. The report should also help 
identify shortcomings in the program, which could include access to, or 
inadequate financial assistance. The report will also indicate the 
number of certificates, degrees, and completed programs the veterans 
and servicemembers have accomplished for each year. This information 
will document the success of the program for preparing these men and 
women to enter the civilian workforce for current employment, or future 
employment after military service. This report will be a valuable tool 
for Congress as they make legislative changes to reshape the Post-9/11 
GI Bill in the future.
                               H.R. 2301
    PVA supports H.R. 2301, the ``Streamlining Education Claims 
Processing Act of 2011.'' Making this change in the payment schedule to 
educational institutions will accommodate the changing educational 
class loads of the veterans resulting in the correct payment to the 
institution at the end of the educational session.
                               H.R. 2302
    PVA does not have a position on H.R. 2302, legislation that would 
require the Secretary of Veterans Affairs to notify Congress of 
conferences sponsored by the VA. We do question the value of this 
requirement. This would involve professional staff time to coordinate 
such events while complying with the advanced notification time, 
determining which events meet the criteria, tracking expenses, 
reporting expenses, and submitting reports to Congress. This seems to 
be an extreme example of Congress trying to micro-manage one of the 
largest agencies in the Federal Government. The goals of conferences 
sponsored by the VA are generally educational or to disseminate 
information applicable to carrying out its mission. This could include 
raising awareness of problems, or better methods or solutions to 
address issues within the VA. We feel the VA staff realize their agency 
must function within a limited budget which means they would be 
selective on topics and critical of the value of conferences they 
sponsor.
                               H.R. 2345
    PVA supports H.R. 2345, a bill that would reauthorize the 
Paralympics program that has partnered with the VA to expand sports and 
recreation opportunities to disabled veterans and injured 
servicemembers. We believe that this has certainly been a worthwhile 
program as the need for expansion of these activities is necessary. We 
appreciate the role that the Paralympics have played in this expansion.
    However, as we expressed during original consideration of this 
program in 2008, we remain concerned about a general lack of 
transparency. We believe a better and more open explanation of what 
expansion efforts have actually taken place needs to be expressed. 
Additionally, as we testified in 2008, we believe that the grant review 
and approval process needs to be more open so that Congress as well as 
the American public can see how the money that has been authorized is 
being spent.
    Lastly, further oversight needs to be conducted to ensure that 
administrative costs of these programs are being minimized. The 
original law mandated that no more than 5 percent of the Paralympics 
funding could support administrative costs and no more than 10 percent 
could support administrative costs for grant recipients. While we 
believe the Paralympics are doing a reasonable job of meeting this 
requirement, we are concerned that the VA General Counsel's opinion on 
indirect versus direct costs could allow them to skirt the original 
intent of the legislation to hold down actual administrative costs. We 
would encourage the Subcommittee to investigate this further.
                               H.R. 2329
    PVA supports H.R. 2329, the ``Ensuring a Response for 
Servicemembers Act''. This places increasing requirements on lending 
institutions that benefit from conducting business with servicemembers. 
They would be required to establish a compliance officer for providing 
information to servicemembers and in addition, depending on assets of 
the institution, required to establish a toll-free telephone number to 
address problems with servicemembers' accounts. This will help address 
some problems of the lack of communication with institutions that have 
been reported in past hearings dealing with servicemembers conducting 
business with lending institutions.
    Mr. Chairman, Paralyzed Veterans of America appreciates this 
opportunity to express our views on these issues. We look forward to 
working with the Subcommittee on these and other issues in the future.
                   MATERIAL SUBMITTED FOR THE RECORD
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      July 13, 2011
MG David Bockel, USA (Ret.)
Executive Director
Reserve Officers Association of the United States
One Constitution Avenue, NE
Washington, DC 20002

Dear MG Bockel:

    I would like to request your response to the enclosed question for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Legislative 
Hearing on July 7, 2011. Please answer the enclosed hearing questions 
by no later than Thursday, August 18, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-9756.
            Sincerely,
                                                    Bruce L. Braley
                                                     Ranking Member
    JL/ot

                               __________
                    Question for the Record from the
                  House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                    July 7, 2011 Legislative Hearing
    Question 1: In your written testimony, you stated that there are 
many other kinds of leases and contracts that the person entering 
active duty may need to terminate. Can you give us a list of these 
leases and contracts for review?

    Response: There are many things that a civilian may regard as 
``necessities'' that quickly become ``encumbrances'' when he or she is 
called to active duty. Under the Soldiers' and Sailors' Civil Relief 
Act (SSCRA), dating back to 1917, a person entering active duty (by 
draft, by voluntary enlistment, or by call-up from the National Guard 
or Reserve) has had the right to terminate a lease on PREMISES 
(apartment, house, office, farm, etc.).
    In 2003, Congress enacted the Servicemembers Civil Relief Act 
(SCRA), as a long-overdue rewrite of the SCRA. In 2003, Congress 
continued the right to terminate a lease on premises and added the 
right to terminate a lease on a VEHICLE.
    Just last year, Congress enacted an effective provision giving the 
person entering active duty the right to terminate a CELL PHONE 
contract.
    While these provisions are good, there are many other leases or 
contracts that the person entering active duty will need to terminate.
    The Reserve Officer Association would favor a provision giving the 
person entering active duty the right to terminate any contract or 
lease for goods or services that has more than 3 months to go at the 
time the person enters active duty. This should apply to goods and 
services for the individual's personal use and for business use. 
Examples include:

     Professional Health Care Equipment Leases
     Professional Legal Equipment Leases, Services Agreements and 
Subscriptions.
     House Security Alarm Contracts
     Cable Television agreements
     DirectTV contracts
     Gym memberships
     Some Utility Contracts.

    Currently, the only option under section 591 of the SCRA (50 U.S.C. 
App. 591) is to apply to a court for relief from a pre-service 
obligations under an equipment lease.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      July 13, 2011
Mr. Arthur F. Kirk, Jr.
President
Saint Leo University, Saint Leo, FL.
National Association of Independent Colleges and Universities
1025 Connecticut Avenue, N.W., Suite 700
Washington, D.C. 20036

Dear Mr. Kirk:

    I would like to request your response to the enclosed question for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Legislative 
Hearing on July 7, 2011. Please answer the enclosed hearing questions 
by no later than Thursday, August 18, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-9756.
            Sincerely,
                                                    Bruce L. Braley
                                                     Ranking Member
    JL/ot

                               __________

      Question for the record of July 7, 2011, Legislative Hearing
          from Representative Bruce L. Braley, Ranking Member
   of Subcommittee on Economic Opportunity of the House Committee on 
                           Veterans' Affairs
 to Dr. Arthur F. Kirk, Jr. (President of Saint Leo University, Saint 
                             Leo, Florida)
    Question 1: In your testimony you mentioned that if H.R. 2301 were 
to pass, ``issues related to billing and to the assignment of 
responsibility for payment will be less clear. '' How can the 
legislation be improved to avoid this problem?''
    Response: Billing issue: The need to make modifications in a 
school's SIS systems and billing processes to accommodate payments at 
the end of the term/semester.
    Any change to the current payment system will require these types 
of modifications by the school, but there are better ways than delaying 
payment until after the end of the term.
    In my testimony, I noted that Saint Leo is implementing a new two-
step veteran's certification process. Our Veterans Certifying Officers 
will enter the veteran as a student, but will certify zero tuition and 
fees in VAOnce, the VA GI Bill database system, at the semester's 
start. After the period for adding and dropping courses ends, we will 
then reenter in VAOnce and add the tuition and fee charges for all the 
courses in which the veteran is actually enrolled. We believe this 
approach would work better than delaying payments until after the term 
has ended.
    Billing issue: The need to address school policies that prevent 
registration for future terms/semesters for students with outstanding 
balances.
    Saint Leo could waive the financial holds. However, we would not 
always know the amounts expected from the VA. Since many students are 
not at 100 percent of eligibility, they often incur out-of-pocket 
costs. We would always be running behind and never have a true sense of 
what the student owes.
    Assignment for responsibility for payment: This question arises in 
situations where a student withdraws--particularly if the student 
withdraws during a refund period.
    I would also mention that the bigger question related to assignment 
of responsibility for payment is not tied to H.R. 2301, but rather to 
the ``net payer'' provision in effect this August 1. Saint Leo 
University has always certified for the full tuition amount and has 
never had to consider any other type of aid the student may have 
received. As has happened in the past, there have been no final 
regulations/guidelines/training issued prior to the effective date. So, 
it is not clear yet how this will work.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      July 13, 2011
Susan C. Aldridge, Ph.D.
President
University of Maryland University College
American Association of State Colleges and Universities
1307 New York Avenue, NW
Fifth Floor
Washington, DC 20005

Dear Dr. Aldridge:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Legislative 
Hearing on July 7, 2011. Please answer the enclosed hearing questions 
by no later than Thursday, August 18, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-9756.
            Sincerely,
                                                    Bruce L. Braley
                                                     Ranking Member
    JL/ot

                                 <F-dash>

            American Association of State Colleges and Universities
                                                    Washington, DC.
                                                    August 18, 2011
The Honorable Bruce Braley
Ranking Member
Subcommittee on Economic Opportunity
335 Cannon House Office Building
Washington, DC 20515

RE: Questions for the Record, July 7, 2011 Legislative Hearing on H.R. 
2301

Dear Ranking Member Braley:

    Enclosed please find the requested response to your questions for 
the record regarding the July 7, 2011 testimony of the American 
Association of State Colleges and Universities (AASCU) and President 
Susan C. Aldridge, University of Maryland--University College. If you 
or other Members of the Subcommittee have further questions, we would 
be happy to address them at your earliest convenience.
            Regards,
                                                       Ed Elmendorf
                                              Senior Vice President
                           Government Relations and Policy Analysis
    lm/EE
    Enclosure

                               __________

        Responses Submitted by AASCU for the Record in Response
                       to Ranking Member Braley's
           Submitted Questions Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
    Question 1: How would VA benefit from adapting Department of 
Education's Common Origination and Disbursement system?

    Answer: To electronically disburse Higher Education Act title 4 
Federal financial aid, the U.S. Department of Education developed the 
Common Origination and Disbursement system (COD). The COD has evolved 
into an efficient interface between the Federal Government and 
institutions of higher education. The system is used to record and 
reconcile awards and disbursements to individual students. Institutions 
submit data to the COD using batch files written in Extensible Markup 
Language format (XML). These files provide a host of eligibility and 
enrollment data to the Department. The COD acknowledges receipt of the 
file and issues a report of accepted and rejected data elements. The 
COD is used to inform the Department of any changes to enrollment, 
eligibility status, and resultant award or disbursement changes. The 
award and disbursement information is used to control fund availability 
to institutions for disbursement and to reconcile disbursements to 
students with funds drawn by the institution.
    The benefit of the COD is that it allows institutions to share 
information with the Federal Government in a flexible and dynamic 
manner. While the VA could benefit from a COD-like system, the current 
fabrication of the Post-9/11 GI Bill program is highly rigid. As such, 
the efficiencies of the COD would not be helpful given current VA 
processes. Should the VA decide to move toward a more flexible and 
dynamic process of certification, disbursement, return of funds, and 
corrections, the COD would be an excellent model to replicate as 
appropriate in the VA program.

    Question 2: If the University of Maryland were required to carry 
all the veterans' unpaid balances, how much would that be?

    Answer: For the past academic year (2010/2011), University of 
Maryland University College alone (not including the ten other degree 
granting institutions within the University System of Maryland) carried 
nearly $30,000,000 in VA payments across the three semesters (Summer 
2010, Fall 2010, and Spring 2011). For the previous academic year, that 
total was approximately $14,000,000, based upon the Fall 2009 and 
Spring 2010 semesters as the Post-9/11 Veterans Educational Assistance 
Act of 2008 was implemented on August 1, 2009.

    Question 3: How much more money have veterans and the G.I. Bill 
brought to schools and is any of this money being used to address their 
unique payment needs?

    Answer: According to statistics released by the National Center for 
Veterans Analysis and Statistics, the Post-9/11 GI Bill served 384,552 
participants nationwide in 2010. (Expenditure data from the same source 
mingles Vocational Rehabilitation spending with both the Post-9/11 GI 
Bill and the Montgomery GI Bill and therefore is not provided here.)
    We defer to the VA to provide the most recent data for expenditures 
under the Post-9/11 GI Bill program. We also note that to get an 
accurate nationwide figure of institutional receipts it would be 
necessary for VA to disaggregate data on tuition and fee payments made 
directly to institutions (as well as reconcile overpayments returned by 
institutions due to VA error, student enrollment changes, and so forth) 
from BAH and book stipend payments made directly to student veterans.
    While veteran enrollment has increased with the Post-9/11 GI Bill, 
it is difficult to determine on a national level whether veteran 
students are additions to the target number of students that 
institutions would have enrolled anyway--or if, in fact, veterans 
displaced civilians in enrolled classes of students. If an institution 
maintained its predetermined enrollment target, then the Post-9/11 GI 
Bill funds used to pay a veteran's tuition and fees at the institution 
would have been equal to the funds received by a nonveteran minus any 
institutional aid that the nonveteran received. If veteran students 
enrolled over and above the institution's previously set target 
enrollment numbers, then tuition and fee payments from the Post-9/11 GI 
Bill could be considered additional funding; however, these payments 
serve to defray the institutional costs of providing the veteran with a 
proper education.
    Higher education as a whole, however, is adapting to serve the 
unique needs of its veteran population. According to the first national 
survey of higher education institutions about their institutional 
programs and services for servicemembers and veterans conducted in 2009 
by a group of higher education and veterans' associations (AASCU, ACE, 
NASPA, NAVPA, and SOC), 57 percent of the 723 responding institutions 
offered programs and services specifically tailored to servicemembers 
and veterans. Roughly 60 percent of the respondents also indicated that 
programs and services for servicemembers and veterans were a part of 
their institutions' long-range strategic plan. Many institutions (both 
public and private) also offered tuition discounts, in-state tuition 
eligibility for veterans and families, and scholarships for veterans.
    Finding funding for additional campus programs and services for 
veterans and families was a common priority for institutions already 
offering such programs (From Soldier to Student, Figure 4, p. 18). In 
the public 4-year sector, roughly 46 percent of institutional 
respondents indicated that as a priority, compared with about 35 
percent of private 4-year institutions.
    Institutions have gone about raising additional funds and creating 
methods to support veteran students on campus and their families--since 
tuition and fee monies, as stated above, are intended to defray the 
instructional costs of providing students with an education--in various 
ways. Some AASCU member examples are as follows:

    <bullet>  George Mason University: won a 2-year, $100,000 Success 
for Veterans Award grant from ACE and the Wal-Mart Foundation to fund 
their Office of Military Services after setting aside funds from 
different offices to create a military liaison position. The grant 
funding also helped George Mason to hire a military and veteran student 
counselor for the university's Counseling and Psychological Services 
office who is specifically trained and experienced in dealing with 
issues such as Traumatic Brain Injury (TBI) and Post-Traumatic Stress 
Disorder (PTSD). In addition, the university also received a grant from 
the Aurora Foundation to support a veteran transition course taught by 
an assistant dean and has veterans working in the Military Services 
office who are funded by the VA work-study program.
    <bullet>  San Diego State University: through private fundraising 
and support from the university president, created what is believed to 
be the first fraternity-styled ``Veterans House'' for student veterans 
and servicemembers to live on campus; the house also serves as a 
community hub for student veterans on campus. SDSU also won an ACE/Wal-
Mart grant for its veteran services programs. In addition, SDSU's 
Campanile Foundation has raised over $150,000 for the Troops to College 
program to date; its goal is to provide scholarships, book vouchers and 
enrichment opportunities to veteran students on campus, as well as to 
support the SDSU student veterans organization.
    <bullet>  New Jersey Association of State Colleges and 
Universities: the association of 9 public colleges and universities 
initially created Operation College Promise (OCP) to serve as a Web 
portal on college information for returning servicemembers. Winning an 
ACE/Wal-Mart grant allowed it to expand its scope to identifying and 
widely disseminating best practices for veteran services on campus, 
including training staff and faculty and developing a resource manual 
for campus service providers. According to the OCP Web site, the 
project currently supports more than 12,000 veterans and their 
dependents attending NJASCU campuses.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      July 13, 2011
Mr. Curtis L. Coy
Deputy Under Secretary for Economic Opportunity
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Secretary Coy:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Legislative 
Hearing on July 7, 2011. Please answer the enclosed hearing questions 
by no later than Thursday, August 18, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-9756.
            Sincerely,
                                                    Bruce L. Braley
                                                     Ranking Member
    JL/ot

                               __________
                 Department of Veterans (VA) replies to
                     Questions for the Record from
                      Ranking Member Bruce Braley
                  House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                          Legislative Hearing
                              July 7, 2011
    Question 1: A suggestion was made by a witness that to manage the 
Post-9/11 GI Bill program the VA should adapt the Department of 
Education's Common Origination and Disbursement (COD) system. Has VA 
considered adopting COD? What are some, if any, challenges the VA would 
have in applying the COD system?

    Response: VA has considered the feasibility of employing a system 
similar to the Department of Education's (ED) COD system. In 2008, VA 
met with ED for a demonstration of its system. At that time VA was 
still developing detailed business requirements but knew we would need 
a system that could do the following:

    1.  Issue payments both to students and schools though Treasury 
after approval;
    2.  Allow VA to tie and track payment information to a specific 
Veteran;
    3.  Allow VA to establish accounts receivable and transfer all debt 
information to the VA Debt Management System;
    4.  Allow VA employees to enter adjustments to beneficiaries; and
    5.  Maintain detailed accounting information at the beneficiary 
level.

    After meeting with ED, VA determined that the COD system would not 
meet all of our requirements.
    On June 30, 2011, representatives from VA and ED met to discuss 
their respective programs and to get a better understanding of each 
system. From this meeting, VA determined that the systems were 
incompatible. Major differences exist in the way the programs are 
administered, which preclude VA from adopting ED's COD system.

    Question 2: When will VA determine the full impact of H.R. 120 on 
the Veterans Benefits Housing Program?

    Response: VA estimates that enactment of H.R. 120 would result in 
additional loan subsidy costs of approximately $441 thousand in FY 
2012., $4.6 million over 5 years, and $12.8 million over 10 years.

------------------------------------------------------------------------
             Fiscal Year                   Caseload        Cost ($000s)
------------------------------------------------------------------------
2012                                   575               $441
------------------------------------------------------------------------
2013                                   575               625
------------------------------------------------------------------------
2014                                   575               990
------------------------------------------------------------------------
2015                                   575               1,174
------------------------------------------------------------------------
2016                                   575               1,364
------------------------------------------------------------------------
5-Year Total                           2,875             $4,594
------------------------------------------------------------------------
2017                                   575               1,486
------------------------------------------------------------------------
2018                                   575               1,577
------------------------------------------------------------------------
2019                                   575               1,660
------------------------------------------------------------------------
2020                                   575               1,722
------------------------------------------------------------------------
2021                                   575               1,781
------------------------------------------------------------------------
10-Year Total                          5,750             $12,820
------------------------------------------------------------------------

    VA estimates the population of surviving spouses of 100 percent 
service-connected Veterans who did not die as a result of their 
disabilities to be 41,461. Applying the FY 2010 usage rate of 1.39 
percent to this population, VA estimates an additional 575 VA-
guaranteed loans each year for these beneficiaries. In VA's housing 
financial model, the incremental workload of 575 loans each year is 
assigned to three loan categories: 5 percent loans, 10 percent loans, 
and no down payment loans. Twenty-nine loans are assigned to the 5 
percent loan category as well as the 10 percent loan category. The 
remaining 517 loans are assigned to the no down payment loan category.

    Question 3: What are the main differences in how VA pays for 
tuition versus the Department of Education?

    Response: Few differences exist in how tuition is paid by the 
Departments. Both VA and ED send payment information to Treasury who 
will then release the payments. Both VA and ED have the ability to pay 
by check or by EFT. ED has more advanced automated tools that schools 
can use to reconcile payments received to accounts.
    Question 4:: What does paying for ``actual charges'' and being the 
``last payor'' mean for VA tuition payments?

    Response: The Post-9/11 GI Bill is one of various programs that 
provides funds designated to cover, in whole or part, tuition and fees 
for an eligible Veteran, Servicemember or dependent. Other programs 
providing funding include: DoD Reserve Officer Training Corps (ROTC) 
scholarships, DoD Health Professionals Scholarships, Merit 
Scholarships, employer-paid tuition, and State tuition reductions 
provided for State National Guard members.
    Often the money from the other programs is credited to a student's 
account before VA receives an enrollment certification from the school. 
Currently, schools submit enrollment certifications and report 
established tuition and fee charges for the student's program of 
education without deducting payments received from other programs. In 
this situation, VA's payment to the school would be greater than the 
remaining balance owed for tuition and fees.
    Asking the schools to report only the actual charges that the 
student was required to pay with his or her own funds eliminates 
duplication of benefits, provides clear rules for students and schools, 
and streamlines the process.

    Question 5: What is the average student veteran population at 
universities across the country?

    Response: Data from VA's annual reporting fee list shows the 
average VA beneficiary population at universities and training 
facilities across the country, including U.S. territories, was 89 per 
educational institution in calendar year 2010. This average is based on 
810,116 beneficiaries enrolled at 9,110 educational institutions. 
However, an individual may have attended more than one educational 
institution. This beneficiary count includes attendance in all VA 
education programs, including the Vocational Rehabilitation and 
Employment (chapter 31) program and the Dependents' Educational 
Assistance (chapter 35) program.

                                 <all>

</pre></body></html>
